<html>
<title> - IRAQ: DEMOCRACY OR CIVIL WAR?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




                     IRAQ: DEMOCRACY OR CIVIL WAR?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  EMERGING THREATS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 11, 2006

                               __________

                           Serial No. 109-247

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                               -------


                     U.S. GOVERNMENT PRINTING OFFICE

38-038 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001















                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
BRIAN P. BILBRAY, California

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                      Benjamin Chance, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

Subcommittee on National Security, Emerging Threats, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
KENNY MARCHANT, Texas                DENNIS J. KUCINICH, Ohio
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         BERNARD SANDERS, Vermont
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           CHRIS VAN HOLLEN, Maryland
TODD RUSSELL PLATTS, Pennsylvania    LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. DUTCH RUPPERSBERGER, Maryland
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            R. Nicholas Palarino, Staff Director and Counsel
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member






















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 11, 2006...............................     1
Statement of:
    Edelman, Ambassador Eric S., Under Secretary of Defense for 
      Policy, Department of Defense; and Rear Admiral William D. 
      Sullivan, Vice Director for Strategic Plans and Policy, 
      Joint Chiefs of Staff......................................    17
        Edelman, Ambassador Eric S...............................    17
        Sullivan, Rear Admiral William D.........................    25
    Nash, William, Major General Retired, U.S. Army, senior 
      fellow for conflict prevention, and director of the Center 
      for Prevention Action Council on Foreign Relations; Bruce 
      Hoffman, professor, Security Studies Program, School of 
      Foreign Service, Georgetown University; and Alan King, 
      former Commanding Officer, 422nd Civil Affairs Battalion 
      Operation, IRAQI Freedom, advisor for Tribal Affairs, 
      Coalition Provisional Authority............................    63
        Hoffman, Bruce...........................................    74
        King, Alan...............................................    91
        Nash, William............................................    63
Letters, statements, etc., submitted for the record by:
    Edelman, Ambassador Eric S., Under Secretary of Defense for 
      Policy, Department of Defense, prepared statement of.......    20
    Hoffman, Bruce, professor, Security Studies Program, School 
      of Foreign Service, Georgetown University, prepared 
      statement of...............................................    78
    King, Alan, former Commanding Officer, 422nd Civil Affairs 
      Battalion Operation, IRAQI Freedom, advisor for Tribal 
      Affairs, Coalition Provisional Authority, prepared 
      statement of...............................................    93
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     9
    Nash, William, Major General Retired, U.S. Army, senior 
      fellow for conflict prevention, and director of the Center 
      for Prevention Action Council on Foreign Relations, 
      prepared statement of......................................    67
    Porter, Hon. Jon C. Porter, a Representative in Congress from 
      the State of Nevada, prepared statement of.................   130
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Sullivan, Rear Admiral William D., Vice Director for 
      Strategic Plans and Policy, Joint Chiefs of Staff, prepared 
      statement of...............................................    27




















 
                     IRAQ: DEMOCRACY OR CIVIL WAR?

                              ----------                              


                       MONDAY, SEPTEMBER 11, 2006

                  House of Representatives,
       Subcommittee on National Security, Emerging 
              Threats, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Kucinich and Van Hollen.
    Staff present: R. Nicholas Palarino, Ph.D., staff director; 
Kaleb Redden, PMI; Robert A. Briggs, analyst; Robert Kelley, 
chief counsel; Jeff Baran, minority counsel; Andrew Su, 
minority professional staff member; and Jean Gosa, minority 
assistant clerk.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Emerging Threats and International Relations 
hearing entitled, ``Iraq: Democracy or Civil War?'' is called 
to order.
    This is an extremely important topic, and thus we want the 
record to be complete, so this hearing will continue over 3 
days today, Monday, Wednesday and Friday. We will hear from 13 
witnesses on 5 panels. Today and Wednesday we will recess, not 
adjourn, at the start of each reconvening session. Members then 
present will have the opportunity to make opening statements. 
In all other respects, we will proceed as usual without 
prejudice to the rights and privileges of any Member.
    Today marks the 5-year anniversary of the terrorist attacks 
on our country. On that fateful day, the World Trade Center, 
the Pentagon and a field in Pennsylvania became epicenters of a 
seismic event still generating shocks across our Nation and 
around the world. It is fitting we begin today by observing a 
moment of silence in recognition of those lost and the 
suffering of the loved ones they left behind. And so I would 
like to ask our panel, our guests, and the Members to stand for 
a moment of silence.
    [Moment of silence.]
    Mr. Shays. Five years after September 11th, our Nation is 
engaged in a global war against what the 9/11 Commission called 
Islamic extremists, and in one of those operational theaters we 
are meeting fierce resistance. The conflict in Iraq finds 
United States and Coalition forces up against increasing 
insurgent, sectarian and terrorist violence.
    Thomas Friedman of the New York Times has supported the 
U.S. objective to foster progressive democracy in the Middle 
East. Bluntly stated, ``it is now obvious that we are not 
midwifing democracy in Iraq. We are babysitting a civil war.'' 
While some may take issue with Mr. Friedman's choice of words, 
the broad contours of his point are clear. The violence in Iraq 
continues, if not increases. The new Iraqi leadership has not 
yet shown the political will to confront it, and efforts to 
promote peace and democracy are stalled.
    Iraqi security forces are truly improving and growing in 
number, but they face an uphill battle if Iraqi politicians are 
not willing to confront the militias and make peace among 
themselves.
    With their country teetering toward chaos and political 
differences impeding progress, Iraqi leaders took a 1-month 
vacation. When their Parliament, the Council of 
Representatives, returned to session last week, more than one-
third was not in attendance.
    Let me be clear. I have and I continue to be a strong 
supporter of our cause in Iraq. I believe it is a noble effort. 
We have no choice but to win. But we must go where the truth 
leads us, wherever it leads us. During this week in three 
separate hearings, our committee will determine security force 
levels; prospects for national reconciliation; and the 
consequences of leaving Iraq immediately, later but still 
prematurely, or when Iraqis are capable of taking over for 
Coalition forces.
    At today's session we are focusing on the numbers of Iraqi 
security forces required to secure their own country. The 
answer to this question is critical to the Iraqi people and to 
Americans here at home.
    We will hear first today from Ambassador Eric Edelman, 
Under Secretary of Defense for Policy at the Department of 
Defense; and Rear Admiral William Sullivan, Vice Director for 
Strategic Plans and Policies representing the Joint Chiefs of 
Staff.
    During panel two we will hear from retired U.S. Army Major 
General William Nash, senior fellow and director of the Center 
for Preventative Action at the Counsel on Foreign Relations; 
Dr. Bruce Hoffman, an expert on insurgencies and terrorism 
previously at RAND Corp. and currently professor of strategic 
studies as Georgetown University; and Mr. Alan King, who 
commanded a U.S. Army civil affairs battalion in Iraq and was 
advisor for tribal affairs to U.S. authorities in Iraq.
    We thank all of our witnesses for their participation.
    [The prepared statement of Hon. Christopher Shays follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. At this time the Chair would recognize Mr. 
Kucinich and thank him for his presence, and then we will go to 
our colleague from Maryland.
    Mr. Kucinich. I thank you very much, Mr. Chairman, and 
while I think it is very important that we hold these hearings, 
I want to caution about having a hearing about Iraq on 
September 11th, because one of the problems that this country 
has suffered from in the last few years has been the conflation 
of September 11th with Iraq. The administration now, this 
administration, that has led us into a war blaming or trying to 
connect Iraq with September 11th has now itself been confronted 
with widespread public opinion that insists that everything 
they told us wasn't so. I don't know that it is particularly 
productive to have a hearing on Iraq on September 11th, but we 
are here, and we will proceed.
    I also think that we have some new information that has 
come up in today's Washington Post that would require, I would 
hope, this committee to proceed with questions of individuals 
quoted in a story that said the prospects for securing the 
country's western Anbar Province are dim, and there is almost 
nothing the U.S. military can do to improve the political and 
social situation. One Army officer described as saying we 
haven't been defeated militarily, but we have been defeated 
politically. There is a report saying there is no function in 
the Iraqi Government institution in the Anbar Province, leaving 
a vacuum that has been filled by al Qaeda; another that 
describes Anbar beyond repair. Another report says the United 
States has lost at Anbar, that military operations has faced a 
stalemate, local governments in the province have collapsed, 
leaving central government with no presence.
    I mean, I don't know what we are going to talk about today, 
but it seems that would be a pretty good place to start. 
Nevertheless, I want to thank the Chair for the hearing. These 
oversight hearings have been long overdue. Five years after the 
national tragedy of the terrorist attacks on September 11th, 
and more than 3 years after the White House and the Pentagon 
decided to invade Iraq in 2003, more Americans have thrown away 
those rose-colored glasses distributed by the White House and 
the Pentagon and discovered the disturbing truth underneath. We 
are not greeted as liberators, but, instead, Iraq's occupiers.
    There is a war of national liberation going on in Iraq 
right now, and its goal is to liberate Iraq from Americans. 
Meanwhile, the factions in the struggle are vying for power. 
That is the civil war. The situation is grim. Iraq is heading 
toward an even deepening civil war, and it may be too late for 
anyone to keep Iraq from tearing itself apart. Contrary to what 
the White House claims, neither Iraqis or Americans are safer 
now than they were a few years ago. Violence has skyrocketed, 
and each day more American troops are put in harm's way, 
targets of insurgents and deadly IED explosive bombs.
    More than 2,600 American troops have been lost in the 
course of military operations in Iraq. The number of attacks 
initiated by the insurgents have continued steadily upwards. In 
spite of a rising numbers of Iraqi police, and in spite of 
prolonged occupation, in spite of increasing number of IEDs 
that are detected and disarmed, there is a rising number of 
deadly IED attacks, each recent month deadlier than the last. 
The average number of daily attacks by insurgents has steadily 
risen. In the past 3 months, the daily attack rate hasn't 
fallen below 90.
    Now, the Vice President would look at those observations 
and say, oh, this doesn't serve America's purpose to talk about 
it. But this Vice President has had difficulty confronting the 
truth, and he's been one of those who led this country into a 
war based on falsehoods, statements that he should be held 
legally accountable for.
    Now, if Iraqis--whether it is a vicious cycle of death 
squad execution-style killings carried out by militia groups or 
the skyrocketing number of kidnappings, bombs and sectarian 
violence which occur daily, 120 Iraqis are dying every day. 
Baghdad's coroner reports that tens of thousands of murders are 
occurring each month. Is that right? Is that right? Iraqis are 
not as safe as they were 3 years ago. Between 100,000 and 
200,000 innocent Iraqis have died as a result of the U.S. 
invasion. Hundreds of thousands of Iraqis are internally 
displaced, afraid to leave their homes at night, and 
distrustful of the still ethnically segregated and very green 
Iraqi police force. The unemployment rate is estimated to be 
between 25 and 40 percent, and the Iraqi Government Ministry 
places the number at 48 percent.
    Now, is it any wonder that despite what the Vice President 
and Deputy Secretary of Defense told this Congress and the 
country, we were not, in fact, greeted as liberators? Or is 
there any wonder in some Iraqis' eyes, Saddam's regime is 
beginning to look like the good old days?
    Last week a coalition of 320 tribal leaders demanded the 
release of Saddam Hussein and possibly reinstated to the post 
of President. They are not a majority, but consider what public 
opinion polling shows in Iraq. Forty-seven percent approve of 
attacks on Americans. Iraq is, unfortunately for the Iraqis and 
American soldiers who are ordered to be there, a hopeless and 
deadly tragedy created by an elective U.S. war and by our 
elected government.
    It was clear to me as it was to many other Members of 
Congress from the outset that the Bush administration's real 
goal was not democracy building. It was an arrogant, costly and 
immoral exercise to win an election at home and flex American 
military muscle abroad. And I also personally think that it may 
have had something to do with oil.
    Now, Iraq had nothing to do with September 11th. Saddam had 
no ties to al Qaeda. Iraq did not pose a meaningful threat to 
the United States or its allies. What do we have today? Iraq a 
breeding ground for terrorists. The occupation of Iraq is a 
major, perhaps crippling drain on U.S. military. We went into 
Iraq looking for many WMDs, but instead all we got were IEDs.
    And I wonder, is the Bush White House trying to repeat this 
bait-and-switch strategy now in Iran? Consider the parallels. 
In late 2002, the President identified a dangerous Middle 
Eastern regime whose leaders were intent on possessing weapons 
of mass destruction including nuclear weapons, and his regime 
supported terrorists. In 2002, the administration emphasized 
the magnitude and imminence of the threat even though 
intelligence agencies put the threat years into the future. 
Sounds a lot like 2006, doesn't it?
    In 2002, the administration went to the United Nations to 
make its case against Iraq. Sounds a lot what the 
administration is doing in 2006, doesn't it?
    In 2002, prior to receiving authorization to use military 
force, the administration launched Operation Southern Focus, a 
bombing campaign against Iraq's air defenses, and here we are 
in 2006, prior to receiving authorization, U.S. military 
personnel are already deployed inside and around Iran preparing 
the battlefield by gathering targeting information, targeting 
intelligence, recruiting local fighters according to 
independent reports published in the New Yorker magazine and 
the Guardian.
    According to independent results published in Newsweek, ABC 
News and GQ magazine, the United States has been planning and 
is now recruiting members of MEK to conduct lethal operations 
and destabilizing operations inside Iran.
    Do these reports mean that DOD has already begun hostile 
actions against Iran, as was the case prior to the Iraq war? 
Has the administration already taken the decision to attack 
Iran, and is Congress and the American public now coming under 
the influence of an orchestrated campaign to take this country 
into military conflict again, as was the case prior to the 
midterm elections of 2002? Has the President and Secretary of 
Defense's recent speeches mentioned Iran in intending to 
prepare Congress and the American public for war against Iran?
    I don't know, but the news reports merit this 
subcommittee's aggressive investigation. These are precisely 
the sort of questions this committee is designed to pose, and 
DOD is the agency with the answers. But get this: The 
Department of Defense failed to show up for a classified 
briefing, which was initiated at my insistence on these 
questions in June. Here we are nearly 3 months later. All the 
subcommittee has been able to get is a promise from DOD that 
they'll eventually get a response in writing to the 
subcommittee. This administration has long misled Congress and 
the American people, but now they are deluding themselves if 
they think Iraq is making progress.
    With another possible war in the offing against Iran, this 
is indeed a grim time for America and all of the world. It is a 
dishonor, too, for the victims of the September 11th disaster. 
The war in Iraq and possible war in Iran are deadly 
distractions to apprehend the perpetrators of September 11th 
and prevent a recurrence.
    Thank you, Mr. Chairman, for holding these hearings. Thanks 
to all of the witnesses that are appearing before the 
subcommittee.
    Mr. Shays. Thank you.
    [Note.--The Select Committee on Intelligence report 
entitled, ``Postwar Findings About IRAQ's WMD Programs and 
Links to Terrorism and How They Compare With Prewar 
Assessments,'' may be found in subcommittee files.]
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Shays. Mr. Van Hollen.
    Mr. Van Hollen. I thank you, Mr. Chairman, for holding this 
hearing, and thank you to Congressman Kucinich and to the 
witnesses who are here today.
    We gather here on a solemn occasion, the 5th anniversary of 
the attacks of September 11, 2001, and I do think it is 
important to go back to that day to remember where those 
attacks came from, because this hearing is focused on Iraq, but 
we all know that the attacks of September 11th had nothing to 
do with Iraq, had nothing to do with Saddam Hussein. And, in 
fact, just Friday a Select Senate Intelligence Committee report 
from the Republican-controlled Senate was released saying there 
had never been any collaboration between Saddam Hussein and al 
Qaeda. So it is important to put that to rest as we begin this 
hearing.
    The attacks 5 years ago today came out of Afghanistan, a 
failed state, where after the Soviet Union withdrew, the United 
States lost interest, the Taliban Government was able to take 
root, and in that state of affairs al Qaeda was able to plant 
itself and flourish.
    And the United States did exactly the right thing in the 
aftermath of those attacks. It took quick action, and it took 
action with the support of the world. The NATO Alliance fully 
backed it, invoked the article of the NATO Charter saying an 
attack on one is an attack on all. The U.N. General Assembly 
unanimously passed a resolution condemning the attacks on the 
United States and rallying behind the United States in our 
fight on terrorism.
    And here we are 5 years later where the world is no longer 
by our side, our country is divided in many ways, and we have 
not finished the job in Afghanistan, not by a long shot. We 
know that there has been a resurgence of Taliban activity in 
southern Afghanistan. General Maples, the head of the DIA, 
testified before the Senate this year that he had seen a rise 
in escalation of violence. We see it now in reading the 
newspapers and following what is going on there every day.
    And yet at this time we have actually reduced the number of 
American forces in southern Afghanistan. We have disbanded the 
one unit at the CIA that had the specific mission of going 
after al Qaeda. We now know that the opium harvest in 
Afghanistan is at an all-time historical high.
    And we also know that the Pakistani Government has now 
entered into a cease-fire nonaggression pact with those in the 
tribal areas in Waziristan where the Taliban are essentially 
assembled, and which does provide a fertile ground for al Qaeda 
to continue to plot and continue to plan to attack the United 
States and its allies. And just in today's Washington Post, 
Ahmed Rashid, a Pakistani journalist, writes that if you go up 
to Waziristan these days, it is now a fully operational al 
Qaeda base area offering a wide range of services, facilities 
and military and explosive training. For extremists around the 
world planning attacks, Waziristan is now a regional magnet. In 
the past 6 months, 1,000 Uzbeks escaping the crackdown in 
Uzbekistan after last year's massacre by the government 
security forces in the town of Andajan have found sanctuary 
with al Qaeda, and others are coming.
    The point of the fact is here we are 5 years after the 
attacks upon our country, and yet we have not completed the 
mission. We all remember the President's statement aboard the 
USS Abraham Lincoln in May 2003 with the big banner, Mission 
Accomplished, and yet here we are today 5 years after the 
attacks on this country from Osama bin Laden and al Qaeda. They 
are still at large, the Taliban is regaining its strength, and 
we have not completed the mission.
    So I hope as we talk today about Iraq, we recognize that we 
did as a Nation take our eye off the ball. We are bogged down 
in Iraq. It is a mess in Iraq, and yet we never completed the 
job against al Qaeda and Osama bin Laden. That is work we have 
yet to do.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you.
    For the purposes of clarifying the record, Mr. Kucinich.
    Mr. Kucinich. For the purposes of clarifying the record, I 
made a statement relative to the number of murders that are 
occurring each month according to Baghdad's coroners, and I 
want to correct the record to say there are--based on 
information that I have asked for, that the coroners are 
reporting that over 1,000 murders are occurring each month. 
That is corrected to say over 1,000 murders are occurring each 
month.
    Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentlemen.
    At this time the Chair would recognize--introduce our 
panelists. We have Eric Edelman, Under Secretary of Defense for 
Policy; and Rear Admiral Sullivan, Vice Director for Strategic 
Plans and Policies, of Joint Chiefs of Staff.
    Gentlemen, as you know, we swear in our witnesses. So I 
invite you to rise, and I will swear you in.
    [Witnesses sworn.]
    Mr. Shays. I note for the record our witnesses have 
responded in the affirmative. Thank you. Please be seated.
    We are going to start with you first, Ambassador, but this 
is what I would like to be fairly clear on before you start. We 
are going to invite you to speak. The clock will be on for 5 
minutes, and we're going to roll it over for another 5 minutes. 
Frankly, given the size of the Members here and the fact that 
our panels are fairly small, I want you to make your statements 
as long as it takes. We will then do 10-minute questions, and 
we will do a second round. We may even do a third round.
    So the bottom line to this, there will be no rushing. There 
will be no interrupting of witnesses. Just be able to have as 
much time as we need, and I would just like to request as a 19-
year veteran of this committee that we have total and complete 
candor; that we are just honest with ourselves about what we 
are asking, what we are answering, and from that only good can 
come. So that's my request to everyone who would participate 
today.
    Ambassador, thank you for being here. Thank you for all 
your good work.

 STATEMENTS OF AMBASSADOR ERIC S. EDELMAN, UNDER SECRETARY OF 
  DEFENSE FOR POLICY, DEPARTMENT OF DEFENSE; AND REAR ADMIRAL 
  WILLIAM D. SULLIVAN, VICE DIRECTOR FOR STRATEGIC PLANS AND 
                 POLICY, JOINT CHIEFS OF STAFF

            STATEMENT OF AMBASSADOR ERIC S. EDELMAN

    Ambassador Edelman. Thank you, Mr. Chairman, and Mr. 
Kucinich and Mr. Van Hollen. I am pleased to appear before the 
subcommittee today at your request, Mr. Chairman, to discuss 
Iraq, and I am joined, as you noted, by Rear Admiral William 
Sullivan, the Vice Director of Plans and Policy on the joint 
staff. We will be providing testimony on whether the Iraqis can 
assume full internal security responsibilities.
    As has been noted by several of the Members, the terrible 
events of 5 years ago mark this somber day. The terrorist 
attacks in New York, Washington and Pennsylvania serve as a 
daily reminder of the type of enemy we are fighting.
    The main fronts against this enemy are currently in Iraq 
and Afghanistan. Our soldiers, sailors, airmen, marines and 
coastguardsmen are doing a superb job fighting the enemy and 
laying the foundation in Iraq and Afghanistan to help remove 
the radical ideology that spawns terrorism.
    A peaceful, united Iraq constitutionally ordered to 
democratic principles will undermine the insistence of radical 
Islamists that Islam and democracy are incompatible. It will 
also challenge the legitimacy of theocratic ideologies and the 
dead end of national socialists' theories of governance. Iraq 
is the fulcrum for all of this.
    The military component of our national strategy in Iraq is 
to fight terrorists and to train Iraqi security forces. Our 
goal is for the Iraqis to take responsibility for their own 
security and be an ally on the war on terror. As laid out in 
the National Strategy for Victory in Iraq, our goal is an Iraq 
with a constitutional, representative government that respects 
civil rights and has security forces sufficient to maintain 
domestic order and keep Iraq from becoming a safe haven for 
terrorists.
    Iraqi security forces continue to improve and become more 
effective and on a firm path for self-sufficiency. Our success 
in training and equipping over 294,000 Iraqi Army and Police 
personnel has hastened Iraqi assumption of responsibility for 
their own security. As the Iraqis take control of their 
country, we continue to hand over forward operating bases to 
them. The U.S. military is on track to finish the initial 
training of the currently projected Iraqi forces this December, 
although the increase recently proposed by Prime Minister 
Maliki may lengthen the time somewhat.
    You have asked the question when we can expect Iraqi 
security forces in taking the lead in securing territory and 
population. As of the end of July, there are 5 Iraqi division 
headquarters, 26 Iraq brigade headquarters and 85 Iraqi 
battalions as well as several Iraqi National Police battalions 
operating in the lead across Iraq.
    Six months ago there were just 2 divisions, 10 brigades and 
43 battalions in the lead. Every day Iraqi security forces take 
more responsibility for parts of Baghdad and other areas 
throughout the country. Currently over 65 percent of Iraq, 
including the major population centers, are under the Iraqi 
Army lead.
    Iraq achieved a historic milestone on July 16, 2006, with 
the transfer of security responsibility in Muthanna Province 
from MNF-I to the Provincial Governor and civilian-controlled 
Iraqi Police Service. Muthanna is the first of Iraq's 18 
provinces to be transitioned to provincial Iraqi control, which 
represents the successful development of Iraq's capability to 
govern and protect itself as a sovereign and democratic nation. 
We expect to hand over Dhi-Qar soon and several more provinces 
by year's end.
    Iraqis still face the challenges they have struggled with 
for the last few years: lack of experience, logistic 
shortfalls, effective vetting, governing capacity, and changing 
enemy tactics, among other things. One thing I believe that the 
Iraqis do have is will. Iraqi Deputy President Abdel Mahdi said 
recently that the lines to enlist for the Iraqi security forces 
are still long. The Iraqis clearly want to win their fight for 
democracy.
    Conditions on the ground, not arbitrary timelines, will 
determine our success in Iraq. The newly formed Joint Committee 
to Achieve Iraqi Security Self-Reliance is composed of the 
Iraqi Prime Minister, Iraqi National Security Advisor, the 
Minister of State For National Security Affairs, the Ministers 
of Defense and Interior, the Director of the Iraqi National 
Intelligence Service, the U.S. Ambassador, the U.K. Ambassador, 
and Commanding General and Deputy Commanding General of 
Multinational Forces, Iraq.
    The committee will develop a conditions-based roadmap for 
full transition of security responsibility to the Iraqi 
security forces. The roadmap will consist of recommended 
conditions intended to lead to the eventual and gradual 
withdrawal of multinational forces from Iraq.
    As with the overall war on terror, there are some serious 
and significant challenges that we must overcome in Iraq. The 
last several months has seen a rise in violence specifically 
around Baghdad, although since late July there has been a small 
reduction. Coalition and Iraqi forces are adjusting their 
tactics to deal with the rise of this violence. On July 27th, 
the Secretary of Defense extended the deployment of 3,700 
troops to Iraq to help counter the increased violence. Prime 
Minister Maliki also pledged an additional 4,000 Iraqi troops.
    The Baghdad campaign is a critical test, and we have had 
some initial success. This success now needs to be followed up 
by the Iraqis with civil projects and civil services. Military 
commanders and the U.S. Embassy have encouraged the Iraqis to 
take this sort of action.
    During his recent visit to Washington, Prime Minister 
Maliki made it clear that he does not want American troops to 
leave Iraq until his government can protect the Iraqi people. 
As President Bush has said, conditions on the ground and the 
advice of military professionals will dictate the number and 
disposition of the U.S. forces in Iraq. The United States will 
stay on the offensive and continue to support and train Iraqis 
so they can develop the skills necessary to defend their 
country. Sectarian violence is leading some groups to see U.S. 
forces as a reassuring and stabilizing factor especially now; 
for example, the successes in Baghdad mentioned earlier.
    There is no denying that conditions that could lead to 
civil war exist. Sustained enthosectarian violence is perhaps 
the greatest threat to security instability in Iraq today. 
Militias and other extragovernmental armed organizations are a 
major factor in the continuing violence. However, during his 
visit to Washington in late August, Deputy President al-Mahdi 
said that Iraq is not in a civil war, nor did--nor, he said, 
will it be. He further noted that all groups in the country are 
committed to the unity of the country. He said Iraqis 
understand the dangers of a civil war, and we agree.
    Today the situation is that, one, there is a national 
government that includes leaders of all communities; and, two, 
the Iraqi security forces are intact and growing. We can stem 
the violence by continuing to provide sufficient U.S. presence 
while Iraqi security institutions develop. At the same time, we 
will promote wider engagement using nonmilitary elements of the 
national government and continue reconstruction at the local 
level to secure popular support.
    Every day the men and women of the U.S. military protect 
not only the United States, but also our allies from our 
adversaries. They provide the backbone that enables Afghanistan 
and Iraq to have hope for the future. Our involvement in 
Afghanistan, Iraq and other places in the world is essential to 
our fight against terrorism. The men and women of our Armed 
Forces will not falter in this duty.
    Mr. Chairman, that concludes my statement, and I would 
request that it be entered into the permanent record.
    [The prepared statement of Ambassador Edelman follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. You remind me of a task of that I'm supposed to 
remember. But bad staff work here. I ask unanimous consent that 
all members of the subcommittee be permitted to place an 
opening statement in the record, and the record will remain 
open for 3 days for that purpose. And without objection, so 
ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statements in the record. 
Without objection, so ordered.
    Your statement was read, and anything that you would like 
to provide in addition to that will be part of the record. I 
thank you for a statement that is a good launching for the 
questions that I have. So thank you very much.
    Admiral, thank you for being here, and we look forward to 
your testimony as well.

                STATEMENT OF WILLIAM D. SULLIVAN

    Admiral Sullivan. Thank you, Mr. Chairman, Representative 
Kucinich, Representative Van Hollen. Thank you for the 
opportunity and your concern for the Nation's security and the 
opportunity to testify before you this morning. I appreciate 
your support of the men and women of our Armed Forces who, 
around the world, in every climate, and often far from home and 
family, are serving our Nation.
    From a military standpoint, our goal remains an Iraqi 
Government that transitions to security self-reliance where all 
Iraqis unite against violence, and where the Government of Iraq 
provides security, law and order and is a legitimate authority. 
The Iraqi security forces are on track and continue to make 
significant strides, as mentioned in Ambassador Edelman's 
opening comments, toward this goal.
    To highlight a recent major milestone, in the first week of 
September, the Ministry of Defense and the joint headquarters 
assumed operational control of the Iraqi Ground Forces Command, 
Iraqi Navy and Iraqi Air Force. The Iraqi Ground Forces Command 
assumed operational control of the 8th Iraqi Army Division, 
demonstrating the increased capability of the Iraqi Army to 
assume control of security tasks. Future transfers will be 
gradual, but the Government of Iraq will dictate when the Iraqi 
Ground Forces Command is ready to assume more control.
    To reiterate the current status of Iraqi security forces, 
the Iraqi Army now includes 5 division headquarters, 26 
brigades, and 85 battalions in the lead for security operation 
across Iraq. All 28 Iraqi National Police battalions, in 
conjunction with 118,000 Iraqi Police service officers, are 
executing daily security operations.
    As the Government of Iraq and Iraqi security forces mature, 
the capability exists to expand the current 325,000-man 
security force structure. Plans are being developed by the 
Government of Iraq to add up to 31,000 security forces to 
address future capability needs.
    In addition to providing security, the Iraqi Army and 
Police are also assisting in humanitarian efforts and other 
local civic actions, providing security for essential service 
construction projects, repairing local schools, and engaging in 
projects to improve local area appearance and pride. The 
highlight of current security operations is focused on the 
nation's capital, Baghdad.
    Operation Together Forward is an Iraqi-planned and -led 
operation to ensure the security of Baghdad against attacks 
designed to uproot democracy and derail Iraq's commitment to 
progress. These operations are designed to reduce the level of 
murders, kidnappings, assassinations, terrorism and sectarian 
violence in specific areas of Baghdad, and to reinforce the 
Iraqi Government's control.
    Our joint operations continue to make progress, and we are 
cautiously optimistic and encouraged by the early indicators. 
More time will provide a better assessment. This operation will 
take not weeks, but months.
    Let me address the question of setting a timetable for 
withdrawal. In the military judgment of our commander, a 
precipitous withdrawal from Iraq would have severe negative 
consequences. A withdrawal could increase sectarian strife, 
possibly embolden terrorists and other factions, and also 
encourage already unhelpful neighbors like Iran.
    It is also our assessment that fixed timetables for 
withdrawal of Coalition forces are not productive. We 
understand and concur with the need to keep the Iraqi 
Government motivated to quickly address many of the complex 
economic and political issues that are contributing to the 
violence. However, confidence that we as a Nation are committed 
to succeed with the Iraqis, even when Coalition forces are no 
longer necessary, is key to enable political accommodation 
among many of the factions. The enemy, which includes al Qaeda 
and certain armed militia groups, should not know of our plans. 
There are many ways to sustain pressure on the Iraqis to solve 
their political and economic issues. A timetable is not the 
best option and, in our judgment, would be counterproductive. 
The U.S. military does not underestimate the challenges that we 
face in Iran.
    Mr. Chairman, I would like to personally thank you for your 
enduring commitment to our Armed Forces as evidenced by your 14 
trips to the Iraqi theater of operation. I also offer my thanks 
to the committee as a whole for the continuous support of our 
Armed Forces.
    In closing, Mr. Chairman, Representative Kucinich, 
Representative Van Hollen, thank you for allowing me to testify 
before you this morning, and I look forward to your questions.
    Mr. Shays. I thank you very, much Admiral.
    [The prepared statement of Admiral Sullivan follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Shays. Let me say there are three Members. I would 
usually start off. Sometimes I usually go last. What I'll do is 
I will have Mr. Kucinich go first when he gets back here, and 
then I'll go, and then I'll go to my colleague from Maryland.
    And I just want to say that it is my hope that we can learn 
from this hearing information that helps guide us to understand 
what it is going to take to transfer power to the Iraqis, and 
that is obviously the goal of this hearing, but obviously other 
things will come up as well.
    Mr. Kucinich, you are free to ask any questions you want. 
You have the floor.
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    To both Ambassador Edelman and to the rear admiral, have 
either of you read the report in today's Washington Post about 
the situation--headline: Situation Called Dire in West Iraq?
    Ambassador Edelman. Congressman Kucinich, yes, I have read 
both the Washington Post article and the classified document 
which it appears to refer to.
    Admiral Sullivan. As have I, both articles.
    Mr. Kucinich. Would you agree or disagree with the article 
which says that prospects for securing the country's western 
Anbar Province are dim, Mr. Edelman?
    Ambassador Edelman. Well, I want to be a bit careful what I 
say in open hearing, Mr. Kucinich, because the document 
underlying the Washington Post article is a classified 
document. I would say that like any operational assessment, it 
is a snapshot in time. I think it should not be generalized 
beyond the situation in Anbar to which it refers.
    I think it is clear to all of us who have been involved in 
this issue for a while that Anbar has been the epicenter of the 
insurgency for some time; that a purely military solution to 
any insurgency is not possible, it needs a political solution 
as well. We have had successful operations in Fallujah that 
have continued to provide some measure of security there. We 
have ongoing operations in Ramadi. We have a PRT that's been 
set up in Anbar precisely because General Casey believes that 
the political dimension, social dimension, as well as the 
kinetic military dimension are required to succeed there. And I 
think it highlights the--the article highlights the importance 
potentially of provincial elections in the future to enable a 
local government empowered by the residents of Anbar to take 
responsibility for many of those issues that they have to take 
responsibility for ultimately.
    Mr. Kucinich. Is there a functioning Iraqi Government 
institution in Anbar?
    Ambassador Edelman. Well, I think, again, Secretary 
Rumsfeld has said that he is hoping to have before the Congress 
goes out in September an opportunity for an operation intel 
hearing in a classified session where I think we could go in to 
perhaps some more detail.
    I think clearly the capacity of the Iraqi Government to 
establish itself not just in Baghdad, but throughout the 
country, is an important challenge that they face, and it is a 
challenge to defeating this insurgency.
    Mr. Kucinich. Has local governments collapsed in Anbar?
    Ambassador Edelman. I don't know that I could make a 
judgment to that effect. I would have to get back to--we can 
get back to you with a better assessment of that than I can 
give at this moment.
    Mr. Kucinich. Has a vacuum in Anbar been filled by al 
Qaeda?
    Ambassador Edelman. Al Qaeda in Iraq has had a presence in 
Anbar since the very beginning of the insurgency. And I think 
it is fair so say that there have been a number of forces in 
the province, including a number of tribal forces, who have 
reacted to that and have attacked Anbar or attacked al Qaeda in 
Iraq themselves and have begun to reach out and work with the 
Iraqi Government to try and curtail the influence of al Qaeda 
in Iraq.
    Mr. Kucinich. How many Iraqi provinces are there?
    Ambassador Edelman. Eighteen.
    Mr. Kucinich. How many of those provinces have been turned 
over to Iraqis?
    Ambassador Edelman. We have turned over so far one province 
to the Iraqis for them to take the lead for security. We hope 
to turn over a second in the future.
    Mr. Kucinich. Isn't it true that General Casey has 
predicted that all responsibility for Iraqi security will be 
turned over in 12 to 18 months?
    Ambassador Edelman. I think we would hope that over the 
next 12 to 18 months, we can turn over increasing 
responsibility, but as we've said, that judgment will have to 
be made on the basis of conditions on the ground at the time 
and as a result of the work of the joint committee on turning 
over Iraqi security responsibilities.
    Mr. Kucinich. Would you agree with the prediction that says 
all responsibility for Iraqi security will be turned over in 12 
to 18 months?
    Ambassador Edelman. I don't know that I would feel 
comfortable in making a prediction at this point in time, 
because the enemy gets a vote in this, and we will have to see 
what happens.
    Mr. Kucinich. Is it true that the Anbar Province accounts 
for about 30 percent of Iraq's land mass?
    Ambassador Edelman. It is a very large mass, but not all of 
it is populated.
    Mr. Kucinich. Here's a map of Iraq that I actually brought 
down from my office door where it's been since the invasion was 
discussed, and if you look at Anbar Province, you have a pretty 
substantial area here which is bordered by Jordan and Syria. 
And what I am wondering here is what would you call this 
province, a key province?
    Ambassador Edelman. It is a key province in order to defeat 
the insurgency, but Iraq right now has, in addition to the 
insurgency, other very serious security problems having to do 
with ethnosectarian violence, with criminal activity, militia 
activity. So it is one of many, many problems we have to deal 
with there, and the Iraqi Government and the security forces 
need to.
    I mean, Anbar, while it has a large proportion of the 
geographic space, is actually, as I said, very sparsely 
populated. I believe it is less than 5 percent of the 
population of Iraq.
    Mr. Kucinich. Would you agree that a report which would say 
that Anbar is beyond repair would have significance for this 
administration's long-term strategies for Iraq?
    Ambassador Edelman. I am not sure that is what the report 
says. Again, I want to be careful because it is a classified 
document. I don't want to be quoting from it in an open hearing 
because it is an operational assessment, and I don't think from 
the point of view of continuing the fight in Anbar it is 
productive to discuss it in the public hearing.
    Mr. Kucinich. Wouldn't it be of interest to the parents of 
American soldiers who are being sent to fight that they would 
know that a report existed that said that a province was beyond 
repair, and the thing couldn't be won military? Wouldn't that 
be of interest, Mr. Edelman?
    Ambassador Edelman. It is an important report. We have 
taken it very seriously. We are in contact with our colleagues 
out in the multinational force, Iraq, to get the commander's 
assessment, because this is an operational assessment by one 
very good intel officer. It is a snapshot in time, as I said, 
and I don't know that one can extrapolate certainly beyond 
Anbar Province from it. And even with regard to Anbar, it makes 
the statement that we all agree with, which is that there has 
never been a purely military solution to the insurgency in 
Anbar. It's always been a situation that would require both 
political, economic, social and other efforts, as is the case 
in all counterinsurgency.
    Mr. Kucinich. Do you think this Congress and this committee 
is entitled to information relating to the conduct of the war 
as to whether or not any of the conditions merit the United 
States' continued presence there?
    Ambassador Edelman. Absolutely.
    Mr. Kucinich. Do you think that this report should be 
available publicly to the Congress since elements of it have 
been published in the Washington Post?
    Ambassador Edelman. As I said, the Secretary has said he 
would like to schedule an ops intel briefing for the Members of 
the Congress, and I think that would be the appropriate time to 
take up that report.
    Mr. Kucinich. Mr. Chairman, there is like a scam that comes 
out of this White House. They release information, or 
information is released through the media, and then when 
Congress wants to ask further questions, they say, oh, it is 
classified. I mean, this is one of the reasons I didn't go to 
the classified briefings, because you read about it on the 
front page of a major newspaper, and then you are told, well, 
you can't talk about it because it is classified.
    What a bunch of baloney. You have people's lives at stake 
here, Ambassador, and I am just wondering when you are going to 
come back to the Congress and be forthcoming about what the 
real situation is. I mean, I appreciate your nuanced reply 
here, but that is not adequate enough because there are lives 
on the line here.
    Ambassador Edelman. Congressman, essentially I agree with 
you that the Congress is entitled to information about this. We 
are here today to try and provide you with as much information 
as we can. But this--I think an operational assessment of a 
very hot zone in the battlefield is not necessarily something 
that ought to be discussed in the public session when the 
enemy, you know, is clearly following the discussion.
    Mr. Kucinich. Here's your testimony. You said conditions on 
the ground--Mr. Chairman, this is what we are here for, right? 
You said conditions on the ground, not arbitrary time lines, 
will determine our success in Iraq. I want to read that again 
so everybody understands the implications of this. Conditions 
on the ground, not arbitrary time lines, will determine our 
success in Iraq.
    So if you have a report that says that conditions on the 
ground are deteriorating to the point of where there is nothing 
that is to be won, and then you have that report essentially 
suppressed as classified, and then you have offered to the 
general public some rosy determination that says that, well, we 
are going the stay there 12 months, 18 months, they got 1 
province of 18 under control----
    Ambassador Edelman. Congressman, I take issue with the 
notion that the report has been repressed. On the contrary, a 
lot of----
    Mr. Kucinich. You won't offer it to this committee right 
now, will you?
    Ambassador Edelman. It is a classified document. A lot of 
us have been looking at it very closely.
    Mr. Kucinich. Well, the dead bodies that are coming back to 
this country aren't classified, OK, but they are there based on 
fighting presumably because this administration put them there. 
They are there because they are told that America is going to 
win this. Well, you know what? We have the front page of the 
Washington Post. I didn't make this up. It was in the paper 
today. You read it.
    Mr. Shays. I thank the gentleman. And----
    Ambassador Edelman. If I might, Mr. Shays, I would like to 
reply to the very last point.
    I agree that it is not a good thing for classified 
documents to be leaked. I think it is important to be able to 
discuss this in the appropriate settings, and I think we are 
prepared to do that.
    Mr. Shays. I thank the gentleman. I yield to myself now for 
10 minutes, and to thank both of you again for being here.
    I am going to preface my comments that will give you a 
sense of where I am coming from based on my first-time 
questioning and my second or third if we go to third round.
    I go every 3 to 4 months, and I was there with staff in 
April 2003. People in Iraq were euphoric, and if we had made 
progress from that point, I think we probably wouldn't be there 
in any great number today. It's my opinion we took a huge 
nosedive, and I can see it happening as I would go 3 months 
later and then 3 months after that. Iraqis were horrified that 
we allowed the looting. Frankly, they thought it showed 
incredible disrespect to their country that we didn't attempt 
to stop it. And I understand the motivation. We didn't want to 
have a conflict with citizens right away. But it was a huge 
mistake.
    The disbanding of the army, the police and the border 
patrol to this day boggles my mind. We basically left a nation 
of 26 million people with no police, and then we said to 
150,000 Coalition forces, give or take, that they would be the 
security for a nation of 26 million people. We speak English. 
They speak Arabic.
    It would be, for me, to think of New York State and to 
think of New York State with Iraqis coming in saying there will 
be no police in any part of New York State, no police in New 
York City, no subway police, no security whatsoever. Now, New 
York is one-third the size of the United States--excuse me, of 
Iraq, and it has 10--excuse me, it has 19 million people as 
opposed to 26 million. Imagine all of New York State with no 
police.
    What is obvious to me is there would be things that happen 
like gangs roving the streets; banks not able to provide 
security, so hiring separate guards to protect their 
transactions. I mean, I can just keep going, and you get the 
gist of where I am coming from.
    So for me to then think, well, 150,000 troops who speak 
English are going to provide the security makes me have a lack 
of confidence, one, in making the decisions that we made; and, 
two, a lack of confidence in the numbers that were provided to 
us.
    I saw a huge progress from June 2004 when we transferred 
power to the Iraqis and gave the government an Iraqi face, and 
Iraqis started to make decisions, and we brought the State 
Department in to do the Nation building and relationship, and 
we kept DOD more focused on the defense part. I saw 18 months 
of progress, but I saw 18 months of progress because I saw 
deadlines.
    There was a requirement that Iraq in January 2005 elect a 
government. I was there for those elections, one of the most 
thrilling moments of my life, and to somehow suggest that 
Iraqis can't take to democracy blows me away because they took 
to democracy. They were so proud of what they had accomplished, 
and 110,000 Iraqis were able to put that together with the help 
of the United Nations, which did a very positive role, and a 
lot of organizations that came to help the Iraqis.
    We saw a deadline for this new government to establish a 
commission to write the Constitution. There was a deadline to 
complete the Constitution. There was a deadline to ratify this 
Constitution in a public site to which 79 percent voted 
affirmatively for this new Constitution. And there was a 
deadline to elect a government under this new Constitution.
    All had deadlines, and during that time there was 
significant success in training particularly the army, and we 
saw very competent Iraqis risk their lives, give up their 
lives, queue in line to join the police and the army and be 
blown up. And we tell them, get away; don't queue up so far. We 
allowed them to come in, and we protected the 500 we were going 
to interview, but the rest stayed on the other side of the gate 
knowing they could be blown up, and they still stayed there.
    But then when I saw this new government elected, I was 
euphoric in January as this new government had been elected in 
December. But we waited 4\1/2\ months, and nothing happened for 
4\1/2\ months. You had al-Jaafari, and then we went to Maliki. 
True, we had some sophistication. The Iraqi minority was able 
to veto the choice of the majority. That was a real success. It 
is a sophistication that I think deserves credit.
    But then we saw a new government take over, and I was there 
6 weeks after they had been in power, and I thought, what have 
you done? What decisions have you made? Why haven't you 
basically let loose your army to clean up the militia? And I am 
not seeing the political will to do that. Where is the 
political will? Not the will of the military, but the political 
will.
    And then I go back 6 weeks later, they've been in office 3 
months, and I see nothing happen except Sistani, the cleric, 
say, come home, politicians. Come home. Stop traveling. Come 
home and do your job. When I ask military people, Americans, 
and I ask our State Department people, does this government 
have the political will, they look me in the face and say, we 
are not sure.
    So where I come from is they need deadlines, a deadline for 
provincial elections, a deadline for reconciliation, a deadline 
to establish their Constitution. And when I talked to them 
about it, they said, we don't want deadlines. We moved too 
quickly last year.
    Well, with all due respect, they need deadlines, and what I 
hope eventually to get out of these hearings is I want to know 
real numbers that tell me real things. So I have used a lot of 
my time to just explain that, but it is what I need to know, 
and when I come back in more depth, we will get into this.
    But I want to know first off why is it that if we had the 
optimal number of troops of 150- Coalition forces, and we have 
now built up to 294,000 Iraqi-trained and -equipped, why is it 
that 150,000 troops isn't enough, or is the right number? Why 
is that the case? And your answer will then help lead me to the 
followup questions that I want to ask. I am going to start with 
you, Admiral.
    Admiral Sullivan. Thank you, Mr. Chairman.
    As we have said all along, the conditions on the ground 
will determine when we can reduce our troop levels in the 
country. It is true that going back to earlier strategies, the 
earlier campaign plans, there were projections for when we 
might be available to begin reducing those troops on the 
ground. However, as the security environment has changed and 
become more complex, the commanders on the ground have made the 
judgment that they cannot afford to draw down our own troop 
levels while the Iraqis are still building up theirs.
    So I understand your point, sir, and I understand where you 
are coming from, but the conditions have not permitted the 
withdrawal of our forces like we would have liked to have seen.
    Mr. Shays. So what I am hearing you say when you say the 
conditions on the ground, in other words, it's more violent, 
it's more dangerous, there are greater numbers of killings. 
Things have gotten worse, so we need more people; is that 
basically your answer?
    Admiral Sullivan. What I said, sir, is that the environment 
has changed. We have gone from a primarily Sunni-led insurgency 
a year ago to the sectarian violence which we are now seeing 
largely, we think, sparked by the mosque attack in February. So 
the environment has evolved, and we have had to continually 
adapt our tactics and our strategies to address that 
environment.
    Mr. Shays. And also violence between Shia and Shia.
    Admiral Sullivan. Exactly. And what I would also add, sir, 
is Iraqi's security forces, as we buildup their numbers, they 
need to gain the experience, they need to build leaders, and 
all of that takes time. And we are also focusing on developing 
their capabilities to sustain themselves with logistics, with 
command-and-control capability and so forth. All of this takes 
time. So just the raw numbers of Iraqi security forces that 
have been trained and equipped and fielded doesn't yield the 
complete answer.
    Mr. Shays. Why did we determine that Iraqis only need 
225,000, and how did we determine the mix? For instance, right 
now there are 129,000 defense forces, 165,000 Ministry of 
Interior forces, which includes about 115,000 police. You have 
border patrol. You also have the national police. How do we 
determine that--first, let me say of the 325,000, how many of 
them are going to be police or going to be military?
    Admiral Sullivan. The military will be just a little over 
137,000. About 137,5- will be in the army, air force and navy.
    Mr. Shays. OK. I'm just going to express the concern that I 
can't imagine how 137,000 will ever allow us to bring troops 
home in any great number. And isn't it true that of the 
137,000, most of them--very few of them would be pilots on C-
130's or pilots for helicopters, correct?
    Admiral Sullivan. That's right. It is a very small air 
force. It is projected to be about 1,600 personnel.
    Mr. Shays. So that would suggest to me--I'll give my time 
to my colleague from Maryland Mr. Van Hollen. I will be raising 
questions in my second round as to how you will help me sort 
out how we get to this number, and why this number is going to 
enable us to leave. So I thank the gentleman.
    Mr. Van Hollen, you have the floor.
    Mr. Van Hollen. Thank you very much, Mr. Chairman.
    Thank you very much for your testimony and your service to 
our country.
    I want to just sketch out a little bit up front, and then I 
have a number of questions.
    We talked earlier about how the attacks of September 11th 
were launched from al Qaeda in Afghanistan. We then decided at 
some point to go into Iraq. It had nothing to do with the 
September 11th attacks, Iraq didn't. Saddam Hussein didn't. And 
in going to Iraq, we, in my view, did take the lid off 
Pandora's box, and we unleashed a lot of forces in Iraq, 
historical forces, forces that existed between different 
sectarian groups within the country.
    If you go back and look at some of the statements made by 
Mr. Cheney when he was Secretary of Defense during the first--
the Persian Gulf war, he lays out pretty clearly what a mess we 
might get into if we go into Baghdad, and he lays that out 
that's the reason we didn't go into Baghdad.
    But we went into Iraq now. We took the lid off. And I think 
if you go back and look at the analyses made by a lot of very 
knowledgeable people at the CIA and others at the time, they 
predicted that this could end up being a great unraveling in 
Iraq. In many ways, we know Iraq is an artificial construct put 
together by Western powers. After the end of World War I and 
maybe like Yugoslavia, when the glue that was holding together 
disappears, comes undone, and we compounded that problem by 
many of the mistakes we made. Whether it would have happened 
anyway, I don't know, but certainly, the fact that we disbanded 
the Iraqi military and sent a lot of Sunnis home with their 
guns and with a sense that they had no place in the future of 
Iraq created big problems. The fact that we didn't have more 
troops on the ground compounded the problem. Many other--many 
other mistakes, and Iraq became a magnet for foreign fighters. 
Al Qaeda, having really, certainly had no collaboration with 
Saddam Hussein, maybe a couple of places out in the mountains 
where they couldn't have been gotten to by Saddam Hussein up in 
the Kurdish area, but al Qaeda has become a significant 
presence in Iraq and has created a base of operations there 
that we continue to fight to this day. It unleashed the 
insurgency. I think we all know now that the vice president's 
statement more than a year ago that the insurgency was in, 
``its last throws,'' was just dead wrong. In fact, the recent 
report that came out of the Pentagon, a report that was 
required by Congress, specifically says that the insurgency 
remains potent. And on top of that, now we have a budding civil 
war or civil war, all depends on who you ask. The fact of the 
matter is, thousands of people are being killed, and the 
Pentagon report just released says the situation's getting 
worse, not better.
    Now, in all of this, I guess I would agree with the 
statement that's been made by General Casey and you here at the 
witness table here today and others that are in this mess, we 
really need some kind of political solution to the insurgency. 
I am not necessarily as hopeful as you gentlemen that we're 
going to be able to get that kind of political solution, but 
certainly, if we want to reduce the violence, we need that kind 
of political solution.
    So I guess my question to you this morning is, what really 
realistically are the prospects of getting such a solution? We 
know just last week, for example, the Shiites in the Parliament 
were pushing hard for the legislation to essentially create an 
autonomous region in the south. The Sunnis in the Parliament 
have resisted that, and they said, hey, hold on a minute, you 
know, when we got together to support, however reluctantly, the 
constitution you all promised us that we would be able to 
revisit certain provisions in the constitution. Well, rather 
than revisiting those provisions, it seems the opposite is 
happening, that the Shia members of Parliament are moving ahead 
to create an autonomous region.
    So let me ask you this question: Are we in a position now 
where we're struggling against the odds to put--to hold Iraq 
together? Or are we now working to put it back together? In 
other words, have the different groups within Iraq--the Shia, 
the Sunni, the Kurds--have they made decisions really? And when 
I say that, obviously, there's differences of opinion among 
every--members of all the groups, but have majorities among 
each of those groups essentially made the decision that their 
future is not in a united Iraq but their future is in something 
much closer to a divided Iraq which may at best have a very, 
very weak central government?
    Ambassador Edelman. Congressman Van Hollen, let me pull 
back a little bit and try to take into account both some of the 
comments you raise about Afghanistan in your opening statement 
as well as Iraq, because I think the structure of these 
hearings in one sense may be a bit unfortunate, which is to say 
that the hearing on Friday about the consequences of the United 
States perhaps departing Iraq too soon ought to maybe have been 
the first hearing because I think that really frames the 
backdrop.
    In Afghanistan, we are seeing a shift in tactics by the 
Taliban insurgency in part, and I think people tend to forget 
this because we're a bit of an amnesiac culture as a nation, 
and people barely remember what happened last week much less 
last month or a couple of years ago, but we've gone from a 
situation where there has never been an elected government in 
Afghanistan in any real degree to a situation where we had a 
constitution, a president and a parliament elected, and that 
parliament is now meeting. I met on Friday with a chairman of 
the Internal Security Committee and of the Defense Committee, 
and they are trying to struggle with the problems that country 
races.
    In Iraq, I think Chairman Shays made a very cogent and 
articulate statement of the progress that we have seen on the 
political side leading up to the elections in December. It's 
clear that there are forces in the region more broadly who 
don't want to see that kind of future for the region, and they 
are fighting back. And that is the backdrop against which all 
of this is taking place.
    On your question, I think if you look at the poll data that 
I've seen, a poll taken earlier this summer showed that 94 
percent of Iraqis favored the idea of some kind of national 
unity government, and I think something in the high 70's 
supported specifically this government, the Maliki government. 
When you talk to Iraqi political leaders, most of them will 
tell you they do not want to see the country fragment and break 
up. And in my experience, I have to say I think we tend--and I 
think you were quite good at pointing out, Congressman Van 
Hollen, that there are differences within these national 
communities. But when you meet with Iraqis themselves, the kind 
of categorization that we provide, sort of triptych of Kurd, 
Shia, Sunni-Arab begins to break down when you ask people, you 
know, what their background is. So, for instance, when Vice 
President Abdel Mahdi was visiting with us. He had several 
members of his delegation with him, and they were quite frankly 
talking about the fact that one was a Shia married to a 
Catholic, one was a Shia married to a Sunni, one was a Sunni 
married to a Kurd, one was a Shia married to a Sunni. You know, 
how are their children going to characterize themselves? I 
think we tend to make these divisions, which are divisions that 
certain extreme elements in every community would like to play 
on the dominant view of the people in that respective ethnic or 
sectarian community, and I think we do that a bit at our peril. 
If you asked General Chiarelli who was both in the Balkans and 
now is the Corps commander in Iraq, he would tell you that 
although we've seen displaced persons, and some people have 
mentioned that earlier in the hearing. What you don't see right 
now is attacks on property that's been vacated by people or 
efforts by people to occupy that property which is something 
you did see in the Balkans. So even with regard to the 
hardening of the sectarian identities that you mentioned and 
the analogy to the Balkans, I think there are some important 
differences to bear in mind.
    Mr. Van Hollen. Mr. Chairman, if I could followup, let me 
just--I think it is--it's a tragedy what's happening in Iraq 
because I think you're absolutely right. There are so many 
examples of Sunni, Shia, Kurds having lived in many cases side 
by side in parts of the country, but we all can see what's 
going on right now.
    We saw the most recent Pentagon report. The fact of the 
matter is, sectarian violence is spiraling out of control. 
Thousands of Iraqis are being killed. You have Shia militia. 
You have Sunni militia. You have death squads that are 
blindfolding and shooting people in Iraq. We've seen a 
migration within Iraq now; people moving out of the areas of 
the areas--Sunnis moving out of the more Shia areas of Baghdad 
into the more Sunni areas. You are seeing that going on every 
day. It appears that as time goes on, the country is becoming 
more fragmented as the different things that held that country 
together, some partly through brute force, some through other 
factors, have disappeared.
    And I guess--let me just go back to my earlier question 
with respect to the steps that are being taken by the Shia in 
the Parliament. Are they not pushing for an autonomous region, 
No. 1? We could also focus on the fact that the Kurdish militia 
from day one essentially said, we're not going to give up our 
weapons. I mean, the Kurds have been subjected to persecution 
in Iraq for a long, long period of time. The Peshmerga was 
never going to give up its militia and will not until this day. 
So you're saying, Peshmerga, you can keep your militia; other 
guys, Shia, you have to give up your militia. They say, that's 
not going to happen. You had a referendum up in the Kurdish 
area in the Kyrgyzstan part of Iraq over a year ago where over 
90 percent of the people said that they would like to be part 
of an independent Kyrgyzstan. Are you familiar with that 
referendum that took place?
    Ambassador Edelman. Yes, I am.
    Mr. Van Hollen. How do you account for that in what you 
just told me? Over 90 percent of the people in the Kurdish 
region said they want to be independent. I understand full well 
that the leaders in the green zone and the government are 
talking about a united Iraq. That would be terrific. I mean, 
that would be the solution we'd all want to see. The question 
is whether reality, whether the situation on the ground tells 
us that there's much--there's much more hope for keeping that 
together, and I guess my question to you and I'll end with this 
is, for example, how does--where do you see the constitutional 
negotiations going? I mean they were supposed to begin at the 
end of August. They're not going anywhere. Everyone says from 
the field, we need a political solution. What is the political 
solution that's going--what is it going to be that is going to 
help hold Iraq together rather than allow it to continue to 
fall apart or that will put it back together?
    Ambassador Edelman. Well, you have a number of questions in 
there, Congressman Van Hollen. Let me try to unpack them a 
little bit. You're certainly correct, and as Ambassador, or as 
Admiral Sullivan noted, that the--I am not sure whether that 
was a promotion or demotion I just gave you by calling you 
Ambassador, Bill. But the violence has shifted, the nature of 
the violence has shifted from primarily insurgency to ethno-
sectarian violence. That has largely come about if you look 
back historically at the pattern and the numbers of attacks in 
the wake of the bombing of the Golden Dome Mosque in Samarra at 
the end of February. It's clearly been part of the ongoing 
strategy of al Qaeda in Iraq and like-minded groups to provoke 
an ethnic civil war in Iraq in the hope of driving coalition 
forces out of the country. And being the first step to the 
creation of a caliphate as they would like to see it. So the--
but what we've seen, the things that you describe and are very 
real, and we describe them of course in the 9010 report which 
you cited. That's a different thing from saying that's where 
the majority of folks want to see the country go. The 
discussion about a nine-province Shia subregion as part of the 
discussion of federalism is going on. It's been proposed by the 
SCIRI party. It's not clear that all Shia agree with it. 
There's clearly, as has been mentioned earlier in a hearing, 
some push back from some Sunni political leaders. There is 
supposed to be, under the constitution, a discussion of 
federalism later on, and that will have to be worked out 
ultimately by Iraqis. I'll come back perhaps later on to 
comment about what the chairman started with, which was the 
question of deadlines of one sort or another in the political 
process and the progress he saw from June 2004 until the 
election in December 2005, and there are some things I think 
that can be said about that. But the point is, this is a 
process Iraqis are going to have to work through themselves, 
and we will try and be helpful in that political discussion.
    But, again, I think it's a mistake to see all elements of 
the community as united. You mention the Kurdish referendum at 
the time of the election. That was a nonbinding vote. It didn't 
have any legal status I think, as you know, Congressman Van 
Hollen and as you said, the president of united Iraq is a Kurd. 
The deputy prime minister, Barham Salih, is a Kurd. The foreign 
minister of the country, Hoshyar Zebari, is a Kurd. And they 
see their future and the best future for the residents of 
northern Iraq and of the Kurdish regional government as being 
part of a united Iraq. Kurds are the largest group, as you 
know, in the world without a nation of their own. The fact 
that, when given the fact on whether or not they would like to 
have a nation, 90 percent said yes, I don't think is terribly 
surprising.
    Mr. Shays. Thank the gentleman.
    We'll go now to Mr. Kucinich.
    Mr. Kucinich. Mr. Ambassador, would you agree that post-war 
Iraq would certainly be the time when we would see our troops 
come home?
    Ambassador Edelman. Congressman Kucinich, when you say 
post-war Iraq----
    Mr. Kucinich. I'll repeat the question.
    Ambassador Edelman. Yes.
    Mr. Kucinich. Would you agree that post-war Iraq would 
certainly be the time that we can expect our troops to come 
home?
    Ambassador Edelman. I think we would all like to see our 
troops come home as soon as they possibly can. The major combat 
phase of operations ended, and we very quickly found ourselves 
in a situation where we had a major insurgency to deal with. We 
have put in place a political process that has led to the 
development of a democratic government in Iraq, and I think we 
have an obligation to help that government defend itself until 
it can stand on its own two feet, at which time we will be I 
think very happy to have everyone in the United States and the 
coalition side come home.
    Mr. Kucinich. How long have you been with the Department of 
Defense?
    Ambassador Edelman. Congressman Kucinich, I was sworn in 
just a little over a year ago in August 2005.
    Mr. Kucinich. And what did you do before that?
    Ambassador Edelman. Before that, I was the U.S. Ambassador 
to Turkey from 2003 to 2005.
    Mr. Kucinich. And what about before 2003?
    Ambassador Edelman. From 2001 to 2003, I was serving on 
Vice President Cheney's staff in the Office of the Vice 
President.
    Mr. Kucinich. In your service on the Vice President's 
staff, were you involved in any way in decisions that related 
to Iraq?
    Ambassador Edelman. I was a participant from time to time 
in the deputy's committee meetings that took place on that 
subject.
    Mr. Kucinich. Were you involved in reviewing intelligence 
reports that related to Iraq?
    Ambassador Edelman. It was--we got intelligence on a 
variety of different issues, including Iraq, as part of our 
normal daily briefing.
    Mr. Kucinich. So the answer is, yes?
    Ambassador Edelman. Yes, I reviewed intelligence on Iraq 
and any number of other subjects.
    Mr. Kucinich. Did you see intelligence reports on Iraq that 
said that there was no connection between Iraq and September 
11th?
    Ambassador Edelman. Congressman Kucinich, there were a 
number of both raw intelligence reports and finished products I 
saw during that time period which said a variety of things, but 
I don't think it's necessarily appropriate in an open hearing 
to be discussing specifics about intelligence.
    Mr. Kucinich. Au contraire, Mr. Chairman. Mr. Chairman, I 
just asked the witness a question about his role as a member of 
the Vice President's staff in reviewing intelligence reports 
that may have been the basis or not for going to war, and he 
just responded that--I'll paraphrase it--it may not be 
appropriate in an open setting to answer those questions.
    Ambassador Edelman. No, Congressman Kucinich. I said I 
reviewed such reports, I said I would not feel comfortable 
discussing the specifics of those intelligence reports.
    Mr. Kucinich. Why not?
    Ambassador Edelman. Because they are classified, sir.
    Mr. Kucinich. Oh.
    Ambassador Edelman. But I will be happy to answer any 
questions you might have.
    Mr. Kucinich. You know, Mr. Chairman, some day, we're going 
to have a hearing where these witnesses raise their hand and 
they're going to have to testify what they know and not hide 
behind this idea that things are classified.
    Mr. Ambassador, when you were working for the Vice 
President's staff, did you see any intelligence reports that 
said that Saddam Hussein was connected to al Qaeda?
    Ambassador Edelman. There were a number of reports which 
Director Tenet has testified to in open session that indicated 
there had been contact between Saddam Hussein and elements of 
al Qaeda over the years, and I did see those reports.
    Mr. Kucinich. Were there any intelligence reports that you 
saw that contradicted that information?
    Ambassador Edelman. Yes, there were.
    Mr. Kucinich. Did you ever sit with people in the 
intelligence community and at the request of the Vice President 
advise people how the intelligence should come out?
    Ambassador Edelman. No, I did not.
    Mr. Kucinich. Do you have any knowledge whether the Vice 
President did or not?
    Ambassador Edelman. I don't believe that, to the best of my 
knowledge, the Vice President ever directed anybody as to what 
intelligence products should say or not say.
    Mr. Kucinich. Do you have any knowledge--or have you seen 
any intelligence reports that suggest that Iraq was trying to 
obtain uranium from Niger? Did you see those reports?
    Ambassador Edelman. Yes, I did.
    Mr. Kucinich. When did you see those reports? Do you 
remember?
    Ambassador Edelman. I'm sorry. I don't recall precisely. It 
was over a 2\1/2\ year period, Congressman.
    Mr. Kucinich. Did you have any contact with the Italian 
government relative to those reports?
    Ambassador Edelman. No, I did not, sir.
    Mr. Kucinich. Did you see any intelligence reports that 
indicated Iraq had weapons of mass destruction?
    Ambassador Edelman. Yes, sir. There were any number of 
reports. There was a vast body of reporting on that subject, 
which I saw both when I was a career Foreign Service officer 
serving in the Clinton administration as well as a career 
Foreign Service officer serving in the Bush administration.
    Mr. Kucinich. Did you see any reports that simultaneously 
said that Iraq did not have weapons of mass destruction?
    Ambassador Edelman. There was a vast body of reporting, 
Congressman Kucinich, that went to a variety of different 
questions having to do with both the nuclear, biological and 
chemical weapons programs. You are really talking about 
thousands of pages of reports.
    Mr. Kucinich. Did you see reports--I'll ask the question 
again for the purpose of clarification. You were a member of 
the Vice President's staff.
    Ambassador Edelman. I may have to answer the question, sir, 
I may have seen such reports, but I think the vast 
preponderance of the evidence at the time indicated that he 
did.
    Mr. Kucinich. So you saw reports that said that there were 
no weapons of mass destruction; those reports existed?
    Ambassador Edelman. No, I don't recall ever seeing anything 
that said no weapons of mass destruction existed. There may 
have been reports that went to different aspects of different 
programs and what might have been done or not done, but I don't 
recall anything saying he had no weapons of mass destruction. 
But, as I said, there were thousands of reports, and I can't at 
this point, looking back, not having prepared for that set of 
questions for this hearing, which I thought was going to be----
    Mr. Kucinich. No, no. It's going to come up in these 
hearings, Ambassador. Now, did you see any intelligence related 
to Ambassador Wilson's trip to determine whether or not Iraq 
was trying to get uranium from Niger.
    Ambassador Edelman. No, not until that information began to 
appear in the public print, sir.
    Mr. Kucinich. Did you see any information regarding--in the 
intelligence reports regarding Valerie Plame's role?
    Ambassador Edelman. No, I did not, sir.
    Mr. Kucinich. Now, Mr. Ambassador, were you aware of any 
statements by the Secretary of Defense that forbade military 
strategists to develop plans for securing a post-war Iraq?
    Ambassador Edelman. I'm not aware of such a statement, but 
I wouldn't have been in a position to be aware of it because I 
only reported to the Department of Defense in August of last 
year, sir.
    Mr. Kucinich. Are you aware of any phase four plan that 
covers security, stability and reconstruction?
    Ambassador Edelman. Would have had phase four plans in any 
number of contingency plans that are prepared by combatant 
commanders for the Secretary. I am not sure which you are 
talking about.
    Mr. Kucinich. Has this administration built permanent bases 
in Iraq?
    Ambassador Edelman. Sir, we have turned over 53 of 110 
forward operating bases to Iraq. We have 57 currently under 
U.S. control. We continue to have plans for turning over more 
of those, and as far as I am aware, we have no plans for 
permanent bases in Iraq.
    Mr. Kucinich. And what are the plans specifically to bring 
the troops home?
    Ambassador Edelman. The plan is, as Admiral Sullivan 
described earlier, that we will make an assessment jointly with 
the government of Iraq through the joint committee on what are 
the conditions for turning over increasing responsibility for 
Iraqis to take control of the country as a whole over time, and 
as that occurs, the commanders in the field will make 
recommendations to the Secretary of Defense, and he will then 
make recommendations to the President about how U.S. forces can 
be drawn down.
    Mr. Kucinich. Will the troops be home in a year?
    Ambassador Edelman. I am not in a position to say that, 
Congressman Kucinich.
    Mr. Kucinich. Will they be home in 2 years?
    Ambassador Edelman. I wouldn't want to make a prediction of 
a particular point in time. I think the number of troops, we 
hope, will begin to go down. It's gone up and down over the 
past year in response to the circumstances on the ground, and I 
think General Casey and his colleagues continue to make 
recommendations on that basis.
    Mr. Kucinich. Will they be home in 5 years?
    Ambassador Edelman. Sir, it's a hypothetical question. I 
really, at this point, I just----
    Mr. Kucinich. Not hypothetical for the families who are 
wondering about the young people serving. Will they be home in 
5 years?
    Ambassador Edelman. I can't say whether they'll be home in 
5 years or 4 years or 3 years or 2 years. It's going to depend 
on the circumstances on the ground. We have every reason to 
believe that increasingly Iraq will take control of the space, 
the battle space in the country, and that we'll be able to 
bring everybody home sooner than that.
    Mr. Kucinich. Will they be home in 10 years?
    Ambassador Edelman. I'd certainly hope so.
    Mr. Kucinich. Now yesterday on Meet the Press, your former 
boss said that, knowing everything he knows today, invading 
Iraq was still a good idea. Mr. Cheney. You know this means 
that, regardless of the facts, regardless of whether Iraq had 
WMDs or not, regardless whether Iraq was a threat to our 
Nation, this administration was determined to attack Iraq. In 
other words, regardless of the facts, the administration's 
intent, maybe even before September 11th, was to attack Iraq. 
Now, as a former member of the Vice President's staff and as a 
representative of the administration, can you state this was 
the administration's policy?
    Ambassador Edelman. I think it was the administration's 
policy that the threat presented by a regime that had refused 
to comply with 16 U.N. Security Council resolutions, 17 after 
the November resolution in November 2002, to completely account 
for the stocks of weapons of mass destruction that we knew he 
had, which he had used in war against Iran and against his own 
people; that regime, which also had relations with a variety of 
terrorist groups, like Abu Nidal who was clearly present and 
with whom the Baghdad regime unquestionably had a relationship; 
that the payment of suicide bombers, $25,000 per family; that 
the potential link between that regime and its possible 
possession of weapons of mass destruction, its unwillingness to 
accede to the demands of the international community after 
many, many years and 17 resolutions made it imperative to 
defend against the prospect that the regime, which according to 
the Duelfer report, still harbored the desire to produce 
weapons of mass destruction as soon as the sanctions regime 
came off, represented a threat that needed to be dealt with.
    Mr. Kucinich. Isn't it true that at a meeting of the 
National Security Council on September 12, 2001, Secretary 
Rumsfeld told members of the Council that now is the time to go 
after Iraq even before any determination had been made over who 
was responsible for September 11th.
    Ambassador Edelman. Mr. Kucinich, I'm sorry, I'm not sure, 
I don't believe I was at that meeting and I certainly didn't 
hear the Secretary of Defense say that.
    Mr. Kucinich. Have you read Bob Woodward's book, Bush at 
War?
    Ambassador Edelman. I have.
    Mr. Kucinich. Check page 49 out, because in that, there's a 
citation with regard to that exact statement by the Secretary 
of Defense. Now, let me ask you again, did Iraq have anything 
to do with September 11th?
    Ambassador Edelman. To the best of my knowledge, we have no 
evidence of that.
    Mr. Kucinich. Did Iraq have anything to do with al Qaeda's 
role in September 11th? Or potential role in September 11th? 
Did Iraq have anything to do with al Qaeda?
    Ambassador Edelman. I think, with regard to the 
relationship between Iraq and al Qaeda, as the 9/11 Commission 
report indicated, there clearly was a pattern of contact. I 
think reasonable people can differ as to whether that pattern 
of contact represented an operational relationship or not.
    Mr. Kucinich. Mr. Chairman, I think it's important for us 
to introduce into the record--I'll get a copy of it--the Senate 
panel report, Intelligence Committee, that says, prior to the 
war, Saddam's government, ``did not have a relationship, harbor 
or turn a blind eye toward al Qaeda operative Abu Musab al-
Zarqawi or his associates.''
    One other question, did Iraq have weapons of mass 
destruction up until the time that we attacked them?
    Ambassador Edelman. Iraq, we know for certain had weapons 
of mass destruction before 1991 and used them. The state of our 
knowledge about the ultimate disposition of their weapons is 
included in the report that Mr. Duelfer did of 1,200 pages.
    Mr. Kucinich. Was the attack on Iraq because they had 
weapons of mass destruction, was that well founded?
    Ambassador Edelman. I think that the preponderance of 
evidence that was presented to people in the administration as 
was presented to people in the previous administration was that 
they had weapons of mass destruction. We've learned 
subsequently that, from the work of the Rob Silverman 
commission and others, that there were some flaws in that 
intelligence assessment.
    Mr. Kucinich. Yes, there certainly were, weren't there. 
Thank you.
    Mr. Shays. I thank the gentleman. And I want to thank both 
witnesses for making really good-faith efforts to answer all 
questions. And I think you know that a Member can ask any 
question they want. And I come from slightly maybe a more 
significant difference with my colleague in regards to this. So 
when I met with the French, the British, the Turks, the 
Israelis, the Jordanians, before the war in Iraq, they were all 
convinced he had weapons of mass destruction. The French were 
the only ones who said, while they have them, they won't use 
them.
    When this committee conducted our Oil-for-Food program, and 
we were the ones who initiated those hearings, and I had a call 
from Kofi Annan saying we didn't need to do these hearings 
because he said the Russians have agreed to a hearing, and then 
we get a call from Mr. Volker saying we don't need those 
hearings. We had those hearings, as did others, and we learned 
that Saddam had undersold his oil and gotten kickbacks and 
overpaid for commodities and gotten kickbacks.
    We learned from the Duelfer report, while no weapons of 
mass destruction, he also confirmed that Saddam never thought 
we would attack because he bought off the French and the 
Russians in the Security Council. And we also know from just 
even in the New York Times report in December--excuse me, this 
year, that in December preceding the invasion, that he for the 
first time told his own military people, no weapons of mass 
destruction, and his generals were shot. So even his own 
people, even his own leaders felt he had the weapons. I would 
just say, having known that, to have gone based on that, if we 
had thought he didn't have weapons and have gone in would have 
been wrong. But I felt very strongly that, one way or the 
other, we needed to deal with Saddam, and the sooner the 
better, but it should have been, obviously, on factual, 
accurate information.
    And I'll just make a point that I've been--with Joe Wilson, 
I've seen him promote his book in which he blames the White 
House. And finally, we get an issued report saying it didn't 
originate from the White House. It emanated from a comment that 
the State Department deputy director had shared, and it had 
come from that direction. And there are really no stories now 
about that. And the fact that the White House didn't mastermind 
this effort, it seems to me that Joe Wilson made a better 
effort of disclosing to everyone that his wife was connected 
with the CIA.
    I want to say, in regards to Anbar province, that I think 
it was pretty clear from the DOD reports even earlier, this was 
the one area in our 18 provinces that we called critical. And I 
think DOD has been very clear that you can't win it just 
militarily. But it has gotten worse. And this is the whole 
point of what motivates me to have these hearings. I am not 
seeing the political will on the part of the elected officials 
to do the reconciliation that is required to bring in Sunni, 
Shias and Kurds. I realize that the Sunnis are asking for more 
than they should. But the Shias are giving them less than they 
deserve, and somewhere in between is an answer. And we also 
know that Iraq is awash with oil, and if anyone thinks this is 
about oil, our getting it, when you spent nearly $400 billion, 
it would take a long time for there to be a payback on oil. But 
what I want to do is get a sense from both you, and I want to 
go back to you, Rear Admiral, I want to know what the numbers 
mean. There's ultimately a base number that then says, from 
that base number, as we keep adding competent Iraqi military, 
that we should be able to draw down, and the one area where I 
agree with Mr. Kucinich on is that it is in the best interest 
of the Iraqis as well as the Americans to know when that will 
start to happen. Now, what I think, and this is my bias, is I 
think we have so underestimated the enemy continually that 
we've never had the right numbers. So we are really doing what 
is clear now, we just continue to buildup more Iraqis without 
seeing Americans come home. And I fear, and I want to say this, 
that this number of 325 is just--it's a number without meaning. 
That's what it is to me. It's a number that is somehow there, 
but it has no meaning to me because I can't basically reconcile 
the fact that we have 325,000 security--and that is, we hope, 
Admiral, to have that number achieved by December, correct? 
Sorry. The nodding head doesn't get in the transcript.
    Admiral Sullivan. That is correct.
    Mr. Shays. Obviously, some of that will not have a year's 
worth of experience. That is, they're trained and on the force 
and named but they're not yet competent; correct?
    Admiral Sullivan. That's correct, sir. That number 
represents a milestone in terms of fielding and training 
equipment.
    Mr. Shays. Let's just say this, a year from December then, 
we can make the assumption, minus those who will be killed, and 
there will be a number, that we have 325,000 security people 
who are all trained, and they've had on-the-line experience. 
And as the military tells me, nothing trains you better than 
being shot at. So the question I ask is, is it fair for me to 
assume that a year from now, we will have 325,000, less those 
who quit and less those who are killed? Is that correct?
    Admiral Sullivan. I think that's a fair assumption, and it 
may actually be more than that, depending on the decisions that 
are made in the country about growing the forces even larger.
    Ambassador Edelman. Mr. Chairman, if I could add one thing 
to what Admiral Sullivan just said.
    Mr. Shays. You can always add. I am going to pursue my 
questioning a little bit. Feel free to jump in.
    Ambassador Edelman. One of the things that I think is 
important to remember is, if you talk to, you know, Generals 
Petraeus and Dempsey, who have been commanders of MNSTC-I, the 
cooperation and training command, is that our first effort was 
to try and get combat boots on the ground. And so the initial 
part of the training has been focused on producing battalions 
that we can get into combat. If you will, I think it's what 
General Dempsey calls kind of putting out bricks. So we're 
putting out one kind of brick at a time.
    Mr. Shays. So what's your bottom line?
    Ambassador Edelman. The point is, now we need to work on 
developing the ministerial capacity at the Ministry of Defense 
and the Ministry of the Interior to take these combat units and 
be able to provide them with command and control and 
sustainment and logistics, and that is where much of the effort 
is going into. We've now trained three training battalions, so 
now some of them can be remedied and the numbers can be brought 
up.
    Mr. Shays. I understand that the next year would be to 
improve quality which is your basic bottom line point; correct?
    Ambassador Edelman. Correct.
    Mr. Shays. But if I subtract the 137, we're looking for a 
Ministry of Interior of 188,000; is that correct, Admiral?
    Admiral Sullivan. That is correct, yes, sir.
    Mr. Shays. Tell me--but isn't it true that when you just--
let's just take the military for now, most of the military will 
be army. It will not be navy. It will not be air force. Is that 
correct?
    Admiral Sullivan. That's correct. We are looking at about 
118,000 Army out of that 137.
    Mr. Shays. And isn't it correct that this military is being 
trained for insurgency, not to defend borders?
    Admiral Sullivan. Yes, sir, the decision was made when--you 
asked how we arrived at that number, and the decision was made 
that we needed to shape this force. We did this in conjunction 
with the Iraqis to be able to conduct counterinsurgency 
operations inside their borders.
    Mr. Shays. That part is logical.
    Admiral Sullivan. Right.
    Mr. Shays. But Iraq has some unfriendly neighbors. So am I 
wrong in making an assumption that we're going to have American 
troops there or nearby for a long time to be able to--unless 
the Iraqis ask us to leave--in order to defend this nation or 
discourage attempts by its neighbors to in any way violate 
Iraqi space; is that not true?
    Admiral Sullivan. It is very much a possibility, sir. But 
there have been no decisions made.
    Mr. Shays. Let me ask it backward, OK, if you don't have 
troops that are trained in other than insurgency work, who--
isn't that an indication that there are certain--that Iraqi 
forces do not have the capability to be a defensive force with 
artillery and all the other things that a military needs.
    Admiral Sullivan. Well, they will have some artillery, and 
the intention was to develop a force that would have a modicum 
of its own self-defense capability without being an Army that 
could threaten its neighbors.
    Mr. Shays. I just really need to--I mean, we--the advantage 
for both of you is that I get my questions answered in the 
third or fourth round and not have to stay until the seventh 
round because multiplied times three, three Members here. It 
is--I think it's a no-brainer answer. The bottom line to the 
question is, the people we are training, we are training for 
insurgency; we are not training them as a typical army. Is that 
not correct, Ambassador?
    Ambassador Edelman. I think the main task is, right now, 
the counterinsurgency and to be able to, you know, provide 
basic defense for the country. As long as we're there, I think 
the security guarantee for them is our presence.
    Mr. Shays. Thank you. And I think you would agree with 
that, Admiral, correct? The nodding head, I'm sorry I don't 
mean to----
    Admiral Sullivan. Yes, sir. I would agree with you.
    Mr. Shays. So that tells me that one, we will have a role 
in the future, or some other country will have that role to 
fill in the void the Iraqis won't have. Now, isn't it true that 
we're not really developing an air force. I mean, they don't 
have many pilots, and they don't have--either fixed wing or 
helicopter. Is that correct?
    Admiral Sullivan. It's primarily going to be a logistics 
force, C-130's and helicopters; no fixed wing attack-type 
aircraft at this point in time. The Iraqis may decide at some 
time in the future to develop that on their own.
    Mr. Shays. But let me ask you this, in this force of 137--
excuse me, 118 military, how many pilots will there be at the 
end of this year, fixed wing and helicopter?
    Admiral Sullivan. I don't know the answer to that, sir, but 
I will have to take that one for the record.
    Mr. Shays. But you would acknowledge it is very small.
    Admiral Sullivan. It will be a relatively small number, 
sir, yes, out of an air force of 1,600, quite a few of those 
will be support personnel and maintainers and so forth.
    Mr. Shays. So, again, isn't it logical for me to assume 
that we or some other country is going to have to provide that 
for the Iraqis, not just in the short term but in the long 
term, until they're able to do that, help train their pilots 
for fixed wing and helicopter.
    Admiral Sullivan. It's a logical assumption, yes, sir, but 
we don't know yet what kind of arrangements our government is 
going to set with the government of Iraq.
    Mr. Shays. Well, it's going to be Iraq's decision, but the 
bottom line is someone's going to have to fill that void for 
them.
    Admiral Sullivan. I think that's a fair assumption, yes, 
sir.
    Mr. Shays. It is a fair judgment in my assumption. I am not 
going to ask you to answer it, but it's a fair assumption on my 
part to assume it is most likely going to be asked. I am not 
complaining about it. I just want the record to state it. And 
then I am trying to work from that knowledge.
    I am basically dividing up Iraq's needs in two ways. They 
need a force that can patrol the streets and deal with 
insurgencies and the insurgency, and we have a part in 
fulfilling that role; I know that because four of the people 
that we buried or have had church services in the Fourth 
Congressional District have been blown up by IEDs, and that is 
basically doing patrolling type of work not typical in military 
operations. It's more like police work. You would acknowledge 
that to be true?
    Admiral Sullivan. Yes, sir. And if you'd allow me, there's 
an effort underway right now in conjunction with the government 
of Iraq to look out into the future, out 5, 10 years into the 
future, and figure out what kind of a military ultimately they 
need and figure out also what kind of equipment they should 
have, what they can afford, what they have the capability to 
maintain as we move toward normalizing our security 
relationship with the government of Iraq. And that's not final 
yet, but at some point in time, they'll have a vision for what 
they think their military ought to look like.
    Mr. Shays. And given that----
    Ambassador Edelman. Congressman Shays, I might just add one 
thing to Admiral Sullivan because your question is a very good 
one I think. And one of the reasons--some of our casualties are 
a function of the fact that we have still been in a position of 
having to supply the combat support and combat service support 
to the Iraqi security force units because they lack right now 
the logistical and mobility capability to do that. General 
Dempsey is aware of that. He is accelerating, has been 
accelerating the training of motorized transport regiments that 
are required for that as well as the headquarters' service 
companies that will provide the kind of organic logistic and 
supply support that will allow the Iraqis to take on more and 
more of the CS, CSS role. And I think that's important to note 
going forward.
    Mr. Shays. It is important to note, but the bottom line is, 
when we talk about U.S. troops leaving, I really break it up--
for me, I break it up into two parts. Excuse me, when we talk 
about American troops leaving Iraq, I break it up into two 
parts: the function that we do that is for police work dealing 
with insurgency, and the other function that we do dealing with 
mobility, logistics, medics, even our 20,000 contractors, 
security folks. I break it up into two parts. And it seems 
logical to me if your numbers are accurate and wisely 
determined, and when these 118,000 police--excuse me, 118,000 
military, plus 188,000 Ministry of Interior police and border 
patrol become competent, then we should at the very least be 
able to take out those troops that are doing the police type of 
work, patrolling the streets and getting blown up. And I also 
happen to believe that these numbers are somewhat predictable. 
In other words, we know how long it takes to train them. We 
know how long--how many stay in once they are trained. We know 
what their capability is after a year's worth of training, and 
but what I suspect is that we are using the Iraqis and keeping 
building up the forces to in a sense deal with the fact that we 
have not yet had the full complements of our own people there 
to do what we need to do, and that's why we are not seeing our 
troops come home.
    So let me just segue into in just 2 minutes here, and then 
I'll give the time to my colleague again from Maryland. I want 
to talk about the police. Based on my trips, based on my 
conversations, the real weakness isn't necessarily with the 
police who are in every community doing what we traditionally 
call police work. It's with the national police. And my 
understanding is, it's probably a concern that at least 20 
percent shouldn't be in the force. Is that a force of about 
12,000, Admiral? Of national police?
    Admiral Sullivan. The national police is a force of about 
24,000, Congressman.
    Mr. Shays. OK. And of the 24,000, is it not true that we 
have concern that probably 20 percent were--should be, you 
know, kind of asked to leave because they were brought in as 
militia and not properly trained and they tend to not have been 
integrated like the military?
    Admiral Sullivan. Yes, sir, that is a concern, and we are 
working with the prime minister to do a vetting plan of the 
existing forces as well as retrain some units, but it is a 
concern, yes, sir.
    Mr. Shays. OK. Well, I'll come back to that in my next 
round of questions. I am just going to end by saying that, in 
this conversation, I want to kind of add some emphasis to your 
point. When I go to Iraqis, and I say, what's your biggest 
concern, it's that--their answer to me is, you will leave 
before we're ready. That's their biggest concern. It's not the 
bombings. And when I speak to Iraqis, they don't have any 
fondness for the past regime. I can say that with absolute 
conviction because I have had more than enough conversations in 
14 visits. That's like saying to the Koreans that they love the 
security they have because they're secure. They're really 
secure; they're starving, but they're secure. It's like saying 
to Iraqis, somehow because there's 40 percent unemployment in 
Iraq, I should be surprised. There was more than 40 percent 
unemployment before. The only program they had before was the 
oil-for-peace program. They had no trade. They had no commerce. 
And also, when I ask Iraqis, are you a Sunni, they will say I 
am a Sunni, but I am married to a Shiite. I will ask a Shia: I 
am a Shia, but my brother is married to a Sunni. When I asked 
my Iraqi intern whose parents live in Baghdad, he says, they 
ever thought of themselves as Sunnis, but they are Sunnis, but 
when you start getting killed because you are a Sunni, you 
start finding comfort with other Sunnis. And I blame that on 
the inaction of the politicians in the last year. There was no 
government for 4 months. You not only had the mosque in flames, 
blown up, but you didn't have any response to it. And so I am 
going to come back in my next round to say, I am going to ask 
you, what gives them the kickstart to make these tough 
decisions? I know only one solution, and that is to start to 
tell them that the police side of the security, the insurgency 
kind of effort, needs to be done by them, and we stay to do the 
logistics, the mobility issues and the heavy operations where 
we go in to a cluster of insurgents to do that kind of work. At 
this time, I'll recognize my colleague from Maryland.
    Mr. Van Hollen. Thank you, Mr. Chairman, and thanks again, 
both the witnesses for their testimony. I plan to ask more 
questions about going into the future, but I was listening to 
the testimony and exchange you had with Mr. Kucinich, and I do 
think it is important just to go over a few things on the 
historical record.
    And let me begin with weapons of mass destruction question. 
Yes, Saddam Hussein had weapons of mass destruction. He used 
chemical weapons against his Kurdish population in the 1980's, 
and of course, we know he also used them in the Iran-Iraq war. 
Unfortunately, United States provided Hussein a lot of the 
targeting information during that war that allowed him to make 
effective use of those and other weapons. And we also know that 
the United States despite efforts from some Members of Congress 
back in the 1980's, decided not to impose economic sanctions 
against Iraq--any serious strict comprehensive economic 
sanctions--against Iraq as had been proposed originally in a 
piece of legislation in the Senate introduced by then-Senator 
Claiborne Pell of Rhode Island. In fact, the Reagan 
administration at the time opposed that piece of legislation.
    So I am always a little bit puzzled now when people go back 
to those events as they claim justification for military action 
when they weren't even willing to impose economic sanctions at 
the time they were being used. It is just a little bit 
hypothetical. I know you didn't do that just now but others 
continue to raise that issue.
    With respect to our assessment of the time, we know that 
the folks at the Department of Energy got it right with respect 
to aluminum tubes. We know the folks at INR and the State 
Department got it right, their assessments were buried in 
footnotes in some of these analyses. But there are a lot of the 
people in the Government that got it right. But unfortunately 
we sort of seem to have a sifting mechanism when it came to the 
information in the administration. Stuff that supported the 
argument that going to Iraq was accepted and the stuff that was 
conflicting was thrown out.
    And we all know that Secretary Powell has said that 
unfortunately, one of the blots in his record will be testimony 
he gave on behalf of our country--all of us--at the United 
Nations, which proved to be false.
    And so, I think it is important that we remember that there 
were people in the government who got it right with respect to 
weapons of mass destruction for whatever reasons, and I am not 
going to go into a debate on that right now. They were not 
listened to adequately.
    Now, connections between Saddam Hussein and al Qaeda, and 
as I was listening, I just--have you had a chance to look at 
the Senate Intelligence Committee report that came out?
    Ambassador Edelman. It was posted on the Web on Friday, 
Congressman Van Hollen and I have only had a chance to kind of 
glance at it. I haven't had a chance to sit down and read it.
    Mr. Van Hollen. Would you agree that Saddam was many bad 
things, but one thing he was not, would you agree, was an 
Islamic extremist.
    Ambassador Edelman. I think if you look at, we are getting 
into we are getting a lot of history here.
    Mr. Van Hollen. Was Saddam an Islamic extremist?
    Ambassador Edelman. If you look back after the first Gulf 
war, you do see an effort by Saddam to give a greater Islamic 
complexion to his regime. He added the words ``ahu Akbar'' to 
the flag, a number of conferences were held that were open to 
Islamists and, I would argue that some of the--it is correct 
that traditionally, Iraq had been a secular society, under the 
Baath regime, but I think in his last 10 years, he gave vent to 
a growth of Islamic thinking, both in his rhetoric and in his 
sponsorship of certain things that led to some of what we have 
seen as you said when we lifted the lid on the Pandora's box.
    Mr. Van Hollen. Mr. Ambassador, Pakistan is an Islamic 
state, is it not?
    It is an Islamic state, is it not Mr. Ambassador?
    Ambassador Edelman. It is a state in which Islam has a very 
important role.
    Mr. Van Hollen. Is General Musharraf an Islamic extremist?
    Ambassador Edelman. I wouldn't characterize him that way at 
all. On the contrary he is being targeted for assassination 
efforts by Islamic extremists.
    Mr. Van Hollen. Let me read to you an assessment made by 
the CIA with respect to Saddam Hussein January 29, 2003, before 
the war, and I am quoting from the Iraqi support for terrorism 
CIA assessment report, ``Saddam has viewed Islamic extremists 
operating inside Iraq as a threat, and his regime since its 
inception has arrested and executed members of both Shia and 
Sunni groups to disrupt their organizations and limit their 
influence.''
    I think it is clear if you read this report based on what 
many people have known for a long time, is that Saddam Hussein 
viewed groups like al Qaeda as a threat. He viewed them clearly 
as diametrically opposed to his view of the world. He was a 
brutal dictator. But he was certainly no Islamic extremist.
    And I really find it difficult that--I mean we are having a 
hearing in here----
    Ambassador Edelman. I didn't use the word Islamic extremist 
to describe him.
    Mr. Van Hollen. I asked you if you thought he was.
    Ambassador Edelman. I don't think he would fit that rubric 
at all. I don't think that is anything contradictory between 
what I said in my answer and what you read out in the report 
which I have not had a chance to read.
    Mr. Van Hollen. Thank you, Mr. Ambassador, but I think the 
issue is that there is this effort to portray this whole issue 
of the attacks of September 11th and Saddam Hussein as part of 
this United Islamic extremist effort, when, in fact, we well 
know that Saddam Hussein was not an Islamic extremist.
    Let me ask you this: Do you think it is misleading and 
inappropriate for public officials of the United States to make 
statements suggesting that Saddam Hussein was part of September 
11th?
    Ambassador Edelman. I am not aware of any such statement, 
Congressman Van Hollen.
    Mr. Van Hollen. If there were would you agree that it would 
be misleading and inappropriate?
    Ambassador Edelman. I think I heard the vice-president say 
yesterday that we have no such evidence and I don't believe he 
or the President has ever said that.
    Mr. Van Hollen. I believe that in many occasions in the 
past, they have put the two together. I am not referring to any 
remark made yesterday. Let me turn very quickly on the question 
of Iran.
    From my perspective, I think in talking to a lot of people 
who follow the region closely, Iran has been the big winner of 
the war in Iraq. After all, here is a country they fought a 
long war with in the 1980's, that has now sort of fallen into a 
situation of chaos in many parts of the country. And the 
Iranians had been emboldened, as you said, in your testimony. 
They are causing trouble there.
    Can you tell the committee a little bit about exactly what 
the Iranians are doing in Iraq, and how they are going about 
trying to exploit the situation there? We know that many of the 
members of the current Iraqi government were in exile in Iran 
during the brutal dictatorship of Saddam Hussein. They have 
these ties with Iran. If you could talk a little bit about the 
manner in which Iran is benefiting from the chaos in Iraq.
    Ambassador Edelman. I think it would be a mistake to assume 
that because people may have been resident in Iran for some 
period of time in exile that necessarily means that they were 
subservient to Iran. I don't--would not make that----
    Mr. Van Hollen. And I didn't use those words.
    Ambassador Edelman. I just would make that as an 
observation. I think that Iran and Iraq obviously are 
neighbors. They will have a relationship, they should have a 
correct and proper relationship as neighbors should have. Iran 
has been planning a very unhelpful role through a variety of 
mechanisms, both providing assistance to militias and providing 
some of the materials that have been used for IEDs. And we have 
said that and we have mentioned it in the 9010 report.
    Mr. Van Hollen. Thank you. Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman. Let me say so everybody 
knows, this is going to be our last round and then we will be 
done. So we are starting with Mr. Kucinich, and I just say to 
you, I was surprised, Mr. Ambassador, you didn't mention the 
$25,000 rewards for, to families involved in suicide bombings.
    Ambassador Edelman. I did, in my comments.
    Mr. Shays. Did you also mention Abu Nidal?
    Ambassador Edelman. I did.
    Mr. Shays. Boy, I am not paying attention.
    Ambassador Edelman. I think the record will show I 
mentioned both of those things.
    Mr. Shays. I am happy you did. OK, Mr. Kucinich.
    Mr. Kucinich. Thank you very much. Mr. Chairman, excuse me.
    Mr. Ambassador, in your role as Under Secretary of Defense 
for policy, can you confirm recent published and broadcast 
reports that U.S. troops have already or are currently 
conducting operations inside of Iran?
    Ambassador Edelman. Congressman Kucinich, I noticed that 
you mentioned that in your opening remarks, and that you made 
reference to the Seymour Hirsh article in The New Yorker, and I 
am glad to have an opportunity to respond. I am not aware of 
any such operations. And I am in a position, I think, to say 
that having read the Seymour Hirsch article, although not 
necessarily all the others that you cited, but that description 
of conversations that he has in the article bears no 
resemblance whatsoever to any conversation I have ever been in 
in the Department of Defense.
    Mr. Kucinich. Are U.S. military personnel, have U.S. 
military personnel or are U.S. military personnel deployed 
inside and around Iran?
    Ambassador Edelman. We have military personnel deployed in 
Afghanistan and Iraq, which are bordering nations, but I am not 
aware of any operations inside Iran.
    Mr. Kucinich. Were there operations inside Iran in the last 
year?
    Ambassador Edelman. Congressman Kucinich, I am not aware of 
any deployment of U.S. troops to Iran.
    Mr. Kucinich. U.S. military personnel?
    Ambassador Edelman. Sir, I have already answered the 
question.
    Mr. Kucinich. Is that a no? So there is no U.S. military 
personnel of any way shape or form?
    Ambassador Edelman. Not that I am aware of, sir.
    Mr. Kucinich. Either preparing a battlefield, gathering 
intelligence and recruiting local fighters?
    Ambassador Edelman. Sir, we have in an effort to fighting 
the global war on terror, to determine information about 
terrorists around the world, and I don't think it is 
appropriate to get into a discussion of that in an open 
hearing.
    Mr. Kucinich. Is the U.S. planning and now recruiting 
members of MEK to conduct lethal operations and destabilizing 
operations inside Iran?
    Ambassador Edelman. The only question having to do with the 
MEK that I am aware of that is we have a number of them, around 
3,000 of them at Camp Ashraf, and we are working with the 
government of Iraq because Prime Minister Maliki has asked that 
they no longer be present to figure out how they can be either 
repatriated to other countries or, in some other way, no longer 
in detention in Iraq. That is the only issue that I am aware of 
or have been involved in with the MEK.
    Mr. Kucinich. Has the Department of Defense already 
commenced hostile actions against Iran as was the case prior to 
the Iraq war?
    Ambassador Edelman. I'm not aware of any hostile actions 
that we have taken against Iran, sir.
    Mr. Kucinich. Has the administration already made the 
decision to attack Iran?
    Ambassador Edelman. I am aware of no decision that has been 
taken by the President to attack Iran.
    Mr. Kucinich. Is this Congress and the American public now 
coming under the influence of an orchestrated campaign to take 
the country into a military conflict against Iran?
    Ambassador Edelman. Sir, right now the U.S. Government is 
involved in a very serious diplomatic effort working with our 
colleagues among the EU three and the permanent five members of 
the United Nations Security Council to try and come to grips 
with the development of Iran's nuclear program, which we 
believe is a nuclear weapons program and that is the only 
activity that I am aware of.
    Mr. Kucinich. Has the U.S. strategic command supported by 
the Air Force drawn up plans at the president's direction for a 
major bombing campaign in Iran?
    Ambassador Edelman. Sir, we don't discuss contingency plans 
and I would not want my answer to be taken as either a 
representative of them saying yes or saying no. It is just not 
an issue we discuss in open public hearings.
    Mr. Kucinich. I am going to state that question again.
    Has the U.S. strategic command----
    Mr. Shays. Excuse me. Let me ask the gentleman, I would be 
very uncomfortable as the chairman of this committee to have 
someone be discussing the issue as the Ambassador answered. Are 
you looking for another question or are you just asking him to 
give the answer that he has already given?
    Mr. Kucinich. You know, Mr. Chairman, the Department of 
Defense refused to even attend a classified hearing on this 
specific issue. We saw the run-up to the war in Iraq. There is 
quite a similarity here in terms of the way the tracks were 
laid to go after Iraq and what they are setting up to go after 
Iran. Now, you know, I wouldn't even be raising this if this 
gentleman had shown this committee the courtesy of showing up 
in a classified meeting.
    Ambassador Edelman. I was never asked to come to a 
classified meeting, Mr. Kucinich.
    Mr. Kucinich. Someone you work for who is above your pay 
grade was.
    Mr. Shays. I understand my colleague's unhappiness with 
this. I would just want to say as chairman I would not want him 
to answer this question, because I would not want this 
committee to be into that area so----
    Mr. Kucinich. I am going to say, Mr. Chairman, because I 
don't want to bring this up, but since we are at this point, 
for years, I refused to sign a statement about classified, 
divulging classified information, because I had been to too 
many classified briefings when I first came to Congress that 
ended up on the front page in the newspaper, and then I was in 
a position to talk about it. But in order for me to hear from 
the Department of Defense in a classified meeting at the 
suggestion and coaxing of the Chair, I signed the statement 
only minutes later to learn that the Department of Defense 
wasn't showing up.
    So look--and it was about this question. Has the U.S. 
strategic command supported by the Air Force drawn up plans at 
the President's direction for a major bombing campaign in Iran?
    Ambassador Edelman. Congressman Kucinich, as I said 
earlier, and the Secretary has said, he would like to arrange 
an ops Intel briefing for the Members before they go out, and 
you know, people can ask questions at that time, but we just 
don't comment on contingency plans of one sort or another. And 
as I said earlier, I wouldn't want that to be taken as either a 
denial or a confirmation of the premise implicit in your 
question.
    Mr. Kucinich. Has the Department of Defense been warned by 
top ranking generals that the military's experience in Iraq 
where intelligence on weapons of mass destruction was deeply 
flawed, has affected its approach in Iran?
    Ambassador Edelman. I am not aware of such statements, sir.
    Mr. Kucinich. Do you concede that there are gaps in the 
intelligence with respect to this administration's 
understanding of the situation on the ground in Iran?
    Ambassador Edelman. I think we have gaps in intelligence in 
many matters, including in regard to Iran.
    Mr. Kucinich. In your judgment--and I would like the Rear 
Admiral to answer this, as well--would attacking Iran heighten 
the risk to American forces inside Iraq?
    Ambassador Edelman. I really think it is inappropriate to 
address a hypothetical question about an attack that I have 
already said there has been no decision by the President to 
make such an attack so, you know, I just think we are dealing 
with, in a realm completely----
    Mr. Kucinich. I want everybody to check this out because 
the fact of the matter is that all planning for any kind of 
conflict involves hypotheticals.
    Now Admiral, you are a military man. I am asking you, would 
attacking Iran heighten risks to American and coalition forces 
inside Iraq?
    Admiral Sullivan. It is very difficult to answer without 
knowing the circumstances, but I think on the face of it, it 
probably would.
    Mr. Kucinich. Thank you, Admiral.
    Ambassador, has the White House been in contact, and that 
is, Mr. Bush and Mr. Cheney, been in contact with the 
Department of Defense relative to planning for a nuclear attack 
on Iran?
    Ambassador Edelman. Sir, as I said, I am not aware of 
anything remotely like anything described in the Seymour Hirsch 
article in The New Yorker.
    Mr. Kucinich. At any time, did the White House insist that 
a plan for a bombing campaign against Iran include the possible 
use of a nuclear device to destroy Iran's uranium enrichment 
plant at Natanz?
    Ambassador Edelman. I am not aware of any such thing.
    Mr. Kucinich. You are a Under Secretary of Defense for 
Policy. And have you been in any discussions regarding a 
bombing campaign with respect to Iran?
    Ambassador Edelman. Congressman, I have been involved in a 
number of discussions about Iran, but most of them have focused 
on the diplomacy, because that is where the administration's 
focus is right now.
    Mr. Kucinich. In your current role as Under Secretary of 
Defense for Policy are you or anyone within the Department of 
Defense currently working on are have been working on selecting 
potential bombing targets in Iran?
    Ambassador Edelman. Congressman Kucinich, you are 
essentially asking me the same question you did earlier with 
regard to contingency plans. And I am in the same position that 
I was in earlier, which is that I don't think it is appropriate 
to discuss contingency plans in an open hearing. We don't 
discuss them in general.
    Mr. Kucinich. We already know that in the days immediately 
following September 11th, Secretary of Defense was advocating a 
war against Iraq. Now during your time in the Vice President's 
office, did you or were you aware of anyone else when you were 
in the Vice President's office working on military options for 
Iran?
    Ambassador Edelman. I am not aware of anybody in the Vice 
President's office having worked on military options for Iran.
    Mr. Kucinich. During the time you were in that office?
    Ambassador Edelman. During the time I was in that office.
    Mr. Kucinich. Did you see any intelligence relating to Iran 
during the time you were in that office?
    Ambassador Edelman. As I said before I saw intelligence on 
any number of different subjects that were part of the normal 
intelligence briefing that I received every day.
    Mr. Kucinich. Was it your job to help select the 
intelligence that would help to make the case for a war against 
Iraq?
    Ambassador Edelman. No, sir, it was not.
    Mr. Kucinich. Whose job was it?
    Ambassador Edelman. I'm not sure anyone had such an 
assignment sir.
    Mr. Kucinich. Then how did we get to war against Iraq based 
on intelligence that you said that you reviewed?
    Ambassador Edelman. It is the President's decision. 
Ultimately, it is a Presidential decision, sir.
    Mr. Kucinich. Does the Vice President have anything to do 
with that, based on your role working with the Vice President? 
Can you share with this committee any of your impressions as to 
whether the Vice President was involved in that decision?
    Ambassador Edelman. The Vice President, in my experience, 
was very careful to provide his advice to the President in 
private and many times those of us on the staff were not aware 
of what that advice specifically was.
    Mr. Kucinich. Isn't it true that the President generally 
defers to the Vice President on issues that relate to attacks?
    Ambassador Edelman. Sir, I think anyone who has actually 
seen the President and the Vice President interact would not 
say that the President defers to anybody. The President is the 
person who makes the decisions for this administration.
    Mr. Kucinich. Thank you. Do you believe the President must 
seek authorization from Congress before conducting military 
operations in Iran?
    Ambassador Edelman. That is really a legal question sir. 
And I am not in a position to answer that.
    Mr. Kucinich. Well, you are the Under-Secretary of Defense 
for policy.
    Ambassador Edelman. I think it depends very much on what 
the circumstances are.
    Mr. Kucinich. Do you receive authorization from Congress 
before conducting military operations in Iran?
    Ambassador Edelman. It would depend on the circumstances.
    Mr. Kucinich. Under what circumstances should the President 
of the United States be able to order an attack on Iran without 
the permission of the Congress.
    Ambassador Edelman. We are just dealing in such an area of 
hypotheticals, sir. I believe the President, before we went 
into combat in Iraq, came to the Congress. He will make the 
determination of what the relationship between his 
administration and Congress ought to be.
    Mr. Kucinich. Does the U.S. withdrawal out of Iraq impact 
U.S. military options in Iran?
    Ambassador Edelman. Again, we are dealing with some very 
hypothetical questions here. I don't--I don't want to, by 
answering the question, either appear to be confirming or 
denying the noticing that there is some kind of plan to attack 
Iran because as I have said, that is a discussion that Mr. 
Hirsh has had in The New Yorker that I don't believe bears any 
resemblance to the reality as I know it.
    Mr. Kucinich. Mr. Chairman, I will wrap this up. Here is a 
summary.
    Hypothetical, Iraq has weapons of mass destruction. 
Hypothetical, Iraq was tied to September 11th. Hypothetical, 
Saddam Hussein working with al Qaeda. Hypothetical, Iraq 
intended to attack the United States. Hypothetical, Iraq had 
the capacity of attacking the United States. This 
administration translated every one of those hypotheticals into 
a course of action that resulted in disastrous war.
    Over 2,600 American troops dead, 100- to 200,000 Iraqis 
dead, the cost of $350 billion or more maybe $3 trillion, 
according to Joseph Stiglitz. We are borrowing money from China 
and Japan to fight a war all based on hypotheticals. So this 
gentleman has just laid out a course of response to my 
questions about Iran saying, well, that is all hypothetical.
    Indeed, Mr. Ambassador, it is hypothetical. And we are 
trying to find out, in our responsibility as a committee, 
whether or not that very hypotheses that this administration 
works from are riddled with falsehoods. That is why I asked 
those questions. And I am disappointed with your answers. Thank 
you, Mr. Chairman.
    Ambassador Edelman. Congressman Kucinich, the only thing 
that I am aware of that is riddled with falsehoods would be Mr. 
Hirsch's story in The New Yorker.
    Mr. Kucinich. When well when you raise your right hand and 
under penalty of perjury in an open committee where you answer 
questions without shielding your self behind the rubric of 
classified formation, then I will be ready to take your word 
for it.
    Ambassador Edelman. Congressman, I have answered truthfully 
and candidly all the questions that have been put to me.
    Mr. Shays. Thank you. Ambassador, I think you have been 
very candid and where you haven't been willing to answer you 
have been candid about that. And I appreciate that. And I 
appreciate your responses as well, Rear Admiral.
    I want to talk and conclude with going back to the primary 
purpose of this hearing, which is to talk about security 
numbers.
    And we are now talking about police. And there are 
approximately 24,400 national police out of that total number 
of 188 police and Border Patrol, 188,000 police and Border 
Patrol. Of that 24,000, does the Department of Defense have 
estimates as to how many are competent and reliable?
    Admiral Sullivan. I am checking my figures here, 
Congressman, make sure I give you a good answer. We do have the 
unit readiness ratings for those units. There are national 
police in the lead with coalition support, and I think the 
number is nine battalions of those police that are actually in 
the lead. And then another almost 40 that are working side by 
side with the coalition forces.
    Yes, we do track those numbers.
    Mr. Shays. Isn't it true that 20 percent, that you want to 
remove about 20 percent and that the Iraqi Government wants to 
see about 20 percent of that 12,000--24,000 reduced by 20 
percent?
    Admiral Sullivan. That is a rough figure.
    Mr. Shays. Let's take it as a rough figure. Do we have a 
program to do that or do the Iraqis have a program to do that?
    Admiral Sullivan. They do have a program to do that, yes, 
sir. And also retrain some battalions that have not performed 
up to par.
    Mr. Shays. Is it correct, going back to the Army, that only 
10 percent of the Iraqi army are Sunni Arabs, which equates to 
about 12,700?
    Admiral Sullivan. I am not sure of that figure. I know we 
are not tracking the battalions by composition by religion, but 
I think the estimate is somewhere in that neighborhood.
    Mr. Shays. So it is a relatively small number, is it not?
    Admiral Sullivan. It is, yes, sir. It is close to their 
percentage in the population, which I think is around 20.
    Mr. Shays. It would be about half of what it should be.
    Admiral Sullivan. Yes, if that number is right, and I am 
not sure that it is, sir. It may be higher than that.
    Ambassador Edelman. Congressman Shays, if I might, I think 
one of the things we are trying to do is to make sure that this 
national institution is seen as representing all Iraqis, and so 
we are trying to get consciously away from the ideas of people 
as they enter the armed forces, and the police thinking of 
themselves in ethnic or sectarian terms, but rather thinking of 
themselves as Iraqis first.
    Mr. Shays. I realize that, but if you just have all Shias 
going into a Sunni area, they are going to know.
    Ambassador Edelman. Point well taken.
    Mr. Shays. You want an integrated military correct?
    Ambassador Edelman. Yes, and the point is, as I think as we 
indicated in the 9010 report, we are moving more and more in a 
direction of a force that is getting pretty close to the actual 
percentages, but there is still some disproportions and so for 
instance in the officer corps you tend to see more Sunni 
officers than Shia because of past history and tradition.
    Mr. Shays. What factors went into the decision that the 
Iraqi security force would total 325,000 particularly an Iraqi 
army of 138,000 or so?
    Admiral Sullivan. Well, as I stated earlier, Congressman, 
there were a number of considerations. We took a look at the 
rough order of magnitude of what size force is needed for a 
country that size to do focus on counterinsurgency operations. 
We did not obviously want to duplicate the army that existed 
under Saddam, which is an aggressive and offensive-minded army.
    So those are the numbers we came up with. And we also took 
a lot on the police forces at representative nations in the 
region, what we thought we knew about the Iraqi police before 
the war, what size they had at the time, and factor all of 
those things in to arrive at these numbers. And as I also 
mentioned, we wanted to make sure it was a force that could be 
sustained and maintained by the Iraqis once we had helped them 
build it.
    Mr. Shays. When the Iraqi army and police have reached 
their maximum size of 325,000 trained and equipped personnel, 
will that allow Iraqi security forces to take over completely 
the job of street patrols and combat operations?
    Admiral Sullivan. That combined with a certain level of 
experience and assessment by our forces as to their 
capabilities. So it is not a simple mathematical answer, 
Congressman. It is a lot of factors involved.
    Mr. Shays. Let's say when they had a year's worth of 
experience so they are fully competent. I mean, a year's worth 
of on the ground, being-shot-at experience.
    Admiral Sullivan. I am sorry I missed the question.
    Mr. Shays. On the ground years worth of experience do they 
then become competent?
    Admiral Sullivan. They should, yes, sir.
    Mr. Shays. Well, if they aren't, then the number is a low 
number. I mean, candidly, once they become competent, and I 
mean----
    Admiral Sullivan. Sir, I understand your question.
    Mr. Shays. Because otherwise, the 138,000 or 137,500 or not 
enough.
    Admiral Sullivan. Sir, even our own units move in and 
outside of competency based on where they are in their cycles.
    Mr. Shays. I understand, but we are talking about margins. 
We are not talking about huge numbers. In other words they 
become more competent, maybe there was some significant 
injuries, key officers were killed, but, let me kind of just 
get to the end of this then. We have--basically, we have 3 
provinces that we call stable, those are the three Kurdish 
areas. We have eight that are moderately stable. We have six 
that are serious. And we have one that is critical, Anbar.
    And so, but of Iraq, how much of Iraq is under primarily 
Iraqi control with Iraqi governments and--but let's take the 
military first. How many are basically being patrolled by 
Iraqis, not coalition forces?
    Admiral Sullivan. About 60 percent of the country, the 
Iraqi security forces are in the lead. Now they are supported 
by coalition forces but they are planning, conducting 
operations in about 60 percent of the country, in the lead.
    Mr. Shays. But we have only transferred one of those 
provinces to the Iraqi prime minister.
    Admiral Sullivan. Yes, yes, sir that is a slightly 
different calculus. That is a process that involves the 
provincial Governor, General Casey and his role as 
multinational forces in Iraq as well as the prime minister in 
assessing whether or not that government is capable of running 
their own security without having lead under the coalition so--
--
    Mr. Shays. But there is one where I say it is totally 
independent we might invite Iraqi troops, I mean, American 
troops in, but I want to be clear. Let me ask the question, is 
this basically under Iraqi control, Iraqi troops, and they are 
in charge?
    Admiral Sullivan. That is correct, yes, sir.
    Mr. Shays. In the other districts that are--60 percent of 
Iraq, that is, where Iraqis are taking the lead, they are still 
under U.S. control?
    Admiral Sullivan. Yes, sir. We have transferred one Iraqi 
division to this Iraqi ground force command that is under the 
administration of the Ministry of Defense, and so they are not 
doing operations under multinational command Iraq control. So 
that is kind of a separate issue. But in quite a few areas, the 
Iraqis are in the lead conducting the operations. They are 
still reporting to the multinational command Iraq, excepting 
this province of al Muthanna and this 8th Iraqi army division.
    Mr. Shays. I just want you to just be--we went from 40 
percent primarily where the Iraqis are taking the lead, now it 
is 60 percent, but that 40 percent was an unstable number 
between 8 weeks ago. Did someone push that number down to 30 
percent? I just need to have that 60 percent even better 
defined than you are defining it right now.
    Admiral Sullivan. Yes, that 60 percent is a figure 
referencing territory.
    Mr. Shays. So how about populationwise?
    Admiral Sullivan. I think that represents about 65 percent 
of the population, but I can check that figure.
    Mr. Shays. Does it represent specific provinces or is it 
a--are we dividing the province in half with primarily Iraqi 
control and----
    Admiral Sullivan. In some cases, the province, it is 
divided in half. It is not strictly along provincial or 
province border lines.
    Mr Shays. So what I wrestle with is given that 60 percent 
is primarily under Iraqi control and initiative, why we still 
have the same number of troops. And I only have two 
conclusions, one that we simply didn't have enough coalition 
forces so we have been using them to buildup. Or, that we have 
continually--continually underestimated what we would need and 
not recognize that Iraq was getting more violent.
    Those are my only two conclusions. I want to know at what 
point we reach that base to which we then can withdraw our 
troops.
    If we get to 100 percent or 80 percent in the lead, does 
that begin to say we can reduce our troops? When is that going 
to happen?
    Admiral Sullivan. Sir, that is a very difficult question to 
answer, and the reason it is is that because the evolving 
security environment will determine when the commanders on the 
ground think that they can safely withdraw some of our troops.
    Mr Shays. Let me respond to that by saying to you where I 
have trouble with is why I got so angry at my staff going once 
into Iraq years ago and being aware that we didn't have the 
body armor, and we didn't have the military equipment at its 
highest protection level, upgraded and then being told by the 
military it will be done in 3 months. And then I go back 3 
months later we still have the problem.
    And I come back and they say well we underestimated the 
number we needed and the violence and so--that happened three 
times. So my logic tells me why don't we just assume the worst, 
the very worst, and then work off that number because we have 
been wrong so many times.
    And I have another theory. My theory is this the American 
people don't think we have a plan because we don't share the 
plan that we have and because that plan has been wrong more 
often than right.
    So we have one choice, share the plan that has been wrong 
and at least they know we have a plan, or not talk about the 
plan so people don't think we have a plan that we are just kind 
of, like, winging it. We are not winging it. We are just wrong. 
What this committee is going to pursue with you, and we are 
going to ask for these numbers, we want to know when the 
baseline is there on a worst-case-based scenario, and from that 
point, we are going to recommend that we are--we feel with 
some, I hope, conviction we can predict when our troops can 
come home under a worst-case scenario.
    It bothered me that when we voted on a time line a few 
months ago. We then read we had a time line. We all knew we had 
a time line. The administration said it was condition based. 
Why not just assume the condition is going to be really bad, 
and give us a time line based on the really bad rather than 
thinking it is going to be better.
    And I want to just say I have looked at the classified 
documents, and I believe that our plan is unrealistic. It 
suggests we are going to get troops out and that Iraqis are 
going to take over well before they are going to take over. And 
I think we all know that. So my plea with all of you is to have 
some realistic numbers that we can work off of, because I 
believe the American people, as well as the Iraqis, have a 
right to know when we are going to see some kind of reduction.
    And then I am going to say to you, but it is only going to 
be the reduction on the police side of the equation, because we 
are still going there for operations. We are still going to be 
there for logistics. We are still going to be there for medical 
support. We are still going to be there for those things. And 
we are still going to be there to make sure that Iran, Syria, 
Turkey, Jordan, Saudi Arabia doesn't think this is a land they 
can have some opportunity to move into.
    So what would you like to put on the record before we get 
to the next panel? There is anything you would like to put on 
the record? Ambassador.
    Mr Edelman. Mr. Chairman, I would just like to maybe 
address a couple of points that you made just now and then go 
back maybe circle back to one you made in your opening 
statement, if I could.
    While I think all of us would like to have some 
quantitative answer that would give us some confidence about 
when we can start withdrawing United States and other coalition 
forces, I think a lot of this ends up being a qualitative 
judgment that inevitably has some subjective element in it. You 
were asking a question about our units that have 1 year of 
experience, you know, doesn't that kind of get them there? I 
think a lot of it ends up a being a question of leadership at 
the unit level. And there, because we now have embedded 
trainers, we have a better mechanism for being able to look at 
that and when we have problems weed them out, but it also is, I 
think, undoubtedly true that some of what we are grappling with 
is a kind of particular culture that was bequeathed to the 
military by the preceding regime that is going to take a little 
bit of time to work through, getting people to take initiative 
getting people to see their responsibility as being a 
commander, as being for their troops and their well being as 
opposed to a means for greater patronage or benefit for the 
individual.
    It is going to take a little bit of time to work through 
that. And I think the difficulty we have with fixing things 
quantitatively is that there is some important qualitative 
element, and that goes not only for senior commanders but more 
junior commanders and NCOs as well and we are beginning to 
address some of these problems.
    You began the hearing by talking about, I think, quite 
eloquently the progress you saw during many of your preceding 
trips between the turnover of sovereignty in June and then the 
election in December, and you expressed some concern about the 
stagnation since then. And I think all of us share some of the 
impatience and concern that I think your comments reflect about 
the length of the process that took place.
    And you rightly point out that we had some benchmarks which 
forced the pace, if you will, politically in Iraq. I would 
submit to you however that we are in a slightly different 
situation now because sovereignty was returned in June 2004, we 
are still deal with a series of limited governments whose 
duration was going to be limited.
    And only with the installation of the current Maliki 
Government after the December elections do we have a fully 
sovereign, permanent government of Iraq that has now got to 
step up and take decisions.
    And the earlier benchmarks were dictated by an arrangement 
agreed by Americans and Iraqis when the circumstances were a 
bit different.
    I agree with you that we need to find some ways to force 
the pace of the process. I think the constitutional revision 
process may help that to some degree. And I think the necessity 
of having provincial elections which we have touched on from 
time to time in this hearing is yet another potential 
opportunity to set a benchmark that Iraqis have to build 
toward, both on the reconciliation side which my colleague, 
David Satterfield, will address in your hearing on Wednesday 
and other means and mechanisms for getting the Iraqis to 
shoulder more of the responsibility here so we can begin the 
process of bringing forces home eventually.
    Mr. Shays. Thank you, Ambassador. Admiral.
    Admiral Sullivan. Congressman, I would just like the record 
to show that in response to your comment about a plan, we do 
have a plan and we have been executing that plan for quite some 
time and that is to buildup the Iraqi security forces. They 
have the ability to provide for their own security and that has 
been the plan for quite some time.
    I share your frustration with the fact that the situation 
has evolved and that we have had to adjust plans over the 
course of the last several years several times. But in fact, I 
would not want the American people to leave with the impression 
that there was not a plan. And that plan was being executed.
    Thank you.
    Mr. Shays. Thank you both very much. I very much appreciate 
your being here, appreciate your coming to this hearing and we 
will have a 5 minute break and then we will go to our next 
panel. Thank you both.
    [Recess.]
    Mr. Shays. The ranking member had asked that a report of 
the Select Committee on Intelligence on postwar findings about 
Iraq's WMD programs and links to terrorism and how they 
compared with prewar assessments together with additional views 
be submitted for the record. And without objection, so ordered.
    Mr. Kucinich. I thank you very much, Mr. Chairman.
    Mr. Shays. Thank you.
    Let me introduce our witnesses and thank you for your 
patience. We have Mr. William Nash Major General retired, U.S. 
Army senior fellow for conflict prevention, and director of the 
center for prevention action council on foreign relations; Dr. 
Bruce Hoffman professor, Security Studies Program, School of 
Foreign Service, Georgetown University; and Mr. Alan King, 
former commanding officer for 422nd civil affairs, Battalion 
operation, Iraqi Freedom, advisor for Tribal Affairs Coalition 
Provisional Authority.
    Gentlemen, we really appreciate your being here. We 
appreciate your testimony. We appreciate your patience. And we 
are really looking forward to this panel so thank you.
    As you know, we swear in our witnesses, and I would ask you 
to stand up and we will ask you to raise your right hands.
    [Witnesses sworn.]
    Mr. Shays. For the record, our three witnesses have 
responded in the affirmative. We are going to go in the order I 
called you. We will do the 5 minutes and then we will roll over 
another 5 minutes, and if you could finish within 10, that 
would be good. But my basic philosophy about the second panel 
is they were waiting, and so we cut them a little slack.
    And frankly, we anticipate learning a lot from the three of 
you, so thank you.
    I want to just remind you to turn your mics on before we 
start. Mr. Nash.

 STATEMENTS OF WILLIAM NASH, MAJOR GENERAL RETIRED, U.S. ARMY, 
  SENIOR FELLOW FOR CONFLICT PREVENTION, AND DIRECTOR OF THE 
  CENTER FOR PREVENTION ACTION COUNCIL ON FOREIGN RELATIONS; 
 BRUCE HOFFMAN, PROFESSOR, SECURITY STUDIES PROGRAM, SCHOOL OF 
 FOREIGN SERVICE, GEORGETOWN UNIVERSITY; AND ALAN KING, FORMER 
 COMMANDING OFFICER, 422ND CIVIL AFFAIRS BATTALION OPERATION, 
     IRAQI FREEDOM, ADVISOR FOR TRIBAL AFFAIRS, COALITION 
                     PROVISIONAL AUTHORITY

                   STATEMENT OF WILLIAM NASH

    General Nash. Thank you, Mr. Chairman, it is a great 
opportunity for me to be here, and I hope my views will be 
useful to you. Having listened to the first panel, and 
particularly your explanations and questions gave me a much 
better feel for some of the things that you want to go after, 
so maybe I could help a little bit more beyond my prepared 
statement.
    I think one of the issues that I would like to, because it 
is part of my day job, if you will, today, is to talk a little 
about bit about how the U.S. Government is organized, equipped 
and trained to conduct post conflict operations, and I would 
like to draw attention to that. It is most important it not be 
considered just an armed forces problem, but a problem of the 
entire government. And I strongly recommend that this 
subcommittee and the committee in general become actively 
engaged in improving our capabilities in that arena.
    I refer to you the Council on Foreign Relations Independent 
Task Force report entitled ``In the Wake of War'' which talks 
about ways the government in general and specifically the 
Department of State and the Department of Defense can better 
address post conflict challenges. And I provide you a copy of 
the report and would ask that its contents in its entirety be 
entered into the record, with note that Samuel Berger and Brent 
Scowcroft were the co chairs of this independent task force, 
and that was a very fine effort to try to identify some ways 
that we can improve things.
    Mr. Shays. Without objection, it will be submitted and for 
the record, ``Council on Foreign Relations, In the Wake of War: 
Improving U.S. Post-Conflict Capabilities.''
    [Note.--The report entitled, ``In the Wake of War: 
Improving U.S. Post-Conflict Capabilities,'' may be found in 
subcommittee files.]
    General Nash. Thank you. I realize you focus on Iran, it 
may seem somewhat overwhelming to try to talk about Government 
reform issues, but that is exactly what we need to do because 
we cannot afford to do things in the future like we have done 
them in the past.
    Sir, any strategy on Iraq has to concern itself with ends 
ways and means. Simplistic statements about goals for democracy 
and free market economy will not be sufficient. Bumper stickers 
stay the course, cut and run are not the alternative actions 
concerned with Iraq. A timetable for troop withdrawals is also 
not a strategy. It is a measure--it is a way to disengage. And 
disengagement is not an option for us today.
    Three years ago, we were in a senseless debate in this city 
about whether or not there is an insurgency in Iraq. Today we 
argue over whether or not there is a civil war.
    The debate is really a domestic political issue, not 
really--using Iraq as a venue.
    We dithered instead of taking strong and decisive action.
    And the bottom line in Iraq today is that there is an 
insurgency, there is civil war, there is rampant crime and the 
Iraqi people have far less security today than they had before 
the American invasion, despite whatever advantage they may have 
gained in getting rid of Saddam Hussein.
    I fear that a withdrawal now, in the current American 
forces in Iraq a significant withdrawal would add to the 
violence.
    This is not only a function of the capacity of the Iraqi 
security forces, but also the maturation of the political 
institutions and a settlement--a final settlement if you will 
on power sharing arrangements.
    All this has to be done in the face of an al Qaeda-inspired 
insurgency against the Iraqi government, against the coalition 
forces, against Shiites and against moderate Sunnis. So this 
multi layered, multiple war is being fought on top of each 
other makes it very, very difficult and frankly, we need many 
more debates and hard questions answered that you asked rather 
than the bumper sticker debates that all too often take place 
on Sunday mornings in the various other campaign stops.
    Two additional factors I would like to draw your attention 
to for your consideration. The first one is how long can we 
maintain this force that is there now? And I talk about this in 
terms of the men and women and their families and the Nation 
that is providing the service over there.
    Their dedication is unmatched, and frankly I say it is our 
proudest accomplishment. But I don't know how long this can go 
on. And I would say that in a year and a half----
    Mr. Shays. How long what can go on again?
    General Nash. How long the Armed Forces of the United 
States can sustain the operations we have been conducting in 
the Iraq for the last 3-plus years. And I think another 2 years 
we will see significant impacts on recruiting, retention and 
possibly discipline in the force.
    The other factor of course is that--and I think one of the 
problems that you are having in this regard, I am adding to my 
statement from what I heard--because of what I heard this 
morning, is that there has been a persistent shortage of forces 
in Iraq since day one.
    And the fact of the matter is the reason they can't tell 
you when they can withdraw down from 150,000, sir, it is my 
belief is the assumption that is the proper number of baseline.
    And without a good baseline that you are desperately 
searching for, it is impossible then for the commanders--and 
the commanders will not come out and disagree with their 
political bosses that they need more troops. They are equally 
hesitant to reduce the forces that they currently have, and 
that is a way of telling you they don't have enough, despite 
the progress made in training the Iraqi force.
    The second factor I would add to the discussion which is 
implied in many of your questions is the enemy has a vote on 
how many forces are necessary.
    So as the enemy strength and capacity and actions increase, 
then there is no concomitant reduction in the requirement for 
American forces. The enemy has a vote in this force level 
debate.
    Given these two factors and the limited tolerance by the 
people of the United States for commit for much more commitment 
and casualties, I think we need to consider a short-term 
increase in coalition forces in the country.
    Recent action in Baghdad has delayed the redeployment of a 
brigade adding to the strength of the security forces in 
Baghdad by just under 4,000 soldiers. We may want to consider 
expanding this delayed rotation process for the next 18 to 24 
months and take the risk that by using more forces for a 
shorter period of time, we may be able to reduce our overall 
needs.
    This may be considered by some imprudent, it may be 
considered an all or nothing action. I would recommend we study 
it and we look at it as a possibility for achieving our way.
    And finally, I would make three comments, sir, on the path 
ahead, the clarification of U.S. objectives is the end in the 
strategy that we need to establish. The interests of the United 
States and the interests of the Iraqi people are not 
necessarily the same. And we need to understand that our 
interests must prescribe our strategy.
    There is suspicion in Iraq and in the region as a whole 
about the long-term intentions of the United States with 
respect to oil presence and the future relations with the Arab 
and Islamic world. Without refighting, the political debate 
over why the U.S. invaded Iraq, Congress has the ability, if 
not the responsibility, to clarify our intentions by describing 
the United States concrete goals in Iraq.
    My view is that we should send a clear message that the 
U.S. military presence will not be permanent, and this means 
that we should stop those permanent military construction 
activities, the MCA projects that have been appropriated by 
Congress, throughout the country.
    We should not stay the course, we must broaden the course. 
Without a dramatic change in the perception of the role of the 
United States in the Middle East, we will continue to see them 
rise in anger against us, resulting in more conflict and a 
further drain on our resources. We must understand that U.S. 
actions with respect to Israel and the Palestinians, Iran and 
Syria and Lebanon have a direct and too often negative impact 
on our ability to stabilize Iraq. Less conflict, not more, is 
what is needed.
    And finally, we must emphasize the political and diplomatic 
and economic needs, time and time again our commanders have 
talked about the solution to Iraq is political and economic not 
military.
    But these solutions require both a regional and 
international effort led by our country. We cannot afford any 
other approach politically or economically ourselves. Sounds 
like a tall order, I understand, but if we succeed in 
bargaining the course and clarifying our objectives, I think we 
can find much greater international support.
    And as you talk about your frustration on deadlines and the 
maturation process of political institutions and 
responsibilities within Iraq, I would argue that a lever on 
force presence is not necessarily the most important lever that 
we could use to spur political action on the part of the 
Iraqis, and I will look at economic packages, political 
assistance issues that are more, and I would look for some 
economic carrots we can use in order to emphasize the need for 
political deadlines to be met.
    And sir with that I will stop and I look forward to your 
questions.
    Mr. Shays. Thank you very much, Mr. Nash. We are going to 
have some good fun in our dialog here. I appreciate it. It 
gives us a lot to think about.
    [The prepared statement of General Nash follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Shays. Dr. Hoffman.

                   STATEMENT OF BRUCE HOFFMAN

    Dr. Hoffman. Thank you, Mr. Chairman, and Representative 
Kucinich, for the opportunity to testify before the 
subcommittee on this important matter. That is America's 
involvement and role in Iraq has now become the most 
contentious issue of our time is a reflection of the complexity 
and frustrations of securing the security and instability of 
that country. It is compounded by a decidedly mixed picture of 
progress in some critical areas of Iraqi security, alongside 
continued stasis and serious reversals in others. Little 
clarity or consensus, moreover, emerges from conversations and 
e-mail exchanges with senior American and coalition diplomats, 
advisers and military officers in Iraq or from journalists 
assigned there, and other informed observers with immediate or 
recent direct knowledge of the situation in that country.
    This much in terms of Iraq's security however is perhaps 
clear. The great progress made in training and improving the 
Iraqi army and associated military forces has not been matched 
by similar improvement with the Iraqi police, the essential 
main stay of law and order and the foundation about which the 
stability of any country must be based.
    It is on this specific issue that I will focus most of this 
testimony before turning to issues such as the security of 
Baghdad and the prognosis of overall U.S. security policy and 
efforts in Iraq.
    The central objective of U.S. security policy for Iraq is 
to train, equip and buildup the Iraqi security forces so that 
they can assume responsibility from American and coalition 
forces for the stability of their own country.
    With respect to Iraq's military forces, advances in 
training and deployment have indeed been considerable, although 
as we heard earlier, it should still be noted that despite 
these improvements, the Iraqi army is still dependent on U.S. 
military forces for intelligence and logistical support.
    The police however present an entirely different and more 
depressing picture. The situation regarding the Iraqi police is 
all the more lamentable, given that 2006 was supposed to be the 
``year of the police,'' when the resources and attention 
hitherto focused normally on building the Iraqi army were 
instead devoted to the national police.
    The importance of police, both in civil society as well as 
in countering insurgency, cannot be overstated. In no area is 
this distinction more critical than an acquired intelligence. 
Clearly effective police work, be it against common criminals 
or terrorists and insurgents, depends on intelligence, and 
intelligence depends on public cooperation. Police typically 
have better access to human intelligence sources than the 
military. This information, whether freely provided by citizens 
to beat cops known to them or obtained by police from its 
informants snitches and other sources in and around the 
criminal underworld is essential to detect and apprehend 
terrorists or insurgents. It is essential also in undermining 
local support for terrorists and insurgents and in breaking 
their control over and influence in communities.
    Yet despite the critical role of police, more often than 
not, this has, from the start, largely been ignored by the 
American authorities responsible for building the security 
forces in Iraq. As one coalition adviser with long experience 
in Iraq dating from the summer of 2003 recently lamented, the 
coalition never got its arms around the police as they did with 
the Iraqi troops on the ground that we were training. 
Accordingly, a game of catch up has been in play almost from 
the start of our involvement in Iraq.
    In May 2004, the CPA started to address the initial 
problems with police trainings by establishing CPATT, the 
coalition police assistance training teams. Although U.S. 
military supervision provided better management of the police 
training effort, many of the American personnel responsible for 
this oversight did not know much about civilian policing, 
police training, or police work.
    Another more serious problem arose, however, when graduates 
of this training were subsequently incorporated into largely 
unsupervised police units commanded by persons who, in the 
words of another American adviser deeply familiar with the 
process, either ``had either nefarious intentions, death squad 
activity or distinctly sectarian agendas, or who were 
themselves corrupt or inept.''
    In hopes of establishing more rigorous supervision of the 
police, in May 2006, the multinational Corps-Iraq assumed 
responsibility for mentoring the Iraqi police. While this has 
generally been a positive development, the number of mentors, 
whether American military police or more appropriate civilian 
police advisers serving as international police liaison 
officers, IPLOs, has proven woefully inadequate. And both their 
quality and skills has been remarkably uneven. Even the stopgap 
measure adopted by MNSTC-I in Baghdad of making up for the 
shortfall in civilian advisers by assigning MP military police 
companies to police stations is not an altogether perfect 
solution.
    Military policing is significantly different from civilian 
policing. And many of the MPs themselves have no experience of 
police work outside of military bases and the military itself.
    Further the deployment of MP companies notwithstanding as 
of June 2006, some 40 percent of police stations throughout 
Iraq were reported to have no coalition oversight or 
supervision whatsoever.
    This dearth of supervision has also had enormous 
consequences on the professionalism of the Iraqi police forces, 
vitiating whatever successes had been achieved in training. For 
example, while the newly instructional regimen may have 
improved the technical competence of individual policemen in 
terms of investigative and forensic skills, it has done nothing 
to counteract the sectarianism and corruption permeating both 
the ministry of the interior MoI and police.
    Indeed reports of the subversion of the MoI are the Badr 
Corps and SCIRI on the one hand and by followers of Moqtada al-
Sadr belonging to the army Mahdi on the other seem to be 
endemic to any discussion about corruption in the ministry and 
the police. The dimension of sectarian infiltration of the 
police is so pervasive, one source claims, that the MoI's 
intelligence arm has now been completely subverted by the Badr 
corps while parts of the national police have been heavily 
seeded with Sadr loyalists.
    Let me now turn to the security plan for Baghdad and the 
prospects for success.
    Arguably, until stability is established in Iraq's capital 
city, the public, neither in the United States nor especially 
in Iraq, will believe that a corner has really been turned in 
the struggle. Although implementation of the latest security 
plan for Baghdad has gone reasonably well, it is still too 
early to tell whether this attempt will be any more successful 
than any of its predecessors have been. The newest iteration 
involves a three-phase operation whereby Iraqi and American 
forces enter a specific neighborhood and secure it from 
insurgents and terrorist activity, as well as sectarian blood 
letting.
    Once it is deemed cleared, the responsibility for the 
neighborhood security is turned over to Iraqi control as the 
military units move on to the next neighborhood. Although 
cautious optimism prevailed in most discussions and e-mail 
exchanges I had over the past 2 weeks with senior United States 
and coalition officials and former colleagues in Baghdad, some 
skepticism was expressed that there was sufficient American and 
Iraq--trained Iraqi security forces in the city to achieve a 
lasting positive impact. Moreover, according to one official 
visit, recent official visitor to Baghdad, ``the patterns of 
attack once the main force moves on are that insurgent attacks 
then increase. In the last 2 weeks there have been a resurgence 
of attacks once U.S. forces clear out. Formed units of national 
police in Iraqi army are performing fine. Regular civilian 
police who have American and coalition mentors are good, and in 
several areas, police comportment has improved technically at 
checkpoints and so on, but there is yet no real sign that they 
all can hold the ground by themselves without American military 
forces present.''
    The inadequate numbers of both American military forces and 
trained, reliable Iraqi security forces was cited by another 
knowledgeable observer as a problem both with respect to the 
Baghdad operation in particular, and Iraq security in general, 
in fact, as we have heard through the morning. Given that Iraq 
has a population of about 25 million people, based on a 20-to-1 
ratio of population to security forces, essentially what the 
British military had in Northern Ireland during the 1980's. You 
need roughly 500,000 troops and police to maintain order. 
However as we have also heard this morning, the envisioned 
total of Iraqi trained Iraqi security forces is only 325,000. 
Let me conclude now.
    Two salient conclusions seem clear from the preceding 
discussion of training and deploying of the ISF.
    Iraqi military forces will likely continue to build and be 
increasingly capable and will be able to assume the lead in 
more parts of Iraq. The Iraqi police, however, will continue to 
be both the problem and the Achilles heel of Iraqi security. In 
this respect, whatever advancements have been achieved in terms 
of the Iraqi army, the situation with the police counterparts 
remains as problematical as it is frustrating.
    Corruption remains a problem in the MLI. It is also 
reportedly beginning to affect the MOD. The MLI, of course long 
involved with security issues in Iraq, is plagued by 
corruption, nepotism and kleptomaniacs. The MOD is not nearly 
as bad, but the same signs of corruption are appearing.
    The MOI, though, is certainly the biggest security problem 
here. If the MOI was fixed we would have pretty decent police 
intelligence and a decent police force. Reforming the MOI is 
the biggest problem we currently face. This is from the U.S. 
diplomat who has been in Baghdad since 2003.
    Although the form of MOI is a question of Iraq's political 
will, it is in our power to improve police on-the-job training 
and performance through the provision of the CPAT IPL program 
and the priority accorded to the recruitment of more and 
appropriately qualified Coalition civilian police advisers. 
Until that can be achieved, the deployment of more U.S. police 
units is a second-best option, but nonetheless a helpful 
palliative.
    As support and oversight of the Iraqi police from the start 
of the Coalition Provisional Authority has been a matter of too 
little too late and of numerous passed opportunities, this may 
be the last opportunity to address the existing shortcomings of 
the Iraqi police establishment.
    Finally, it is difficult to predict for these reasons at 
one point if the ISF can take on additional security 
responsibilities with a reduced American presence. 
Realistically, in my opinion, 3 to 5 years at least are 
required for the Iraqi military and 7 to 10 years for the 
police. It would not be likely for another 7 years that the 
Iraqi security forces can completely replace all combat--all 
U.S. combat forces in Iraq. At the moment, therefore, it is not 
realistic to set a withdrawal timetable based on the current 
readiness of the ISF.
    Mr. Shays. I thank the gentleman.
    [The prepared statement of Dr. Hoffman follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Shays. Mr. King.

                     STATEMENT OF ALAN KING

    Mr. King. Mr. Chairman, thank you for the opportunity to 
testify before you today. I would like to make five key points 
in summarizing my written statement.
    First, there are three major challenges that must be 
overcome if Iraq is to assume full responsibility for its 
security. The first of them are militias. The activity of the 
militias are the single most divisive issue challenging the 
legitimacy of the central government. We are aware of Iran's 
multimillion-dollar budget to back the militia, and with Sadr's 
influence in the country growing, the Iraqi Government will be 
hard pressed to pursue its objectives.
    We witness the results of what uncontrolled nonstate actors 
did in Lebanon. Sadr's Mahdi army is equivalent to Lebanon's 
Hezbollah, and while not considerably as heavily armed today, 
it poses the same potential threat as to Iraq's future. I 
believe that if the U.S. departed today, Sadr's militia are 
poised to lead Iraq to civil war and SCIRI's Badr Corps 
domination of the security forces has positioned this nonstate 
actor in a state-sponsored position to pursue its independent 
goals.
    The second challenge is the lack of a legitimate and 
professional police force to deal with the unrestrained 
criminal force.
    And the final challenge is the unreliability of the 
judicial system that makes tackling the police problem 
unrealistic and impractical.
    Second, when I arrived in Baghdad on 8 April 2003, Major 
General Buford Blount of the 3rd Infantry directed me and the 
unit I served in as the commanding officer of the 422nd Civil 
Affairs Battalion in the mission of taking the first steps 
toward the immediate reconstruction of the city. Generally, men 
hugged us in their gratitude for liberation. We were 140 
soldiers and we were trained, committed and hard working, and 
we understood what it meant to be the tip of the spear in the 
postliberation period.
    We paid a price. One American soldier and an Iraqi 
translator killed, four soldiers wounded, including Major 
Damone Garner who sits behind us today. Our unit received five 
Purple Hearts, 21 awards for valor and the Presidential Unit of 
Citation.
    In 3 short years, I have watched the resistance grow into a 
substantial insurgency. I believe this is in large part due to 
America's fundamental misunderstanding of our success. When the 
President declared an end to major combat operations on May 1, 
2003, we had decisively defeated an armed force and the war in 
Iraq was over, but at that very moment the war for Iraq began. 
Our objective at that time was no longer to defeat an armed 
combatant, but to decisively engage the Iraqi people.
    After May 1st, our conventional tactics, with an emphasis 
on kinetic solutions designed for decisive victory over a 
noncombatant, provided the insurgency a textbook ideological 
basis for receiving at least passive support, if not direct 
support, in conducting attacks against the Coalition and the 
Iraqi--Iraq's security infrastructure.
    In the days following the liberation, a military strategy 
could have been more effectively collaborated with a political 
and economic policy designed to win the people, thus allowing 
the Iraqis to eliminate the insurgents themselves. Since April 
2003, I have watched a transition from cautious concern for the 
Coalition's tactics to sympathy for insurgencies because of our 
tactics to complicity with the insurgents to fight our tactics.
    We must fully address the motives and tactics of the 
insurgents. There are six elements: the militias, the 
nationalists, religious extremists and sectarians, foreign 
fighters, former regime loyalists and common criminals. The 
demographics of the insurgency are different in each province 
and each element has its own motives for fighting.
    As we have seen, Baghdad has become the axis of the 
insurgency. This is where all six elements exercise their power 
and force a complicity of the people; because of the lack of 
security, people are compelled to use the competing groups for 
protection.
    Fourth, in November 2003, because of my tribal engagement 
activities, I received a new assignment as deputy director of a 
small team of experts on Iraq and I was tasked to work with 
Iraq's tribal leaders. In my book, Twice Armed, I explain how I 
engaged thousands of tribal sheiks and clerics over the 16-
month period I served in Iraq enabling me to capture some of 
the most-wanted personalities from the former regime, including 
two from the infamous deck of cards, along with the former 
chairman of atomic energy and Mohammed Saeed al-Sahhaf, a/k/a 
Baghdad Bob.
    From the Iraqis I met, there was one constant theme that 
was espoused by all: We are Iraqis. This nationalistic identity 
transcends religious and ethnic identity, transcends religious 
and ethnic identification and provides a prospect for Iraq to 
become a unified nation. For this national identity to 
continue, it is necessary for the Iraqi leadership to table 
their personal objectives and come together on behalf of their 
country.
    In closing, Americans must understand that in Iraq we will 
not have a decisive battle of victory, and in its absence, we 
should not leave. The process for victory in Iraq is not 
military, but instead political and economic, where the Iraqi 
Government, supported by the Coalition, wins the Iraqi people 
and they defeat the insurgency. Security and stability are 
processes, not identifiable events, and properly defining the 
end state of the process will allow us to determine when we 
should leave Iraq.
    Again, thank you for this opportunity. I look forward to 
your questions.
    [The prepared statement of Mr. King follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Shays. I thank all three of you very, very much. And I 
am going to first ask, giving myself 10 minutes--we are going 
to stay with the 10 minutes and then just keep going back and 
forth--do any of you agree with anything that the others have 
said or anything that you would want to qualify?
    Is there any statement, for instance, Dr. Hoffman, that Mr. 
Nash and Mr. King made that you might want to elaborate on?
    Mr. King, is there any statement that Mr. Hoffman or Mr. 
Nash has made?
    General Nash. I would largely agree, and I tip my hat to 
Alan King for his comments and, of course, his service there.
    The one thing, his defining the six categories of the 
elements of the insurgency, I agree with the six; I don't agree 
that they are all under an insurgent category. Because an 
insurgency is directed normally, usually--almost always 
directed against a central body of some sort, and the 
internecine fighting that is taking place in Iraq is 
multiblurred, and everybody is fighting the United States. Not 
everybody is fighting the United States, but--almost everybody 
is fighting the United States, but within this mass of 
confusion, there are different fights taking place with various 
opponents combining and breaking up, given the circumstances.
    So it is not one insurgency with six participants. It is 
several, some of which are insurgencies, some of which are 
civil conflict, and then there is crime that is part of all of 
it.
    Mr. Shays. Any other comments?
    Mr. King. I would like to say, when I briefed Ambassador 
Khalizad before he went over to Iraq, I tried to define the 
different categories of what he would see the military and the 
Coalition forces facing. I agree that they all don't fall under 
the insurgency, but we try to have this one umbrella term to 
define all of the activities that are going on in Iraq. In the 
south, you have predominantly Mahdi's army; they actually have 
the same police cars, wear the same uniforms as the police.
    One of the phases of insurgency is where you infiltrate the 
police, and SCIRI Badr Corps have done just that. In the west, 
in Anbar, you actually have cities where there are no police; 
Haditha and Baghdadi and others, there are no police present 
for various reasons.
    I met, as I said, almost 3,300 sheikhs. All the top sheikhs 
of the entire country came to me and presented their ideas, and 
through them, I captured almost a dozen of the most-wanted 
criminals in Iraq. We captured Saddam Hussein's doctor, 
bodyguard, driver, Baghdad Bob, the chairman of atomic energy 
and others.
    They understand their society, and I listened to them to be 
able to deal within their society. Al Anbar is going to be a 
challenge. The Dulaimis have historically been a problem. They 
were a problem for the Ottomans; they were a problem for the 
British, and they have proven to be a problem for us, but they 
have to be addressed in political terms and I don't think that 
we have--the Government of Iraq has addressed their concerns. 
It goes back to the case of not allowing some of their sons in 
the military.
    I use the insurgency umbrella to be able to define one 
thing rather than have it on the outside. I do agree with 
General Nash; I understand they are not part of an overall 
insurgency, but they are all fighting one another.
    Mr. Shays. I am curious as to why all three of you suggest 
time lines can't work as it relates to the replacement of Iraqi 
troops--excuse me, replacing American troops when Iraqis become 
competent. And you are going to have to help me out here. If 
the French told us that they had 20,000 troops, Mr. Nash, would 
we replace their 20,000 with ours or would we say, Oh, we will 
just add 20,000?
    I would like each of you to respond to that question.
    General Nash. Again, sir, I would say that we should not 
work from the assumption that the current force levels there 
are proper. And so, intuitively, the commanders are hesitant, 
and I am hesitant to recommend a one-for-one swap if I don't 
feel that I----
    Mr. Shays. Why don't we be honest and say that we need 
50,000 more or 80,000 more or 20,000 more?
    General Nash. I would like that question answered. I agree 
with you.
    Mr. Shays. So the reason why you are uncomfortable with the 
time line is you believe that we do not have the proper amount 
of security in Iraq?
    General Nash. Absolutely, sir.
    Mr. Shays. OK. That doesn't mean a time line doesn't work 
at all. Let me make my point and then you respond to it. It 
just simply means that time line doesn't begin until we buildup 
to the base.
    A time line doesn't mean that we reduce the number of 
troops from this point. When I suggested a time line as it 
relates to the replacement of Americans who are doing police 
work with Iraqis, I have suggested that we--the time line might 
even say, OK, you have to add another 50,000 more Iraqis.
    But there is a certain point, and why can't we determine 
that?
    General Nash. The major failure, in my view, in Iraq is the 
slow development of the political institutions, political and 
judicial institutions, that give a reason--a reasonable 
representative government that provides goods and services to 
the people of Iraq, and to include security. The time line--the 
deadlines for performance should be on the performance of the 
government and then we adapt to their improvements, not 
establish a withdrawal schedule.
    Mr. Shays. Let me--I'll come back to you on this. But you 
have made your point, right?
    General Nash. Yes, sir.
    Mr. Shays. OK. I want to debate it later.
    Dr. Hoffman.
    Dr. Hoffman. Well, I'll have to say I am largely in 
agreement with General Nash. I think, firstly, we face two huge 
challenges in Iraq: One, not just the insurgencies, but the 
insurgencies that we have heard from Mr. King as well. But the 
second problem which has also been alluded to is, we have a 
failed state contending with lots of different struggles and 
without the power and the tools actually to control those 
struggles. So, therefore, you know right from the start those 
are two of the most enormous challenges, both fighting and 
building up the Iraqi Government.
    In terms of the time line, I have to look--I am a historian 
by training, and I have to look at just the course of 
insurgencies in the last year. When I was advising the 
multinational force headquarters in Iraq we did a study on 
duration of insurgencies. The successful ones take between 9 
and 12 years to win. The unsuccessful ones, which I suspect we 
have to classify Iraq in, take between 10 and 13 years. So my 
response is, we need a time line.
    Mr. Shays. You are making an assumption that I would base a 
time line on whether or not they have dealt with the 
insurgency. I mean, Israel has been dealing with terrorists, 
Hezbollah, Hamas. There they are still a functioning 
government.
    I am not suggesting that a time line would be based on when 
the violence would end. I am just suggesting a time line that 
is based on when Iraqis can take our place, and that is a 
difference. There is a huge difference.
    So if you could open your mind up a little bit to that 
concept, what I think is, we will be out of Iraq and there will 
still be violence. There will still be fighting, but it will be 
their problem, not our problem.
    Dr. Hoffman. Well, I think I go back to General Nash's 
point. We have to assume that we have the right to properly 
size force structure.
    Mr. Shays. So we come back to that. We need to know what 
the baseline is. I mean, that is the message I am getting from 
all three of you: What the heck is that baseline? And what 
strikes me is that our government is not being candid with 
itself and with us, with the Iraqis, what that baseline number 
needs to be; and because they had a lower baseline before, 
there are some who frankly have a history. And probably that is 
the best argument for getting new people. They wouldn't have a 
history; they could think fresh.
    Dr. Hoffman. Well, I think it also masks a huge problem. We 
have set the baseline in such a way I don't think 325,000 
trained Iraqi forces are sufficient. If we want to get the 20-
to-1 ratio that existed in a place like northern Ireland, which 
was far less complicated then Iraq, where there was an existing 
government and a functioning democracy, you have to have 500 
security forces. So even with our troops there and the Iraqi 
forces brought up, you are still going to fall short of that.
    Mr. Shays. That is the value of this discussion of a time 
line, because what it basically says is, the time line to 
reduce doesn't start until you get to 500. That is--yeah, OK. I 
hear you.
    Mr. King, how long were you in Iraq?
    Mr. King. I was there for 16 months. I went over with the 
first group in March 2003, was wounded in February 2004, stayed 
until July 4, 2004, and then spent 16 months in the hospital.
    Mr. Shays. Well, I want to thank you for your service. I 
want to thank you deeply and sincerely. This young man who is 
sitting behind me, who is he?
    Mr. King. That is my son.
    Mr. Shays. What is his name?
    Mr. King. That is Wesley. He's the one that paid a larger 
price than any of us.
    Mr. Shays. I think the woman behind you is your wife?
    Mr. King. Yes, sir.
    Mr. Shays. And what is her name?
    Mr. King. It is Barbara.
    Mr. Shays. I want to say to you, Mrs. King, and to your 
son, Wesley, you should be very proud of your husband and your 
dad. And we are very proud of you, very, very proud.
    Mr. King. Thank you, sir.
    Mr. Shays. And I want to say to you, Major General, how 
long were you in Iraq?
    General Nash. I occupied Iraq, sir, before it was popular. 
I was--I occupied Iraq in 1991 in the first Gulf war for--
several times, but--I have traveled to Baghdad after the 
current war, but I don't have near as much time as Mr. King 
does in Iraq.
    Mr. Shays. Well, we appreciate your service, and I have 
been noting that I have been referring to you as ``Mr.'' and I 
should be referring to you as ``General.''
    And I would just like to thank Major Garner, who is sitting 
behind you, as well for your service in Iraq. Thank you so very 
much.
    We are going to go with a 10-minute rule here. But it is 
generous.
    And Mr. Kucinich. Thank you.
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    General Nash, today you are advocating for a 18 to 24-month 
increase in U.S. troops in Iraq, including delays and 
redeployment of U.S. troops as their replacements arrive. At 
the same time, you also stated about the stress to unit 
soldiers and family is severe.
    Do you believe that had the U.S. withdrawn its forces 
earlier during the formation of the Iraqi Government, such as 
following the January 2005 national elections, that we would 
still be in the same situation today?
    General Nash. At the time before--at the time I advocated a 
withdrawal of forces beginning with the political success of 
the elections, and made public statements that I had resigned 
from the ``We Need More Forces in Iraq'' club. Events 
subsequent to that have caused me to understand that the 
failure to provide security in key places, particularly 
Baghdad, in Iraq is largely a function of the lack of presence 
of forces.
    We do need to tie troop withdrawals to political success, 
but at the present time, we do not have that success, and I 
think we need to put more emphasis on achieving security in 
those locations.
    Mr. Kucinich. So you are saying, you first have to have a 
military solution before you have a political solution?
    General Nash. No. It is absolutely essential that the 
political solution is the key element in this, but the military 
has a role to play in that. Security has a role to play in 
that.
    The problem is, we are neither fish nor fowl with respect 
to security. We have not provided sufficient presence of forces 
to allow people to go about their lives in a reasonably normal 
manner, and we need to decide whether or not we are going to do 
that.
    Mr. Kucinich. Let me ask you this. The deployment of 
forces, does it or does it not depend on the situation in Iraq 
with respect to how many insurgents there are in a given area?
    General Nash. Yes, sir. I mean, it is directly related to 
the enemy action.
    Mr. Kucinich. Is it possible that as we deploy more forces, 
there are more insurgents?
    General Nash. That is--that is one of the arguments that 
has been--has been advanced. I would say to you, it is not the 
numbers of soldiers that are there that would grow the 
insurgency. It would be--the behavior of the soldiers present 
would have a larger controlling factor in whether or not the 
insurgency grew.
    The deliverance of peaceable areas supported by political 
and economic action will reduce an insurgency over time, but it 
is over time, not a short frame.
    Mr. Kucinich. You talk about economic action. What is your 
assessment of the reconstruction of Iraq?
    General Nash. I think the reconstruction of Iraq has been--
has been mishandled. Programs that have emphasized development 
of local job production have been more successful than large 
projects.
    In the words of one commander that served in Baghdad in the 
2004-2005 timeframe, we need to understand that we need 100 
shovels much more than we need one backhoe. And our failure to 
understand that in a nationwide environment has caused us to 
create large-scale projects whose fruition is long range and do 
not give relief to the people that need the work and the 
security.
    Mr. Kucinich. Do you think that the longer that U.S. troops 
are in Iraq, it serves to fuel or frustrate the insurgency?
    General Nash. It serves to dampen the civil war. It has 
elements that can fuel the insurgency, and one of the important 
distinctions here is to understand the nature of what all the 
different conflicts are about. And as I said in my statement, 
there are multiple layers of conflicts taking place, some of 
which the presence of U.S. forces moderate and some of which 
the presence of U.S. forces aggravate.
    That service, sir, is why this is so hard. But the bottom 
line is, in my judgment, that the provision of security in an 
environment where political institutions can mature, those 
economic opportunities can occur, will be of greater benefit 
overall than the possibility of causing some folks to continue 
to resent the American presence.
    Mr. Kucinich. Following your logic, General, the presence 
of the U.S. troops helps to moderate civil war, but fuels the 
insurgency. Would the reverse be true? Would the absence of 
U.S. troops lessen an insurgency and----
    General Nash. I think it would increase the civil war, the 
civil war aspects of the confrontation. And I think that much 
of the insurgency would then be redirected to the government 
itself, because much of the insurgency is, in fact, foreign 
fighter jihadists, motivated--that is, as opposed to the Iraqi 
Government and to a large portion of the population as they are 
to the U.S. presence.
    Mr. Kucinich. Is a civil war likely to continue whether we 
are there or not?
    General Nash. Certainly.
    Mr. Kucinich. So you could understand why some of us feel 
that withdrawal of U.S. troops would be beneficial not only to 
the United States, but to the people in Iraq, because there is 
going to be--there is a civil war going on right now that 
troops are kind of caught in this middle. And that is one of my 
concerns.
    General Nash. And you have every right to feel that, and 
you are making me very uncomfortable in trying to defend what 
has taken place in Iraq.
    Mr. Kucinich. I don't want to ask you to do that, General, 
because you have expressed a level of candor here which I think 
is admirable. And I guess what happens is that, you know, 
Congress inevitably makes these decisions as to whether or not 
we cutoff funds.
    General Nash. Sir, I understand.
    Mr. Kucinich. That really is our decision. The 
administration can say, well, we are going to keep the troops 
there, but it is up to Congress. If Congress cuts out funds, 
those troops are coming home.
    I appreciate your testimony in that regard.
    Dr. Hoffman, you made the case in your testimony about a 
civil society, you have to have a police force to have a civil 
society. There is a difference between, you know, the 
democratizing influence of police and the presence of the 
military.
    But when, you know, in the testimony where there is a huge 
absence of the kind of police that are needed--we had a hearing 
about this maybe a year ago--and at the same time where there 
are police, there may actually be some other military elements 
in the police uniforms, that could be a confusing factor in 
trying to get--you know, get democratic governance. Do you 
agree?
    Dr. Hoffman. Well, I think, you know, this is a reflection 
of one of the problems we have always had with the police, 
which I alluded to in my testimony, is that we've never devoted 
the attention and resources to building them up. And without, I 
think, a working police force, we are building a security 
structure that is just on a foundation of sand. By no means am 
I suggesting if we buildup the police now, we are going to 
address the insurgency of the civil war problems, but we will 
have the prospects of a foundation for a future.
    Mr. Kucinich. I have to ask you what is the level of 
influence of Iran over this Shi'a militia forces. Are they 
funding these militias? Are they training them?
    Dr. Hoffman. Well, at least from my experience, when I was 
with the CPA in the spring of 2004, even then we saw that Iran 
was involved backing a number of different sides, not just one 
horse. Of course, it's particularly close with SCIRI, the 
Supreme Council of the Islamic Revolution of Iraq, because that 
was created in Iran and many of its leaders had sought and 
received sanctuary in Iran before our liberation of Iraq. 
Clearly, there is Iranian involvement with al-Sadr and his 
forces. But from my observations 2 years ago, I don't think 
that they have changed. Iran had a hand everywhere and was 
monitoring everyone to control the situation at least in hopes 
to influence the manner favorable to its own interests.
    Mr. Kucinich. Here we are on the 5th year anniversary of 
September 11th attacks, and on the day that the American people 
have learned that some of our military leaders in Iraq believe 
that hope is lost in the Anbar Province, for example, can you 
offer an opinion as to--or do you know where the prime minister 
of Iraq is going today, where the prime minister is going?
    Dr. Hoffman. He's going to Tehran.
    Mr. Kucinich. He's having a 2-day meeting with President 
Ahmadinejad in Iran. What do you suppose that's about?
    What is the significance of that, someone who has filed 
this and stated that Iran is certainly involved in Iraq and 
stands to gain considerable influence whether the United States 
stays or leaves? What do you think?
    Dr. Hoffman. Well, clearly, Iran has always had an active 
interest in Iraq because, especially during Saddam Hussein's 
time, it felt threatened by Iraq. So that accounts for long-
standing interest, and I think a long-standing ambition that 
Iran has had going back to further revolution that brought the 
Ayatollah Khomeini to power to be the regional superpower, to 
be the hegemon, and indeed it is attempting, I think, to 
exercise that influence through Iraq.
    Mr. Kucinich. You heard the questions that were asked 
before, the Admiral, about what would be the impact on Iraq if 
the United States attacked Iran. Do you--do you note any point 
at which there is a an alliance of interest other than Muqtada 
al-Sadr between Iran and Iraq?
    Dr. Hoffman. Well, I think the Iranians have often been 
extremely professional in their subversion of Iraqi society and 
even their subversion of Iraqi Shi'a groups, so I'm sure they 
have a strong influence.
    I think I might respectfully disagree with the Admiral. I 
would imagine that if--that one of Iran's trump cards, if we 
were to launch any offensive operations against Iran, would be 
not only to mobilize Hezbollah and its worldwide assets, but 
also, I think, to make our existence in Iraq if not 
unbearable--then if not untenable then certainly unbearable.
    Already one has read of reports in recent months of 
thousands of what seem the Iranian citizen militia who have 
been trained and sworn to carry out suicide attacks in Iraq to 
defend Iran, if so directed.
    Mr. Kucinich. One final question and this is directed to 
Mr. King. And I want to join in thanking you for the risks that 
you took; and we are glad that you are home safe.
    You used your study of both the Christian Bible and the 
Koran as well as Iraqi tribal history in performing your civil 
affairs work; is that correct?
    Mr. King. Yes, sir.
    Mr. Kucinich. Did you find that the Iraqis that you dealt 
with were Islamic fascists?
    Mr. King. No, sir, but they had concerns particularly in Al 
Anbar both before the war and after that there was a movement 
by Wahhabis and others, particularly in Fallujah, Ar Ramadi, Al 
Qa'im, Haditha, to try to turn individuals in that area.
    Mr. Kucinich. What is the continuing appeal of clerics such 
as Muqtada al-Sadr to Iraqis or those who advocate violence 
such as al Qaeda?
    Mr. King. Al Qaeda is predominantly more--there--they are a 
different sect. Muqtada al-Sadr, in my opinion, he would want a 
Shi'a Islamic revolution within Iraq. I think he's positioned 
within the provincial elections to take control of a large 
portion of the south along with SCIRI in Karbala and 
Nasiryiyah. The Wahhabis have a whole different idea about 
life.
    Mr. Kucinich. But why do any of these people have appeal 
there?
    Mr. King. I would say Malumba, that they have lost their 
appeal, they are trying to hold their ground, but that the 
tribes in particular no longer want them there. The insurgency, 
the Iraqi insurgency, the pure insurgency that wants to see the 
return of a Sunni secular government wants them gone and has 
gone out of their way, particularly since the end of last year, 
to try to rid the area of those particular extremists.
    Mr. Kucinich. Would you agree with the Washington Post 
story today that Anbar is--the implication from the story that 
Anbar is lost?
    Mr. King. No, sir. You know, Nassaad Naif, who is the 
sheikh out there for the Dulaimis of the Al-Jaza'iri house, 
Aniza, who is the sheikh general for the royal family out in 
the west, along with a number of others I can name to you, they 
are nationalists and they see themselves as Iraqis but again we 
go back to history, the Dulaimis, which is predominantly 
Dulaimi area, they have always been a problem for any 
government, even Saddam's.
    Saddam had a problem in 1995; there was an uprising because 
he killed one of the members of the tribe. They are going to be 
a problem. They have to be dealt with in a very sensitive 
political way. The stronger tactics, you take the stronger, 
they'll fight back.
    Mr. Kucinich. Thank you, Mr. King. I want to thank you, 
thank the panel.
    Mr. Shays. At this time the Chair would recognize Mr. Van 
Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    Thank all of you for your testimony. Sorry I had to go out 
for a little while, but I've had a chance to review some of 
your written testimony. And thank all of you for your input.
    And, Mr. King, thanks to you and your family for your 
sacrifices, all of you.
    Let me start, if I could, with you, Mr. King, because I 
think you identify in your testimony one of the really central 
issues here, which is the question about whether or not the 
central Iraqi Government, as it's currently constituted, is 
going to continue to exercise the levers of power as a central 
government that represents all Iraqis, or whether some 
components of that government are simply using those levers of 
power to further the interests of a particular group.
    And you specifically mentioned in your testimony, and I am 
quoting here, ``Iraq has formed its internal security along 
sectarian lines with the Shi'a-dominated ministry of interior 
and the existence of the militias imposing strict 
fundamentalist policies, including death squads being 
circuitously attributed to the government's inaction or 
complacency.''
    My question, I guess, is very simple. If that is what is 
going on, in other words, if the ministry of interior, which is 
supposed to be the Iraqi ministry of interior, is essentially 
operating as a wing of certain Shi'a militia movements, how can 
we ever expect to end the civil unrest between the different 
communities in Iraq?
    Mr. King. I believe as long as it is organized in the way 
it is, it will continued to be challenged. I think the ministry 
of defense has done a more professional job of trying to do 
that even though they don't have the levels of representation 
of the Sunnis. But I think that the SCIRI's corps, the Badr 
Corps, which is the military arm of SCIRI, its infiltration 
into the ministry of their death squads and commando units and 
the Jaish, which is now seen as one of the faces of insurgency, 
their attempts to try to infiltrate the police is a challenge 
that we need to try to address; and that is going to be the 
most significant issue that is going to--that we are going to 
have to deal with in the near future.
    Mr. Van Hollen. My--I guess my question is, what are we 
doing, what can we be doing? As you say later in your testimony 
the SCIRI's Badr Corps-dominated security forces has positioned 
a nonstate, acting or in a state-sponsored position, to pursue 
its objectives independent of the government's objectives.
    But taking with your earlier testimony, with the ministry 
of interior, those have become--their government within that 
ministry, those are their objectives and given the fact that, 
you know, we have an insurgency which, according to the opinion 
report, remains potent.
    But we obviously have an ongoing--you know, as the General 
points out, whatever you call it, the fact of the matter is, 
thousands of Iraqis are dying in sectarian violence; and the 
ministry of the interior, which is the ministry that has the 
responsibility for preventing that kind of sectarian violence 
is, according to your testimony, an arm of SCIRI's Badr Corps.
    How are we going to deal with it? I would ask all of you 
that.
    Mr. King. I know that they have taken steps to try to 
remove the militias. I don't think that has been as aggressive 
as it should be.
    Mr. Shays. Could I interrupt to make sure that we know who 
``they'' is?
    Mr. King. I am sorry. The Iraqi Government has taken steps 
to remove individuals. They have gone back through lists of 
Baathists. But we will remain challenged in the future as long 
as the Badr Corps, who was a trained militia from Iran, and 
Jaish al-Mahdi exists and the only way that we can do that is 
to aggressively assist the Iraqi Government to remove those 
individuals as expeditiously as possible and rebuild the police 
to a base level, whatever we establish that base level to be or 
the government establishes that base level to be.
    Mr. Van Hollen. But you mentioned the Iraqi Government. 
SCIRI is the largest--SCIRI is the largest political party.
    Mr. King. Yes, sir.
    Mr. Van Hollen. And isn't----
    Mr. King. SCIRI stands for Supreme Counsel of Islamic 
Revolution.
    Mr. Van Hollen. I realize there is no easy answer to that, 
but it seems to me that we have heard nothing from the 
administration, frankly, as to how they are going to deal with 
these central issues other than just, ``Trust us, it's going to 
get better.''
    And the fact of the matter is, the violence is getting 
worse and part of the reason it's getting worse is that there 
are certain movements within Iraq that, while they say they all 
want to be Iraqis, the fact of the matter is, they are using 
their positions of influence and power to further the interests 
of a particular group and they seem to have the upper hand.
    Do they not have the upper hand today?
    Mr. King. If I could make one point on that, today, in the 
earlier panel's testimony, the discussion about the slow 
movement of the government, I would say that, you know, Prime 
Minister Maliki is walking a very fine line, right down the 
center of the road. And he's got to try to keep the extremists 
on the far right, which is about 25 percent of the political 
parties that are in power, along with the moderate democrats 
and the--you know, the moderates within the Shi'a party, try to 
make them all move toward a unified nation.
    And he--it is going to be a slow process. I don't think 
that we are going to see that in the very near future.
    Mr. Van Hollen. Any other predictions?
    Dr. Hoffman. Well, it's late in the day to start with small 
steps, of course, but if we use small steps, we are never going 
to get anywhere.
    I think, rather than tackling the militia issue head on, 
especially for a government that is dependent on a coalition, 
one way to begin to have a positive impact on the ministry of 
the interior would be actually to hold the individuals 
responsible in the ministry of whom evidence is being gathered, 
of whom charges are just waiting.
    But there is no political will to bring charges, not for 
militia involvement or political affiliation, but rather for 
crimes that would be crimes in whatever statutes existed in 
Iraq; for corruption or nepotism, and certainly for death squad 
activities and human rights abuses. And where there is 
evidence, a demonstrable sign of holding people in the ministry 
accountable and ending this, there has to be a political step 
forward, the will, that is, to hold criminals responsible. 
That--in and of itself, whether that would ultimately tip the 
balance, I think it would be a realistic step forward; and 
without that, we are really doomed and the ministry itself is 
doomed.
    Mr. Van Hollen. I guess the question there is, who is going 
to do the arresting? You have the ministry of the interior who 
is responsible for this. Now you can have the army step in, and 
we know that there have been some clashes between some of the 
death squads and the army.
    But I just--I just think if we don't get our hands on this 
particular issue, we're obviously in bigger trouble than we are 
today, than we are right now.
    Dr. Hoffman. You are right, but I think that is critical, 
the unknown second step. The first step is for the prime 
minister of the government is to take a stand and to order it 
to be done, and then there is the practice of implementing it; 
but if he's not going to order it, then the challenges you 
underscored are that much greater.
    Mr. Van Hollen. Mr. Chairman, I asked the earlier panel 
about this ongoing discussion within Iraq about the passage of 
legislation to create the provinces in the south. And I 
understand the constitution allows for that, but I think the 
Sunnis believe that there would be some additional possible 
modifications to the constitution. They would address some of 
their concerns primarily--I guess the--some clear benefit from 
Iraqi oil that would be going to the Sunni.
    Do you--what is your sense of the political situation right 
now? Have the different groups essentially made a decision to 
go their own way in Iraq in the sense that they have made a 
calculation that they are better off pursuing their own 
particular goals and that of their particular groups instead of 
the goal of a united Iraq?
    Dr. Hoffman. At least among the established parties, I 
don't see that yet, even among the Kurds that have always been 
the most strident and outspoken about separatism. They are 
still staying with the central government.
    Even someone like Muqtada al-Sadr, whose motives I wouldn't 
begin to divine and who is certainly a highly corrosive 
element, I think, of the entire mix but, unfortunately, is the 
kingmaker because he has the balance of representatives that 
puts whoever is in power there. I think at the moment he is 
still participating and holding on to at least a Federalized 
system.
    But I think it is all reflection of--that in a weak 
government, in this power vacuum, everybody at the moment is 
hanging back, marshalling their resources, hoping their 
opponents are weakened so they'll be in a position in years to 
come to fill that vacuum.
    So the fact, I think, that all of the representative 
political figures in Iraq have held back from civil war is 
entirely positive and commendable, but at the same time we have 
to be clear it is a reflection of their own power and the 
advantage or the opportunity they think at this particular 
moment they convene. I think what we have is a constellation of 
factions strong enough to assert their own will.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    Mr. Shays. Thank you very much. Thank you, Mr. Van Hollen.
    Gentlemen, I want you to tell me what you agreed and 
disagreed with in what the earlier panel said. In other words, 
the key point, what--is there anything that you just said, you 
have to be kidding me? Or you know, well, a lot of good that 
does us because you are so off.
    I mean, you weren't sitting passively. Or was it just more 
of the same; or good luck, committee, you are never getting the 
numbers you want.
    I mean, what were you thinking in reaction to the first 
panel? You all were here, correct?
    General Nash. Yes, sir. I saw a lot more of the same, sir, 
from the administration and I've had severe reservations about 
this whole--this whole effort. The failure to come to grips 
with what is necessary--what is militarily necessary to 
accomplish in Iraq and to ask for the necessary resources to 
achieve that is a continuous--continuous weakness in the 
pursuit of our objectives there if you don't come to grips with 
it.
    And it goes back to this issue of, you know, if you are 
going to--if you are going to be an occupier, at least be a 
good occupier and establish security and order and stability. 
And then build from there and transition from there if your 
intentions are to be good and promote democracy.
    Mr. Shays. I would like to say that if you are going to be 
a good occupier, what?
    General Nash. If you are going to be a good occupier, be 
good at it. And then develop a plan to transition to a 
democratic free market, respect for civil rights and the like 
over time.
    But we have never established that modicum of security that 
is necessary in Iraq to pursue our political and economic 
objectives and to give the Iraqi people a chance to grow. And 
that was because of all of the things that everybody has talked 
about.
    And there is not a willingness to make fundamental changes 
in our objectives and be more clear about our objectives. There 
is a failure to establish a broader course that takes into 
account regional issues that are at the heart of the perception 
of the United States' intentions in the region.
    And so it is a--so it is--I go back to the expression, we 
continue to be neither fish nor fowl in the pursuit of our 
objectives. One of the things, sir, that--and I am wrestling in 
my own mind about this time line issue that I know you are 
concerned with as you look for a way to positively influence 
the action. There is great concern about relinquishing the 
initiative to those who oppose us, and the time line as the 
measurement for progress or as the strategy for pursuing our 
objectives is, that is the greatest concern about it; it 
relinquishes initiatives.
    Mr. Shays. It relinquishes initiatives to whom?
    General Nash. To those who oppose us, to the enemy.
    Mr. Shays. I don't get that logic one bit. I don't get it 
one bit.
    General Nash. OK. Sir, if I know you have a plan, if you 
know your plan, OK; I am going to wait until it best suits my 
interest to act against it. And if you have a plan for 
transfer, and I know that I can defeat the replacement better 
than I can defeat you, I will delay any initiatives and I will 
build my case.
    Mr. Shays. Do you have any doubt that the opponents of Iraq 
think we will be there indefinitely? Do you think they think we 
will be there forever? Even the Iraqis think we are going to 
leave too soon. So, I mean, you are not telling them anything 
they don't already know.
    General Nash. Sir, I understand what you're saying. But to 
publish a schedule is to tell them something very specific. 
That is what's a concern. The concern also is the fact that I 
go back to--I go back to the action that if it becomes set in 
concrete, the enemy has a vote to disrupt this. This needs to 
be understood.
    Mr. Shays. Unless you take the worst-case scenario.
    General Nash. I understand.
    Mr. Shays. Then if you take the worst-case scenario there's 
nothing the enemy can do to make it worse.
    General Nash. There's not one person in this town, sir, who 
will take the best--worst-case scenario and present it to the 
American people for their plan for Iraq.
    Mr. Shays. I have looked at classified documents that are 
basically the joint military--multinational force campaign 
plan. Have you looked at that?
    General Nash. No, sir.
    Mr. Shays. I will tell you it is about as unrealistic as 
you can imagine.
    General Nash. I believe that.
    Mr. Shays. I mean, the more I look at it, the more angry I 
get.
    General Nash. Yes, sir.
    Mr. Shays. I'm not frustrated. I am angry. I am not 
frustrated. It is like I am almost coming to a conclusion--and 
this is why I love these hearings. I love getting people who 
are so--who focus all their lives about this, because in the 
process of your opposing the timeline, I realize why. It is 
based, first, on you think the numbers--the baseline number is 
really unrealistic. That's the start of it. And if I wasn't 
pushing it, I am not sure I would know that in the way that I 
know it.
    And then the other point, which I think is an easy argument 
to refute ultimately is it tells our enemy. I mean, our enemy 
knows more than we would care for them to know right now. And 
they know this? They know the United States ultimately got out 
of Vietnam. They know that we took away the dollars of the 
Vietnamese to at least do it on their own. They know that every 
American life is so precious that there is a number, whatever 
that number is, when Americans will simply say, We're out of 
here. They know it.
    And they listen to the debate that we have in this country 
with half of our constituency against it, and half of Congress, 
or close to it, against it. I mean--so it strikes me that the 
value of a timeline would be to maybe get Republicans and 
Democrats in the same room and say, You want to know that 
there's some limit here, and the Iraqis want to know we're not 
going to leave too soon. So why not do it on something very 
logical? When you are competent, you take our place, and if the 
fighting still continues, you are competent to fight them. And 
no different than what has existed in Israel for 60-plus years.
    So in my logic, my logic says I speak to some Iraqis whose 
biggest fear is that we will leave them, but I say that we 
won't. I don't know what the election will be like for this new 
Congress. And the President can initiate an action but a 
President can't fund an action. So I am thinking as well, you 
know, we're critical of the Sunni, Shias and Kurds. They don't 
have their act together. Republicans and Democrats don't have 
their act together in terms of the fact we have men and women 
who are risking their lives every day, and we are not coming 
together as a country to find a common ground and a common 
message so that our troops don't wonder what the hell we're 
doing back home; because when I speak to most of our troops, 
they're pissed off, excuse me, at what they see on CNN and 
they're angry as hell that their government is divided. That's 
what I see.
    So I don't think we have to tell the insurgents anything 
they don't know. Plus, the insurgents think that we're 
decadent. They think that we value life so much and they value 
the afterworld so much that they're going to beat us. And I 
have to tell you at the rate we're going, maybe they're right, 
you know, frankly. So maybe in a best-case scenario, timelines 
win. But I don't see a best-case scenario. I'd like you to 
react to the panel.
    Dr. Hoffman. I think that what struck me, although I am not 
necessarily sure that a congressional hearing is the place that 
you would see this kind of self-reflection, but it seemed to be 
a confidence that we have the right--that we have the right 
strategy, which has in essence been the same strategy that 
we've had for the past 3 years, and yet what I think was coming 
out very clearly in the question and answer is that the 
situation in Iraq has certainly changed and constantly evolved 
over the past 3 years. The situation today I would argue is 
very different than it was even a year ago. Unfortunately it 
tends to get more complex and more violent. But nonetheless, I 
don't think that our strategy has kept pace with those changes 
and we've stuck with, in essence, the same plan; that we can 
very quickly and expeditiously, more so than is realistic, 
buildup the Iraqi Army and police so that we can get out of 
there without accepting, I think, that----
    Mr. Shays. And the only thing that has changed, frankly, is 
the timeline of when all of that will happen. So in other 
words, it is a strategy that just keeps pushing back the dates.
    Dr. Hoffman. Well, and seeks--and continues to seek 
improvement by doing in essence the same thing but just 
changing around sometimes the organizational boxes. I mean, I 
think this has been the case with the police, is that 3 years 
into this process, I mean, as we heard in the previous panel, 
the police are still untrained. Certainly they compare very 
unfavorably to the Iraqi Army, and not only are they untrained 
but they're subverted and infiltrated so their loyalty is even 
in doubt. But yet we keep investing in the same approaches and 
the same strategies.
    Mr. Shays. Let me ask, is that fair in this case? Because 
they are reviewing the national police in particular and 
looking to that, who's competent or not. Is that not a sincere 
effort?
    Dr. Hoffman. No. I think it is a sincere effort, certainly, 
with some of the commando units in Baghdad. I think they have 
been reformed and there has been a vetting, but what always 
worries me is that it's either too little too late or only 
piecemeal. And going back to Representative Van Hollen's 
question, I think without the political will to really rout out 
thoroughly the corruption, the sectarianism, the abuses in the 
Ministry of the Interior, that even reforming units are 
attempting to do this on an individual basis without that 
direct political leadership from the center and political--the 
center meaning the centralized government--again it's still 
going to be at the margins.
    Mr. Shays. Any other point before I go to Mr. King?
    Dr. Hoffman. Just one other thing is just that even in the 
case of the Washington Post story about Al-Anbar Province that 
Representative Kucinich talked about this morning, it only 
strikes me--and this I think also came out in the testimony 
this morning--that so much of our assumptions in in Iraq are 
just based on conjecture. It's what we think the insurgents 
want, what we think motivates the insurgents. I mean, 
Representative Kucinich feels strongly, or at least my 
understanding of what he was saying, it's the presence of 
American forces and in some cases the actions of the American 
forces that have motivated the insurgents and perhaps increased 
their numbers.
    I would take a different view, and I would say that in part 
it's our inability to secure Iraq, to create a sense of 
stability where the situation, even where there have been 
improvements, has been worsened and which has dashed 
expectations on the part of the problem, has created a vacuum 
which has breathed life into lawlessness; because I think the 
message in Iraq is that lawlessness stays or at least you can 
get away with it. So that's on the one hand.
    On the other hand, we still don't or have never had a clear 
idea of this enemy. We have never done a systematic 
intelligence collection and analysis of the morale and 
motivation of the organization, of the sources of dissents, and 
of the fault lines within the insurgent movement. Instead our 
intelligence operations----
    Mr. Shays. Would you say insurgent movements or insurgent 
movement?
    Dr. Hoffman. Movements. Movements. In other words, the 
thousands of detainees we have--and we've been doing this since 
2003--we lean on them for high-value target information. We 
look to them, and I think quite rightly, to extract force 
protection and information, but we're just thinking of this in 
tactical terms and getting an immediate solution. We are not 
thinking of this strategically and understanding them, building 
up the detailed knowledge of why in fact--I think the question 
isn't that Al-Anbar Province--that the United States is failing 
in Al-Anbar Province, as the Washington Post suggested. The 
question I would have--what I missed here this morning is, why 
is it failing? And what is our analysis based on? It's usually 
based on us viewing the Iraqi problem through our own prism, 
but not really, and we've never really understood our adversary 
there.
    Mr. Shays. Thank you. I'm going to come to you as soon as I 
do Mr. King first.
    Mr. King. I think the most significant comment that was 
made was that we're focusing on a counterinsurgency. That's the 
process for the defense, building the defense forces. But we 
still have to look at what the external threats are if we were 
to leave. And if they can take care of themselves internally, 
if that's the instinct we want, and if we can clearly establish 
a timeline to get there, who's going to take care of the 
external influences, whether it's Iran or Syria or others, once 
we do leave, if they're just taking care of themselves?
    You know, I was responsible on the day that the regime fell 
for reestablishing the police department, put in that 
individual named Vince Crabb. He was dubbed sheriff of Baghdad 
by the press. And the police were corrupt before we got there, 
and they're corrupt now. You know, the year of the police--I 
understand and I respect that particular operational endeavor, 
but I think that we need to take a deeper look at that.
    Mr. Shays. Let me just inject myself, though. When we 
eliminated all the police, all the border patrol and all the 
Army and we stood up or started to stand up the police, the 
only time I really came close to weeping was when there were a 
whole group of Iraqi policemen who we gave no weapons to in 
Baghdad, and then a terrorist group went in and went from 
office to office and just obliterated them. I tell you, that to 
me was like one of the hardest moments I've had. And just think 
of the message that gave every Iraqi. You know, we're going to 
train you to be a policeman, we're not going to give you 
uniforms, we're not going to give you guns. We set them up, 
that they're in the office and they get obliterated.
    Mr. King. On that 13 days that I was responsible, we put 
5,000 police officers back to work 1,400 firemen. The police 
officers were armed. We gave them--we actually took a cache 
every day of pistols and gave them pistols and AK-47s. When 
ORHOC came in, they disbanded the police and wanted to do 
assessments and start from scratch. That was where we lost 
ground. They already knew what was the problem: It was broke. 
We at least had a starting point and had some momentum.
    The biggest thing that I--I believe that should be 
addressed is, again, we're focusing on internal security 
through counterinsurgency operations but we're not focusing on 
what it would take to be able to secure themselves externally 
against an external threat; i.e., Iran or Syria if they were to 
come across the border with heavy weapons.
    Mr. Shays. Isn't that our easiest problem right now, 
though? In other words, that's the least of their problems 
right now, isn't it, because we can provide that protection.
    Mr. King. Yes, sir. But that's the issue. If we're talking 
about now a timeline, when can we withdraw----
    Mr. Shays. But isn't there a difference between troops who 
are--our American troops are patrolling the streets of Baghdad 
and Basra and you name it, getting blown up and shot at and 
troops based--doing operations that are military operations. I 
mean, there's a huge difference between those.
    Mr. King. Yes, sir. I would give you an analogy. When I 
moved into the city, I took over the palace. I sent my troops 
around to knock on every door in a four-block area. And we 
said, We're here, and here's what we do, and what's your most 
significant concern? At that particular time, it was early in 
the liberation.
    Mr. Shays. When was it?
    Mr. King. This was May-June timeframe of 2003.
    Mr. Shays. Early spring, summer.
    Mr. King. Yes, sir. But when my soldier was killed, when he 
was killed by an IED, the same one that Major Gardner was 
injured in, they came to us that night and told us who did it. 
And we were able to capture him 5 weeks later; we caught the 
five guys who did it. When I was ambushed and my bodyguard was 
killed, that next morning they called and told me which tribe 
did it. I called the sheik of the tribe and a week later they 
told me who it was and it had been taken care of. That's the 
type----
    Mr. Shays. Now, at that great moment when we're going--so 
what turned that around, in your judgment? I don't want to--
this is about as important a question as I could ask you. 
Because I was there early on and I saw that kind of effort on 
the part of the military. So what, in your judgment, turned 
that around?
    Mr. King. You know I went up with the first troops. We 
fought our way up. By the end of April, every one of my teams 
had been in some direct action. Even though we were a support 
element, we were civil affairs, we weren't supposed to be 
fighting and we were supposed to be helping them. We weren't a 
direct action. I fought a group of Syrians on the 10th of 
April. But there are troops that followed who didn't realize 
that our point, as I made in my statement, we had won the war, 
we had defeated a--decisively defeated an armed enemy. At that 
moment, though, the war for Iraq began and the objective was 
the people. We were there to help the people. And kinetic 
responses, particularly in this society, aren't necessarily the 
only way when we don't have enough----
    Mr. Shays. So it was replacement troops or--how long were 
you there? Do you understand the question I am asking? I mean, 
you are talking to a Peace Corps volunteer. I have no trouble 
understanding what you are telling me.
    And I remember when we were in Iraq in April in, a guy 
Mohammed Abdul Hassan basically was telling us as we asked 
questions, What are we doing to make you uncomfortable? He 
said, You throw candy on the ground and our children pick it up 
like children--excuse me, like chickens. They're not chickens. 
And at one point he kind of grabbed me on the shoulder and he 
said, You don't know us, and we don't know you.
    Now, when we went in August, we met certain military groups 
that were doing tremendous outreach just like you did. I want 
to know, in your judgment, what stopped that? Was that the next 
group that came in that didn't know it was their 
responsibility? Was that a decisive leadership change that said 
stop doing this and do something else? What was it?
    Mr. King. It was an understanding. I mean for me and my 
successor, we had a good handoff. And he took on my mission and 
continued it on. But his successor saw no value added with 
engaging the sheiks, and he just disbanded the entire 
operation. They had no one to turn to at that point.
    For me, I wrote a paper in June 2003 that explained the 
Iraqi culture and the differences and the misperceptions we had 
about how Saddam dealt with them. Like the regular police 
couldn't go kick in the door. They had to go get the 
neighborhood Ba'athist to go and knock on the door. The secret 
police could. But that wasn't everybody. But when we kicked 
in--even when I caught----
    Mr. Shays. When you say ``could,'' who could?
    Mr. King. The secret police in Saddam's regime could kick 
in the door, but the regular police couldn't.
    Mr. Shays. Why was that?
    Mr. King. That was the rules of engagement. Like for me, 
when I caught Saddam's doctor and bodyguard and driver, we 
thought Saddam was inside. And our reinforcements hadn't showed 
up, a large crowd had gathered. I just decided to knock on the 
door and ask, Is Saddam at home?
    Mr. Shays. You decided to do what?
    Mr. King. I just knocked on the door and said, Is Saddam in 
here? I didn't kick in the door, I didn't run into the women's 
quarters. I didn't drag him out. I made that individual walk me 
door to door within that building to secure it. But we caught 
Saddam's doctor, bodyguard, and driver, along with a suitcase 
of clothes that we believe was for Saddam, without having to 
do, you know, a hostile raid. I only had to do that one time 
the entire time I was there, and caught, you know, number 23 
off the deck of cards, number 55 off the deck of cards, 
caught--Baghdad Bob walked in my office and surrendered. The 
chairman of atomic energy walked in and surrendered, the former 
Ambassador to Russia walked in and surrendered. All these were 
former Ba'athist individuals. But it was because of a trust 
that I had built and with a relationship. I stayed. I didn't 
have the turnover. There was a lot of turnover in those days. 
They were there for 90 days, 6 months. There wasn't a long-term 
commitment. These people build everything on relationships. Who 
can they go to? And once the relationships changed and they 
don't have that same one, there's a level--there's a time 
period where trust has to be rebuilt. And in the early days in 
the transfer of battle space, some of that was lost.
    Mr. Shays. Thank you. The gentleman from Maryland has been 
very generous and patient. He has as much time as he wants.
    Mr. Van Hollen. Thank you. Thank you, Mr. Chairman. And 
thank all of you again for your testimony.
    Dr. Hoffman, I think you sort of summed up the situation 
very well when you said it's more complex and more violent 
today than it's been in the past. And in fact it is getting 
more complex and more violent. It is amazing that we have not 
done as a country the kind of in-depth analysis you talked 
about with regard to the different groups, their different 
motivations, and how that impacts our decisionmaking process 
here.
    I want to go back to the issue of trying to get a political 
settlement in Iraq, because I think General Casey has said it 
many times, and others as well. If you don't get a political 
settlement among these different groups and address the 
different interests that are at play here, you're not going to 
be able to resolve the insurgency or the civil war situation. 
There's a lot of focus on training the Iraqi troops, and that's 
very important. We want the highest quality troops. But it 
doesn't do us any good if we teach someone to shoot better and 
be a better shot if they don't have loyalty to the central 
government and we're simply improving the lethality of the 
militia.
    And so while, you know, it's important to go over these 
statistics about who's trained and who's not trained, until we 
get the political pieces right, we're not going to be able to 
resolve this issue.
    Now, General Nash, I noticed you had served in a couple 
places. You were in Bosnia as well as Kosovo. And I guess if 
you could draw on that experience to look at what's happening 
in Iraq today. We're going to hear on one of our later panels, 
I think it's the third set--third set of hearings from 
Ambassador Peter Galbraith, who served as our U.S. Ambassador 
to Croatia, who has just written a book called The End of Iraq. 
And his analysis is petty simple. Iraq has fallen apart, and 
now we are spending a lot of time trying to put it back 
together. It's not that it's together and we're trying to keep 
it from falling apart, it's the opposite. And he essentially 
comes to the conclusion, not with any joy, but looking at the 
reality of the situation on the ground, that having a strong 
central government in Iraq isn't going to happen. Not because 
he doesn't want it to happen but because the constituent groups 
in Iraq have decided that it's not in their interest to make it 
happen.
    If you could please just comment on that based on your 
experience in the Balkans.
    General Nash. Well, thank you, sir. You know, the earlier 
panel, there were quite--you asked questions about analogies to 
the Balkans, or that issue came up. And of course there are 
many tactical lessons we have learned in the Balkans that could 
have helped us a great deal in Iraq.
    Decisive initial force. I mean, one of the things you talk 
about, force levels, when I give a talk about Bosnia, I always 
say we took too many folks to Bosnia but we didn't know it at 
the time. And we were able in a year to reduce a significant 
amount, and that's a better way of doing things than scrambling 
from the bottom up.
    I think the political dynamics, though, of Iraq today, 
there's not going to be a strong Federal Government in Iraq for 
a long, long time. I just--the political circumstances are such 
that I don't think you can put it back together. And so there 
has to be a central--I think--I think it is to the United 
States' interest to promote a central body that has a degree of 
influence on international affairs and military action in the 
region. I think it's also to the Iraqi people's advantage to 
have an arrangement where the resources and riches of the 
country, not only oil but in agriculture, another potential of 
the country, is shared in a reasonable manner. But the fact--
because of the neighborhood they live in, and because of a long 
number of historical issues that they face, we're not going to 
have this one-state model with 18 provinces that participate in 
it federally.
    Whether we could have achieved that, if we had done things 
differently at the beginning, I don't know. I think we could 
have ameliorated some of these forces in a variety of ways, but 
we are where we are.
    So one of the issues about time is trying to provide a 
sufficient umbrella to allow these political forces to work 
out. My recommendation is, is that we need extraordinary effort 
to try to--to try to allow that accommodation. And our ability 
to influence it is absolutely limited. But there is a need to 
try to let it occur, and there are a number of actions that I 
could go on and on about to try to promote it to some degree; 
but I do not have a great confidence that we're going to see a 
solution at any short-term period of time, and I don't think 
we're going to--and while I disagree with the op-ed that Peter 
Galbraith wrote several years ago now about the three-state 
solution, I am afraid his contemporary forecast is--may not be 
too likely to come about.
    Mr. Van Hollen. If I could, I don't know if anyone else has 
a comment on that, but let me followup. Because I think we all 
agree that given the fact it is Dr. Hoffman who said it's more 
complicated and more violent than--and what we're doing now is 
clearly not working. It doesn't seem to be pushing forward a 
political settlement and political reconciliation in Iraq. And 
my view is that questions about U.S. force levels and decisions 
as with respect to time, you need to be tied to political 
decision points within Iraq, but if we're going to do that 
we've got to identify some. And the fact of the matter is, I 
haven't heard anything coming out of the administration with 
respect to what those political decision points would be.
    We were supposed to have a renewed discussion on the 
Constitution at the end of August. I don't know when that's 
going to happen now. We have this legislation that's being 
considered, pushed by the Shias to develop the autonomous 
province in the south, which is clearly an indicator of where 
they're coming down in terms of these issues by pushing that 
forward before beginning the conversation on the Constitution. 
And I am just interested in what political decision points they 
made, because otherwise more of the same is not a strategy. 
It's a strategy for failure because the situation is getting 
worse and we have a Pentagon report that says it--I mean 
Congress required they tell us this. It's one of the few things 
they've sort of been straightforward about. They have to do it. 
But it's clearly, you know--we've all heard that the definition 
of insanity is knocking your head against the wall, keep doing 
the same thing, and expect a different result. Well, we're not 
getting different results other than worse results. So what 
would those political decision points be?
    And, you know, I think some hard questions are going to be 
asked. Why isn't, you know, what about--Senator Biden and, you 
know, we would not agree with every element of the plan but at 
least they're talking about some political solution here and 
whether--they've got some ideas out here. I haven't heard 
anything from the Bush administration in this regard. And we 
might not like sort of the prescription of Ambassador 
Galbraith, but what he says is he doesn't like it either.
    It's just a reflection of reality on the ground. It's a 
reflection of these migrations taking place within Iraq today. 
It's a reflection of the fact that if you took a referendum in 
the Kurdish area, well over 90 percent of the Kurds say they 
want independence. I know the Sunni leaders in Baghdad say 
something different, but that's not necessarily a reflection of 
the will of the people there. So he comes to it more out of 
sort of sorrow than any joy here.
    And you know, I agree with you, General Nash. From the U.S. 
perspective, the best solution would be an Iraq that stays 
together for a whole host of foreign policy reasons. Iran's on 
the border. Yeah, we've got all sorts of questions with Turkey 
and the Kurdish issue, but how much--if it's a question of 
putting it back together and what we're doing now is not 
working, and you know--I know you talked about resources, and 
you may or may not agree, but there's--there's no one--the 
administration's not talking about more troops in.
    So really, what are the political decision points that we 
need to be looking at? I understand your testimony about 
timetables, set timetables for withdrawal, not putting them 
fixed in legislation. I happen to agree with you. But then we 
need a political--we need some key political decision points 
with respect to making these critical decisions. What are your 
recommendations?
    Dr. Hoffman. Well, I'll jump in. It gives my colleagues 
time to think. Of course it's a difficult question. I mean, at 
the risk of perhaps putting it too simplistically, I think 
there's two big main choices that--or two main questions we 
have to ask ourselves. Are we determined to see this process 
through? Or at what point does it actually have a lay-down 
marker? Or do we just give up and say that if there are no 
advances then it's not going to succeed?
    From my perspective, unlike my two colleagues that actually 
fought in counterinsurgencies or at least in environments like 
that, I have only studied them for brief periods, served in 
those environments in an advisory capacity. But in some 
respects this isn't that different from many of the issues that 
we debated in these rooms over Vietnam or El Salvador.
    Just take a more recent--the more recent conflict in El 
Salvador. I mean, this was an involvement that began during the 
Reagan administration, that originally had enormous bipartisan 
support, and we faced I think very similar challenges. First we 
went in there and we had to completely rebuild the Salvadorean 
armed forces. We had to retrain the military and the police. We 
initially tried to do it very quickly on the cheap. When 
General Warner went in there in 1981, for example, he came back 
and said that it would take 3 years and cost about $300 
million, and he was laughed at for being overly pessimistic, I 
think a scenario we might have seen played out 3 years ago in 
Washington.
    It ended up taking a decade and ended up costing over $6 
billion. So it took tremendous investment. Even then you could 
still point to failures in El Salvador. We trained every 
Salvadorean officer in the United States. This wasn't a matter 
of a handful of advisors or a small portion given their 
military force training. Every officer was trained in the 
United States. We created their NCO core. We had multiple 
training missions. Not just--I mean, same problem we have with 
the police in Iraq. Not just make them technically better. We 
improved their technical capabilities, their fighting 
capabilities. They then went out and engaged in death squad 
activities. We had to go out and stop that.
    Even in 1989, even in the last years just as the cold war 
was ending, the main insurgent group there had a last spasm of 
activity nationwide, urban uprising, and exactly that unit, one 
of the most elite units of the Salvadorean military, a unit 
that had just been trained by the U.S. special forces mobile 
training team, went to the university of San Salvador, as you 
may recall, killed 14 Jesuit priests who they believed were 
sympathizers. They had been trained repeatedly by us.
    That's part of I think the challenge and the time that it 
took. But at the end of the day, even with the enormous 
setbacks in San Salvador it took a decade in an even less 
complex and a less violent society--although El Salvador is 
pretty violent--than Iraq. We still haven't built the 
foundations for democracy that exist today and that has to be 
one of our guiding principles.
    Is what we're doing in Iraq worth it and do we have the 
stomach and the stamina to stay with it? As an insurgency 
analyst, as a terrorism analyst, from my point of view--and 
this is an apolitical statement--but just as a terrorism 
specialist, I worry very much that declaring victory and 
leaving precipitously, getting fed up and withdrawing and 
leaving Iraq to whatever fate awaits it is going to be a call 
to our enemies, and not necessarily to our enemies in the 
region, to al Qaeda and to associated Jihadists who will see 
this exactly as they did in the late 1980's, that they defeated 
then what was then one of the two superpowers, the Soviet 
Union, and then they decided to take on the United States.
    This isn't just conjecture or myths or legends, that for 
the last year at least when I was at Rand, I spent time 
studying documents that our forces seized in Afghanistan to 
learn about al Qaeda's early history in the early 1980's, where 
it got its ideology strategy, and this is something that is 
undeniable, that they have hubris, that they were so full of 
themselves, having defeated the Soviet Union, they sought to 
turn on the United States. That's what I worry about, not 
having the determination committed to resolve Iraq.
    Admittedly, we may have gotten involved far too hastily in 
our planning, especially in our phase 4 planning. It may have 
been ill-considered involvement in retrospect, but I think 
equally hasty and equally ill-considered withdrawal from Iraq 
will indeed affect us in very adverse ways in the future.
    Mr. Van Hollen. If I could just--one last thing Mr. 
Chairman. Let me just--on the El Salvador analogy--and I think 
there's some very good points made there, and you said Iraq was 
even more complicated. And one of the major complicating 
factors is the sectarian violence between the Sunni and the 
Shia. We can have a discussion about to what extent that was 
latent before we went in and to what extent it has been 
aggravated, and obviously the bombing of the Golden Mosque was 
a major catalyst for that. But there was clearly concerns about 
that possibility before the bombing of the Golden Mosque.
    Now, with respect to al Qaeda, I do think--and given that 
this hearing covers lots of many issues--but you would agree, 
would you not--and let's put aside the situation that exists 
today and what we should or should not do and how al Qaeda will 
or will not interpret it. You would agree, would you not, that 
until the United States went into Iraq, the likelihood of al 
Qaeda being able to use Iraq as some kind of base of operations 
was minimal; that in fact Saddam Hussein was not an ideological 
compatriot of al Qaeda; that he was in fact in many cases a 
secularist who used Islam in his--for political convenience; 
that he was in fact, as I said, the ideological opposite of 
Osama bin Laden. And in fact, whatever we decide to do going 
forward we have now created a mess with al Qaeda in Iraq that 
did not exist before we went in there.
    Dr. Hoffman. Sir, I don't disagree with you at all. If you 
asked me that question in 2001, 2002, 2003, as I did say it 
then, I would have said the same thing.
    Mr. Van Hollen. But you don't disagree?
    Dr. Hoffman. I don't disagree.
    Mr. Van Hollen. Thank you. Thank you, Mr. Chairman, for the 
hearing.
    Mr. Shays. We're going to close up very shortly. Wesley is 
getting hungry. I am getting hungry. He did want to know about 
our hearing on Wednesday and Thursday and said, is my dad going 
to get to testify? And I said, Wesley, I'm sorry to report you 
will have to be at school on Wednesday and Friday--rather, on 
Wednesday and Thursday. But he told me he's a good student so 
he was able to get away today. So that was good.
    I don't believe we can fail in Iraq. I believe that 
failure--forget what it does to oil prices. It means that there 
will be an all-out civil war. It means that the Islamist 
terrorists will win and be emboldened, and it means that Iran 
will clearly be the dominant force. So it's not an option. It's 
just not an option.
    The only issue that I am wrestling with is, one, what do we 
do to make sure we win? And I am left with the fact that--and 
I'll tell you someone else who didn't think--doesn't think we 
can afford to lose, and that's Thomas Friedman who, writing for 
the New York Times, has basically said, you know, he thinks we 
are now baby-sitting a civil war; and as he points out, he had 
one bullet left in his gun, and he fired it off to get people 
to wake up.
    I believe that--the one thing that I am concluding in this 
hearing that I didn't think I would feel with the intensity I 
feel now, it is so clear that our baseline is too low, and that 
there is no way I can justify it being so low except for the 
fact there are people in the Department of Defense who have a 
history of justifying that low baseline, that maybe the only 
way that baseline--and we have an honest dialog about that 
baseline, is getting people in who have no connection to those 
decisions. And that raises the fact, then, you have new 
leadership and all the leadership changes that would take place 
in the Department of Defense. But I am convinced as strongly as 
I was, that the way we need to proceed, and it's contrary to 
your--all three of your advice, particularly two of you, is 
that we need to know logically what that baseline is. We then 
need to understand that as an Iraqi has been trained, been in 
office, been in position for a year in the line of fire, that 
they have capabilities that then justify our removing troops. 
We can predict to the day when that is because we know how long 
it takes to train. We know what their record is in staying. We 
know the competence of those who stayed after a year. We know 
how many are competent and how many aren't.
    So I don't--I am not convinced by your reluctance to move 
forward with that, though I have to say, you obviously are all 
experts. I am convinced--one thing you haven't told me is what 
do we do to change it; what do we do to get people to wake up? 
And none of you have come forward with any suggestion of how we 
do that.
    So maybe I'll end with that question. If you don't want a 
timeline, if you don't want that, if you tell me what gives the 
political will to the Iraqis to move forward with the same kind 
of an intensity they had in 2005--and you can't have it both 
ways, you can't be against some kind of timeline and then tell 
me you want changes without telling me what brings that change. 
So I put my best solution on the table. I would like you to end 
up with your best solution.
    General Nash. Sir, I want to begin with a word of thanks. 
Thanks for a serious discussion and a commitment to try to do 
the Nation's deed. And for that I am very grateful, and I wish 
there were more of you in the room.
    Mr. Shays. Thank you for saying that.
    General Nash. Sir, I begin with a positive statement about 
a timeline. It drives debate, and that's the debate we need to 
have. And so I would encourage--I would encourage all methods 
to cause an intelligent discussion. And I sat here, again, 
reflecting on panel one with great frustration for the lack of 
serious dialog and open dialog on the issues.
    My biggest problem with a timeline as a strategy, sir, is 
that I don't know what I have when the timeline is finished. 
And we want to draw--to write a timeline on the replacement of 
military--security forces by other security forces, and I don't 
know if the number 325,000 is the right number, and I don't 
know if the 150,000 is the right number.
    Mr. Shays. We do know this, we do know that the 325 is not 
the right number.
    General Nash. Yes, sir. I do know it's not.
    Mr. Shays. We don't know what is the right number.
    General Nash. Oh, sir, I don't know, but it's closer to 
500,000 than it is 325,000. The current plan does not call for 
a sufficient security of the borders.
    Mr. Shays. OK. No, I just wanted----
    General Nash. It's somewhere in there, and the right number 
of 150 for 150 is somewhere between 200 and 250. OK, that's the 
same number I said in the summer of 02, by the way, 250,000. 
But in any case, that's not the crucial issue. The crucial 
issue is the political settlement. So, are you going to drive a 
political settlement that will sustain the country and achieve 
the U.S. objectives of a place that will not harbor terrorists, 
it will be peaceful with itself and with its neighbors? And so 
it's that transition, that development of a political 
institution power-sharing arrangement that is the driving 
factor on American success in the country.
    Mr. Shays. Let me interrupt you there, because you and I 
totally agree with that. And I agree with you about the other 
part on the number of troops. The baseline is too low. Isn't it 
logical to assume that if the Iraqis know it's on their 
shoulder and not ours, that they are going to have a much 
better chance of success if they sit down, Shias and Kurds.
    Now, the Iraqi--the Shias will tell me the Sunnis want too 
much. I agree. The Sunnis will tell me when I visit them, the 
Shias are not giving them enough. I agree. So it strikes me 
that if they know and they can plan for it and know that in a 
year we will reduce so many of our troops and 18 months so many 
more, that they have an incentive to do the very thing you 
said. And so you tell me what gives them the incentive that's 
better than that.
    General Nash. Sir, the first thing I want to emphasize 
before I answer your specific question is that there are major 
forces at play that do not want to--that are working very hard 
to ensure a political accommodation is not achieved.
    Mr. Shays. Right.
    General Nash. And so as we talk about incentives for the 
Iraqi people, a non-unitary--you know, not a single object 
there but the players, the Iraqi players in all of this--even 
if there's a group of good-faith negotiators, Sunni, Shia, Kurd 
and they come within--they melt--they boil themselves down to 
just those three players in looking for accommodation, which is 
a large assumption, then there's still major forces that have 
every--that chaos is the objective.
    Mr. Shays. We understand that. But it's not all. And the 
logic there is you isolate those. You bring some clerics on 
board, and you isolate the others, and then everybody goes 
after the others.
    General Nash. Right. But again, that is not necessarily--
that is the enemy who is least conducive to a timeline 
development.
    Mr. Shays. I understand. I understand.
    General Nash. All right. With respect to the development of 
the political institutions, I agree that the discussion--that 
a--that an event, a condition-based strategy, should have an 
associated timeline. That is always done. No matter what they 
say, you know, here when you do a condition, an event-driven 
matrix, you're looking at time limits for that.
    Mr. Shays. I would like you to tell me your best suggestion 
on how you get the political part of the equation to be more 
aggressive, and I haven't heard anything yet.
    General Nash. I would combine economic incentives or the 
lack thereof as a major element. I would include an element of 
security assistance, OK, beyond that of six helicopters and 
five C-130's and a very small navy, so they have a chance to 
have a real military force and have influence in the area. They 
have no choice under the current military structure the United 
States is designing than to find ways to accommodate themselves 
with their neighbor to the east. They have to get along with 
Iran. They have no choice. We're designing the force in that 
manner. I would go to Tehran myself if I were the President of 
Iraq, because I can't afford any kind of conflict with them.
    Mr. Shays. I agree with that. That's a very interesting 
point.
    General Nash. So those are some of the incentives both on 
the security side and on the economic side that I would----
    Mr. Shays. I'm biased, but I like my suggestion to motivate 
them better than yours.
    General Nash. OK.
    Mr. Shays. Dr. Hoffman.
    Dr. Hoffman. Firstly, I never met with General Nash before, 
and I find myself agreeing with him on many things, but none 
more than on thanking you and Representative Van Hollen for 
these hearings and for this opportunity to really address you 
in a much longer time that I have ever had in any other 
congressional hearing. Thank you very much.
    Mr. Shays. Thank you for thanking us.
    Dr. Hoffman. I will go back--I think it's fine to set a 
timeline, but I go back to when we first met, which was 7 years 
ago when you were conducting hearings long before September 
11th on why we don't have a strategy for countering terrorism 
or why we don't have a strategy for our counterterrorism 
policies. And I think if we're going to set a timeline, we have 
to ask the same questions: How can we stick with the same 
strategy then? And that we have to realize that there's a 
military term, you don't reinforce failure, but it seems we 
haven't been succeeding in the past 3 years. Yet we keep 
investing in the same piecemeal basis and the same strategy 
that obviously isn't succeeding.
    So I think it has to be a political will on our part 
firstly to make the commitment, if the Iraqis will make the 
commitment to see this through--and I will come to the Iraqi 
side of the dimension in a second--but also to have the 
commitment ourselves. If we're going to set a timeline then we 
have to be much more reflective on where we've gone wrong in 
the last 3 years and not just keep repeating the same mistake.
    In terms of the Iraqis I think--and again, maybe it's my 
practical approach to this problem that may also be naive--but 
I think there are any number of small steps that can bring 
about a much longer stride and that we just haven't pushed the 
Iraqis hard enough. I think there's plenty of people, as you 
well know from your trips to Baghdad, in the embassy and in the 
military who know what needs to be done. It's just the problem 
of doing it. I think first and foremost, there should be a 
conscription on the part of the Iraqis. I'm still surprised, if 
I'm not mistaken, that there is no national conscription in 
Iraq. We're just soliciting volunteers, whether it's for the 
police or for the Iraqi Army. If this really is their fight----
    Mr. Shays. Let me just ask you this, though, to interrupt 
to clarify. Are you aware that they're having a hard time 
getting volunteers? My understanding is that they don't. But 
has that changed?
    Dr. Hoffman. No. I think they still are getting volunteers. 
It's part of the reflection of the economy as well, as well as 
everything else, but no. As a national commitment, though, I 
think that for conscription would be one step because I think 
that would require other things that the Iraqis have resisted 
that I believe are essential for counterinsurgency. You can't 
have a conscription if you don't know who your population is. 
So you have to have a detailed census and you also are going to 
have to issue national ID cards so you know who people are, 
and, when they turn the proper age, get them into office. We 
have been pushing the Iraqis, at least since I was with the CPA 
2 years ago, to have some sort of census.
    Mr. Shays. Let me ask if you had conscription--in other 
words, you would basically have a draft.
    Dr. Hoffman. Exactly.
    Mr. Shays. Then you are talking about potentially millions 
rather than 325,000.
    Dr. Hoffman. Well, we could control the numbers.
    Mr. Shays. So it's an interesting proposal because 
basically what you would do is you would basically be in a 
sense, you would have--some of these young folks you would be 
having literally in your military in bases under the 
supervision of somebody else, rather than on the streets doing 
battle.
    Dr. Hoffman. Well, of course, it would only work if we had 
the same kind of commitment, perhaps a bigger troop commitment, 
to have the trainers to train this new army. But this may be, 
you know, completely half or even quarter baked. The only 
reason I thought of it was when you were discussing Israel 
earlier, I thought, what is one of the things that accounts for 
Israeli national cohesion is that there's universal service, 
and this is absolutely essential for Israelis for integrating 
the diversity of the people who are Israelis. So that's at the 
top of my head, trying to----
    Mr. Shays. No, no. And I appreciate that a lot.
    Dr. Hoffman. Going out. And then I also thought, well, the 
conscription issue demonstrates the Iraqi commitment. But also 
as I said, the kinds of accounting that you would have to have 
for it would push the Iraqis in other directions. You can't 
have an insurgence if you don't know where--who the people are 
and where they're going. And that's been one of the biggest 
problems. That's why the British succeeded in Northern Ireland 
is through license plates; they could find out if someone was 
out of place, and was traveling across Northern Ireland at a 
place they shouldn't be, and they could then ask the questions. 
We have no such ability in Iraq.
    And then I would say as a fourth, go back to a point that I 
answered to Mr. Van Hollen's question is that also, if we're 
going to make this investment in training and true Iraqi 
national military, then also there has to be a purging of their 
discordant and corrupt sectarian elements from the MOI, 
wherever else; and this is the political will that has to be 
demonstrated by the leadership in Iraq. Then we get to the 
problem.
    This was the same problem we had in Vietnam and also in El 
Salvador. It's conditionality and trying to get our--you know, 
who the government we're mentoring to actually do these things.
    But perhaps the firm timeline, I think setting the timeline 
on its own won't solve the problem. But setting the timeline, 
as you argue we need to do, with perhaps these very firm points 
that have to be done as part of a change in strategy and policy 
might provide the influence and the pressure for the Iraqis to 
change. I mean, it may be--and I am not saying this at all in a 
partisan way. But it may be that we just need a new perspective 
here. When the British--the first 3 years in Malaya, in the 
late 1940's and early 1950's, were failing dismally. In fact, a 
lot of the same problems we see in Iraq existed in Malaya. 
That's held up now as one of the--the leading ways to solve a 
counterinsurgency. Actually, it was the death of the high 
commissioner at the time and then a change of government that 
resulted in just a new approach.
    Now, again, I am not saying this is partisan, that we 
should have a clean broom, but what I am saying is that if 
we're going to have a timeline, we need a new strategy and we 
need people who will have an honest discussion about what the 
new strategy should be.
    Mr. Shays. I would just note for the record, that would be 
a change in the administration, not in Congress. Thank you. 
Thank you, Mr. King.
    Mr. King. I would also like to emphasize thank you for the 
opportunity to share my thoughts with you today and provide 
testimony.
    I was one of the primary cease-fire negotiators on Fallujah 
One, and the one thing that came across during our 
negotiations, Iraqis have never won a war but they've never 
lost a negotiation. And they're quite apt at that. So the 
political dialog would have to be pushed from our side for all 
the groups to come together.
    The most recent move by Barzani to not fly the Iraqi flag, 
which sort of flies in the face toward the other Iraqis, that 
was one of those things that we need to address.
    Mr. Shays. Explain the flag again.
    Mr. King. This past week, Mr. Barzani directed that in his 
areas they no longer fly the Iraqi flag but the Kurdish flag. 
So I mean, if we're trying to move toward a unified government, 
a unified country, I mean that flies in the face of it. To set 
a realistic baseline, obviously 325,000 individuals for a 
country the size of Iraq with 26--you know, 26 to 28 million 
people may be a little low. That will establish the end state. 
How long will it take us to get there? When will they be 
prepared to take over their own security? And that will allow 
us to design a timeline based on that end state, that process. 
And I agree with Dr. Hoffman that we're probably looking at 7 
to 10 years for this to take place.
    To help the judicial system, they only--they look at having 
1,500 judges. I think they're at 720 today, less than half of 
what they need. This causes a problem for the rule of law, the 
implementation. So, to help the commission of the public 
integrity to sort out some of the issues within the Ministry of 
Interior and move those forward. Yes, sir, thank you again very 
much.
    Mr. Shays. Is there any last comment that any of you would 
like to make before we adjourn? If not, we are not adjourning. 
We are recessing, correct? Yeah. And that's all I need. We are 
recessing until Wednesday.
    And, Wesley, recessing means that we will be back here on 
Wednesday but with new panels. Your dad has done his job 
extraordinarily well, as have you, Dr. Hoffman and you, General 
Nash. And it's been an honor and a real education to have you 
before the committee, and I thank you very much. So we stand in 
recess until 10 on Wednesday. Thank you all very much.
    [Whereupon, at 2:57 p.m., the subcommittee recessed, to 
reconvene at 10 a.m. On Wednesday, September 13, 2006.]
    [The prepared statement of Hon. Jon C. Porter and 
additional information submitted for the hearing record 
follow:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

                                 <all>

</pre></body></html>
